No.
_____________________________________________________________________________________________________________________________________________________________________________________________

IN THE SUPREME COURT OF THE UNITED
STATES
PARENTS FOR PRIVACY; JON GOLLY; KRIS
GOLLY; NICOLE LILLIE; AND PARENTS
RIGHTS IN EDUCATION;
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL;
BETSY DEVOS; U.S. DEPARTMENT OF
EDUCATION; U.S. DEPARTMENT OF JUSTICE;
DALLAS SCHOOL DISTRICT NO. 2,
Respondents,
BASIC RIGHTS OREGON, Respondent-Intervenor

_______________________________________________________________________________________________________________________________________________________________________________________________

________________________________________________________________________________________________________________________________________________________________________________________________

On Petition for a Writ of Certiorari to the

United States Court of Appeals for the Ninth
Circuit
________________________________________________________________________________________________________________________________________________

Petition for a Writ of Certiorari
Mary E. McAlister
Vernadette R. Broyles
(Counsel of Record)
Joel H. Thornton
Child & Parental Rights Child & Parental Rights
Campaign, Inc.
Campaign, Inc.
P.O. Box 637
5805 State Bridge Rd.,
Monroe, VA 24572
Suite G310
770.448.4525
Johns Creek, GA 30097
mmcalister@childparent 770.448.4525
rights.org

________________________________________________________________________________________________________________________________________________________________________________________________

Counsel for Petitioners

i
QUESTIONS PRESENTED
1.
Whether
parents
surrender
their
fundamental right to direct the upbringing of their
children by enrolling them in public school so that a
school district can compel children to disregard
biological reality by requiring that they expose their
bodies to classmates of the opposite sex and affirm
that a child is the sex with which he or she selfidentifies.
2.
Whether schoolchildren’s rights to bodily
privacy are violated when they are compelled to
undress and engage in intimate bodily functions in
the presence of members of the opposite sex who selfidentify as something other than their sex while
using privacy facilities.
3.
Whether a school district can compel children
to violate sincerely held religious beliefs that sex is
based on biological reality by being forced to affirm
that members of one biological sex are members of
the opposite sex if they self-identify as that sex.
4.
Whether a school district violates Title IX
when it compels children to accept into sex-separate
privacy facilities members of the opposite sex who
self-identify as something other than their sex and
to affirm that students are members of whatever sex
with which they self-identify.

ii
PARTIES TO THE PROCEEDING
Petitioner Parents for Privacy is an
unincorporated association in the State of Oregon.
Petitioners Jon Golly, Kris Golly, and Nicole Lillie
are individuals and parents of students and former
students in Dallas School District No. 2. Petitioner
Parents Rights in Education is a nonprofit
corporation located in Oregon.
Respondent William P. Barr is the Attorney
General of the United States. Respondent Betsy
DeVos is the Secretary of Education of the United
States. The U.S Departments of Justice and
Education are government agencies in the Executive
Branch of the United States (collectively “Federal
Respondents”).1 Respondent Dallas School District
No. 2 (“District”) is a public school district located in
Dallas, Polk County, Oregon organized under the
laws of the State of Oregon. Intervenor-Respondent
Basic Rights Oregon is a nonprofit organization in
the state of Oregon.
CORPORATE DISCLOSURE STATEMENT
Petitioner Parents Rights in Education is a
nonprofit corporation in the State of Oregon. It does
not have any parent companies, and no entity or
other person has any ownership interest in it.

The Federal Defendants were dismissed for lack of
standing by the District Court. Petitioners did not challenge
that ruling at the Ninth Circuit and are not challenging it in
this Petition.
1

iii
STATEMENT OF RELATED CASES
Petitioners state that the following are cases
related to this case: Parents for Privacy, et. al v.
William Barr, et. al. Ninth Circuit Court of Appeals
Case No. 18-35708, decided February 12, 2020, and
Parents for Privacy, et. al. v. Dallas School District
et. al., Oregon District Court Case No. 3:17-cv01813-HZ, decided July 24, 2018.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ..................................... i
PARTIES TO THE PROCEEDING ......................... ii
CORPORATE DISCLOSURE STATEMENT ......... ii
STATEMENT OF RELATED CASES .................... iii
TABLE OF CONTENTS ......................................... iv
APPENDIX .............................................................. vi
TABLE OF AUTHORITIES .................................. vii
INTRODUCTION .................................................... 1
DECISIONS BELOW .............................................. 3
STATEMENT OF JURISDICTION ........................ 3
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS ................................... 3
STATEMENT OF THE CASE ................................. 4
A.

Factual Background.................................... 4

B.

Procedural Background .............................. 6
1.

District Court Decision ............................ 6

2.

Ninth Circuit Decision ............................. 8

REASONS TO GRANT THE PETITION .............. 10

v
I. This Court Should Grant The Petition To
Resolve The Conflict Between The Ninth Circuit’s
Ruling That Parents Surrender All Right To
Direct The Education And Upbringing Of Their
Children When They Enroll Them In Public
School And This Court’s Precedents Invalidating
Public Schools’ Infringement of The Rightful
Authority Of Parents. ........................................ 11
II.
This Court Should Grant The Petition To
Resolve The Question Of Whether Children Can
Be Compelled To Forfeit Their Right To Bodily
Privacy In Order To Attend Public School. ....... 17
A.
The Ninth Circuit Decision Conflicts with
This Court’s Decisions Recognizing That Bodily
Privacy Is A Protected Constitutional Right
Even In Institutional Settings. ...................... 18
B.
The Ninth Circuit Decision Conflicts With
Decisions From Other Circuits Affirming A
Constitutional Right of Bodily Privacy Even
When The Expectation of Privacy Is
Diminished. ..................................................... 24
1. The Ninth Circuit’s Dismissal of Plaintiffs’
Privacy Claims Conflicts with Decisions in the
Fourth, Sixth, and Seventh Circuits
Upholding Students’ Right of Privacy Even in
the Context of Suspected Misconduct. ......... 24
2. The Ninth Circuit’s Dismissal of Plaintiffs’
Privacy Claim Conflicts with Other Circuits’
Decisions Finding that Even Prisoners Retain
Privacy Interests in their Unclothed
Bodies. .......................................................... 29

vi
III. This Court Should Grant The Petition To
Resolve The Conflict Between The Ninth Circuit’s
Decision And This Court’s Free Exercise
Precedents, Which Provide That Schools Cannot
Compel Parents and Students To Embrace Beliefs
or Engage in Conduct That Is Undeniably At Odds
With Fundamental Tenets Of Their Religious
Beliefs.................................................................. 31
IV. This Court Should Grant The Petition To
Resolve The Critical Question Of Whether Schools
Violate Title IX When They Require That
Students Accept That Sex-Separate Privacy
Facilities Will Be Used By Any Student Who SelfIdentifies As A Particular Sex. .......................... 35
CONCLUSION ....................................................... 40
APPENDIX
Ninth Circuit Opinion (Feb. 12, 2020) .................. 1a
District Court Decision (July 24, 2018) ............... 78a
Constitutional and Statutory Provisions .......... 173a
Complaint ........................................................... 176a
Exhibit A to Complaint ...................................... 259a

vii
TABLE OF AUTHORITIES
Cases
Ballard v. United States,
329 U.S. 187 (1946) ...................................... 19, 37
Bd. of Educ. of Indep. School Dist. No. 92 v. Earls,
536 U.S. 822 (2002) ..................................... passim
Beard v. Whitmore Lake School Dist.,
402 F.3d 598 (6th Cir. 2005) ......................... 26, 27
Bostock v. Clayton County,
__ S. Ct. __, 2020 WL 3146686 .................... passim
Brannum v. Overton County School Bd.,
516 F.3d 489 (6th Cir. 2008) ............. 18, 25, 26, 28
Canedy v. Boardman,
16 F.3d 183 (7th Cir. 1994) ........................... 29, 30
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah,
508 U.S. 520 (1993) .......................... 31, 33, 34, 35
Cornfield by Lewis v. Consol. High Sch. Dist. No.
230,
991 F.2d 1316 (7th Cir. 1993) ....................... 18, 27
Faulkner v. Jones,
10 F.3d 226 (4th Cir. 1993) ..................... 24, 25, 26
Fields v. Palmdale Sch. Dist.,
427 F.3d 1197 (9th Cir. 2005) ................... 7, 10, 12

viii
Fields v. Palmdale Sch. Dist.,
447 F.3d 1187 (9th Cir. 2006) ............................. 12
Fortner v. Thomas,
983 F.2d 1024 (11th Cir. 1993) ..................... 18, 29
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm'n,
138 S. Ct. 1719 (2018) ............................ 31, 34, 35
Meyer v. Nebraska,
262 U.S. 390 (1923) ............................................ 11
Outdoor Media Grp., Inc. v. City of Beaumont,
506 F.3d 895 (9th Cir. 2007) ................................. 4
Parham v. J.R.,
442 U.S. 584 (1979) ................................ 15, 16, 17
Pierce v. Society of Sisters,
268 U.S. 510 (1925) ...................................... 11, 14
Planned Parenthood of SE Pennsylvania v. Casey,
505 U.S. 833 (1992) ....................................... 29-30
Safford Unified Sch. Dist. No. 1 v. Redding,
557 U.S. 364 (2009) ..................................... passim
Students and Parents for Privacy v. School
Directors of Township High School District 211,
377 F. Supp. 3d 891 (N.D. Ill. 2019) .................. 33
Tinker v. Des Moines Indep. Cmty. Sch. Dist.,
393 U.S. 503 (1969) ...................................... 11, 13

ix
Troxel v. Granville,
530 U.S. 57 (2000) .................................. 15, 16, 17
United States v. Virginia,
518 U.S. 515 (1996) ..................................... passim
Vernonia School District v. Acton,
515 U.S. 646 (1995) ..................................... passim
Washington v. Glucksberg,
521 U.S. 702 (1997) ............................................ 12
West Virginia State Board of Education v. Barnette,
319 U.S. 624 (1943) ..................................... passim
Wisconsin v. Yoder,
406 U.S. 205 (1972) ..................................... passim
Treatises
3 George B. Trubow, ed., Privacy Law and Practice,
¶ 25.02[1] (1991) ................................................. 30

1
INTRODUCTION
This Court has the opportunity to untie a
Gordian knot of conflicting constitutional and
statutory rights and provide critically needed
guidance to lower courts grappling with public
school policies that seek to accommodate privacy
facilities2 use requests by children who self-identify
as something other than their biological sex. When,
as occurred here, a school district responds to such
requests by directing that access to sex-separate
privacy facilities shall be based on children’s selfidentity instead of biological sex, it affects
constitutional and statutory rights of all district
parents and students. In this case, the constitutional
impacts are exacerbated because the district: 1)
prohibits students from objecting to the presence of
opposite sex classmates in privacy facilities under
threat of disciplinary action and 2) sends the
message to students and parents that those who
object are intolerant and bigoted.
The District’s directive interferes with
parents’ rights to direct the upbringing of their
children, schoolchildren’s rights to bodily privacy,
parents’ and children’s rights to free exercise of
religion, and children’s rights to be free from hostile
educational environments under Title IX.
Because of the wide-ranging effect of the
District’s policy, this case presents an ideal vehicle
Petitioners are using the term “privacy facilities” to
refer to sex-separated facilities used for intimate bodily
functions and changing clothes, including bathrooms, locker
rooms, and showers.
2

2
for this Court to provide clarity on multiple
interrelated constitutional issues at one time. Also,
this case presents this Court with the opportunity to
immediately provide guidance regarding some of the
questions left unanswered by its decision in Bostock
v. Clayton County, No. 17-1618, __ S.Ct. __, 2020 WL
3146686 (June 15, 2020). Specifically, this case
presents the opportunity to clarify whether Title IX
is violated when public schools re-label sex-separate
privacy facilities as based on how a child identifies
instead of biological sex, thus requiring children to
expose themselves and be exposed in secluded
spaces to members of the opposite sex in states of full
and partial undress.
The stakes in this case are significant for
public school parents and children throughout the
country. This case asks whether public schools can
require that parents surrender all rights to direct
the education and upbringing of their children as the
price for a public education, for which all parents are
compelled to pay. It also asks whether public schools
can compel students to surrender their right to
privacy and to affirm biological reality. It also asks
whether public schools can require that children and
parents surrender their right to exercise religious
beliefs about the nature of the human body. Finally,
it asks whether public schools can compel children
to accept an educational environment that is hostile
to their concept of biological sex.
As schools continue to wrestle with how to
accommodate privacy facilities use requests from
children who self-identify as something other than
their biological sex, this Court’s guidance is critically

3
needed in order to strike the proper balance between
the rights of the requesting students and the rest of
the school community.
DECISIONS BELOW
The decision of the Ninth Circuit Court of
Appeals is published at 949 F.3d 1210 and
reproduced in the Appendix at 1a-77a.
The decision of the U.S. District Court for the
District of Oregon is reported at 326 F.Supp.3d 1075
and is reproduced in the Appendix at 78a-172a.
STATEMENT OF JURISDICTION
The Ninth Circuit Court of Appeals entered
its decision on February 12, 2020. Pursuant to this
Court’s Order dated March 19, 2020, “the deadline
to file any petition for a writ of certiorari due on or
after the date of this order is extended to 150 days
from the date of the lower court judgment, order
denying discretionary review, or order denying a
timely petition for rehearing.” Petitioners timely
filed this Petition on July 10, 2020.
This Court has jurisdiction under 28 U.S.C. §
1254(1).
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The text of the First and Fourteenth
Amendments to the United States Constitution is
found at Appx. 173a-175a. The relevant portion of

4
the text of Title IX of the Education Amendments of
1972 is reprinted at Appx. 175a.
STATEMENT OF THE CASE
A.

Factual Background

Respondent Dallas School District (the
“District”) enacted a Transgender Student Access to
Locker Room Student Safety Plan (the “Plan”) that
fundamentally
changed
the
educational
environment throughout the district. Appx. 259a.
Under the Plan and policy statements made by
administrators, privacy facilities that had been
designated for use by girls and boys were opened for
use by anyone who self-identified as the subject sex
regardless of their biological sex. Complaint,3 Appx.
205a-208a. The District enacted the Plan in
response to a request from Student A, a biological
girl who in her4 senior year publicly stated that she
identified as a boy and wanted to use the boys’ locker
room. Appx. 205a-206a. Student A’s parent and legal
guardian rejected the request. Appx. 206a. The
District disregarded the parent’s decision and
instituted the Plan. Id.
Because the appeal was taken from the dismissal of
Petitioners’ Complaint, the Ninth Circuit was to “draw the
facts from the complaint’s well-pleaded factual allegations and
from the exhibits attached to the complaint. See Outdoor
Media Grp., Inc. v. City of Beaumont, 506 F.3d 895, 899–900
(9th Cir. 2007).” Appx. 10a n.2. Since the lower courts omitted
and misstated some of the Complaint’s factual allegations,
Petitioners are including and citing to the full text of the
Complaint and Exhibit A in the Appendix. Appx. 176a-262a.
4
Petitioners will refer to Student A with pronouns that
correspond to her biological sex.
3

5
Under the Plan Student A could use any
privacy facility that she believed matched her
identity. Appx. 205a-206a. Throughout the school
year she used the boys’ locker room, shower, and
bathrooms. She undressed in the presence of male
classmates. Id. Some male classmates reported
embarrassment, humiliation, anxiety, intimidation,
fear, apprehension, and stress produced by having to
use these privacy facilities with a classmate of the
opposite sex. Appx. 207a. Petitioners alleged that
the stress and anxiety some students experienced
over having to use privacy facilities with biologically
opposite-sex students was an ever-present
distraction throughout the school day, including
during classroom instruction time. Appx. 208a.
The high school principal expanded the Plan
to provide that all restroom facilities may be utilized
by any student regardless of their biological sex.
Appx. 208a. The high school principal further told
students that they could not object to students of the
opposite sex utilizing the same facilities that they
used. Id. When students attempted to object by
circulating petitions, the principal confiscated the
petitions and told students that any further efforts
to object to the Plan would be met with disciplinary
action. Appx. 209a. District officials also conveyed
the message to Petitioners and others that any
objection to the Plan would be viewed by the District
as intolerance and bigotry. Appx. 215a.
Students are forced to interact with opposite
sex students in locker rooms because physical
education (“PE”) is mandatory. Appx. 212a.
Moreover, it is mandatory that all students in PE

6
class change into clothing appropriate for PE class,
and all must change their clothes at the beginning
and end of each PE class. Id. This means that
students are compelled to disrobe in the presence of
opposite sex classmates who claim a different gender
identity and observe those classmates disrobe
without objection or risk disciplinary action. Id.
The District’s governing board ratified the
Plan as implemented by District officials. Appx.
210a.
B.

Procedural Background

1. District Court Decision
Petitioners filed a lawsuit in the District
Court for the District of Oregon alleging violation of
their Fourteenth Amendment rights of privacy and
to direct the upbringing of their children, their First
Amendment right to freedom of religion, Title IX and
several state
law
provisions. Appx. 176a-262a. The district court
dismissed the entire complaint without leave to
amend, stating that there was no legal theory under
which Petitioners could seek relief so that granting
leave to amend would be futile. Appx. 78a-172a. In
dismissing the case, the district court recast the
nature of the rights underlying Petitioners’ claims
and then found that there were no such rights
protected under the Constitution. Appx 78a-172a.
Petitioners alleged that the Plan violates
students’ fundamental right to privacy in their
unclothed bodies, as well as their fundamental right
to be free from government-compelled risk of

7
intimate exposure to the opposite sex, without any
compelling justification. Appx. 237a. The district
court did not like the Petitioner’s description of the
relevant right and recast it as “do high school
students have a constitutional right not to share
restrooms or locker rooms with transgender
students whose sex assigned at birth is different
than theirs?” Appx. 116a. The court then concluded
that there is no such cognizable right of privacy.
Appx. 136a-140a.
Petitioners alleged that the Plan infringes
and undermines the right of parents to direct the
upbringing and education of their children,
including the right to determine whether and when
their minor children endure the risk of being
exposed to members of the opposite sex in intimate,
unsupervised, vulnerable settings like restrooms,
locker rooms, and showers. Appx. 239a-241a. The
district court decided that Petitioners were really
trying to interfere with the District’s decisionmaking authority in contravention of the Ninth
Circuit’s decision in Fields v. Palmdale Sch. Dist.,
427 F.3d 1197, 1207 (9th Cir. 2005). “As the Ninth
Circuit explained in Fields, Parent Plaintiffs’
Fourteenth Amendment liberty interest in the
education and upbringing of their children ‘does not
extend beyond the threshold of the school door.’ Id.
At 1207. Accordingly, the Court dismisses this
claim.” Appx. 165a.
For the Title IX claim, Petitioners alleged that
the Plan created unwelcome sexual harassment and
a hostile environment on the basis of sex by exposing
students to risks that their partially or fully

8
unclothed bodies will be exposed to students of the
opposite sex and that they will be exposed to
opposite-sex nudity. Appx. 242a-243a. The district
court concluded that use of a restroom designated for
use by biological males by a biological female who
identifies as a “transgender male” did not state a
claim for a hostile educational environment. Appx.
148a-150a.
Petitioners alleged that the Plan violated
their rights to free exercise of religion. Appx. 250a251a. In particular, they alleged that the Plan as
implemented by the District compelled them to
violate their sincere religious beliefs that they must
not undress in the presence of a member of the
opposite biological sex and must not be in the
presence of the opposite biological sex while the
opposite biological sex is undressing. Id. The district
court dismissed the claim, saying “[t]here are no
allegations that District forced any Plaintiff to
embrace a religious belief, nor does the Plan punish
anyone for expressing their religious beliefs.” Appx.
169a.
2. Ninth Circuit Decision
The Ninth Circuit affirmed the district court’s
dismissal of Petitioners Complaint without leave to
amend. Appx. 10a-77a. The Ninth Circuit adopted
the District Court’s redefinition of the relevant
rights asserted by Petitioners so as to affirm the
District Court’s conclusion that Petitioners could not
state any cognizable legal claims against the
District. Appx. 10a-77a.

9
The Ninth Circuit adopted the District
Court’s recasting of the underlying right of bodily
privacy as a “fundamental privacy right to avoid all
risk of intimate exposure to or by a transgender
person who was assigned the opposite biological sex
at birth.” Appx. 9a. Not surprisingly, the panel
affirmed that Petitioners could not state a claim for
that novel right. Appx. 35a.
In affirming the dismissal of the Title IX
claim, the Ninth Circuit said that Petitioners were
complaining about “the normal use of privacy
facilities.” Appx. 43a. “The use of facilities for their
intended purpose, without more, does not constitute
an act of harassment simply because a person is
transgender.” Id. The panel also claimed that “just
because the … Plan implicitly addresses the topics
of sex and gender by seeking to accommodate a
transgender student’s gender identity, or because it
segregates facilities by gender identity, does not
mean that the Plan harasses other students on the
basis of their sex.” Appx. 41a. Instead, the Ninth
Circuit said, “the Student Safety Plan treats all
students—male and female—the same.” Id.
The Ninth Circuit also affirmed dismissal of
the parental rights claim, saying that “the
Fourteenth Amendment does not provide a
fundamental parental right to determine the
bathroom policies of the public schools to which
parents may send their children, either independent
of the parental right to direct the upbringing and
education of their children or encompassed by it.”
Appx. 9a. The court acknowledged that Petitioners
were not asserting a right to control information, as

10
was the case in Fields, but that Fields nonetheless
controlled because the parents’ complaint “similarly
involves students being exposed to things of which
their parents disapprove.” Appx. 51a.
The Ninth Circuit also affirmed dismissal of
Petitioners’ Free Exercise claims on the grounds
that “the school district’s policy is rationally related
to a legitimate state purpose, and does not infringe
Plaintiffs’ First Amendment free exercise rights
because it does not target religious conduct.” Appx.
10a.
REASONS TO GRANT THE PETITION
This Court should grant the Petition for four
reasons. First, this Court should grant review to
resolve the conflict between this Court’s precedents
and the Ninth Circuit’s determination that parents
surrender their fundamental right to direct the
education and upbringing of their children at the
threshold of the public school. Second, this Court
should grant review to resolve the conflict between
the Ninth Circuit’s determination that children
forfeit their right to bodily privacy when they attend
public school and precedents from this Court and
other circuits. Third, this Court should grant review
to resolve the conflict between the Ninth Circuit’s
dismissal of Petitioners’ Free Exercise claim and
this Court’s precedents. Finally, this Court should
grant review to answer an important question left
unanswered in Bostock, i.e., whether re-labeling sexseparate privacy facilities in public schools as based
on a student’s self-identity instead of biological sex
violates Title IX.

11
I.

This Court Should Grant The Petition To
Resolve The Conflict Between The Ninth
Circuit’s Ruling That Parents Surrender
All Right To Direct The Education And
Upbringing Of Their Children When
They Enroll Them In Public School And
This Court’s Precedents Invalidating
Public Schools’ Infringement of The
Rightful Authority Of Parents.

According to the Ninth Circuit, children are
“mere creature[s] of the state,” and “those who
nurture [them] and direct [their] destiny have
[ceded] the right, coupled with the high duty, to
recognize and prepare [them] for additional
obligations” to public schools. Contra, Pierce v.
Society of Sisters, 268 U.S. 510, 535 (1925). The
Ninth Circuit did not explicitly add that language to
Pierce, but it might as well have. That is the effect of
its derogation of decades of this Court’s precedents
establishing parents’ fundamental right to direct the
upbringing and education of their children. Id. See
also, Meyer v. Nebraska, 262 U.S. 390 (1923).
Instead of recognizing, as this Court has
established, that the state’s broad authority to
prescribe and enforce standards of conduct in its
schools “must be exercised consistently with
constitutional safeguards,” Tinker v. Des Moines
Indep. Cmty. Sch. Dist., 393 U.S. 503, 507 (1969), the
Ninth Circuit continues to assert that parents’
“Fourteenth Amendment liberty interest in the
education and upbringing of their children ‘does not
extend beyond the threshold of the school door.’”

12
Appx 47a-48a, (citing Fields, 427 F.3d at 1207).5 The
court’s conclusion conflicts with decades of this
Court’s precedents that have balanced the state’s
right to establish educational policies with parents’
fundamental right to direct the education and
upbringing of their children, a right that “has
endured as one of the liberty rights protected by the
Due Process Clause.” Washington v. Glucksberg, 521
U.S. 702, 720 (1997).
In dismissing Petitioners’ Complaint based on its
effective erasure of parental rights in Fields, the
Ninth Circuit panel is flouting this Court’s directive
that:
The Fourteenth Amendment, as now
applied to the States, protects the
citizen against the State itself and all
of its creatures—Boards of Education
not excepted. These have, of course,
important,
delicate,
and
highly
discretionary functions, but none that
they may not perform within the limits
of the Bill of Rights.
West Virginia State Board of Education v. Barnette,
319 U.S. 624, 637 (1943). In Barnette and Tinker,
this Court found that the school boards had exceeded
their constitutional authority and invaded the
“sphere of intellect and spirit which it is the purpose
The Ninth Circuit noted that it deleted the phrase “do[
] not extend beyond the threshold of the school door” from the
Fields opinion upon denial of rehearing. See Fields v. Palmdale
Sch. Dist., 447 F.3d 1187 (9th Cir. 2006), but that the deletion
did not affect the Ninth Circuit’s application of Fields to this
case or the merits of Plaintiffs’ substantive argument.
5

13
of the First Amendment to our Constitution to
reserve from all official control.” Id. at 642; Tinker,
393 U.S. at 507.
As was true of the compulsory flag salute
policy in Barnette, the Policy in this case collides
head-on with fundamental constitutional rights. In
Barnette, the policy collided with freedom of speech,
while in this case the Policy collides with parents’
fundamental right to direct the education and
upbringing of their children. In both cases, the
challenged policy is compelling children to affirm a
belief and engage in conduct that conflicts with their
parents’ core beliefs about the essential nature of
human beings. In Barnette, compelling students to
recite the Pledge of Allegiance and salute the flag
conflicted with the tenets of the faith of Jehovah’s
Witnesses. 319 U.S. at 633. “The State asserts power
to condition access to public education on making a
prescribed sign and profession and at the same time
to coerce attendance by punishing both parent and
child.” Id. at 630-31.
The same is true here. The District asserts
power to condition access to public education on
parents and students surrendering their rights to
object to a student who is a biological female using
privacy facilities designated for males (and vice
versa). Students here are compelled to disregard the
physiological differences between the sexes and
affirm the belief that biological males can be females
and biological females can be males. The compelled
affirmation of these beliefs and worldview conflicts
with the parents’ right to direct the upbringing of
their children by imparting values and standards of

14
conduct based on the physiological differences
between the sexes. As this Court said in Barnette,
such an intrusion in the private sphere of the family
exceeds the state’s legitimate authority to regulate
public education. 319 U.S. at 642. The Ninth
Circuit’s contrary conclusion based on its decision
that parents have surrendered their right to impart
those standards to their children by enrolling them
in public school is irreconcilable with Barnette and
should be reviewed by this Court.
The Ninth Circuit’s conclusion also conflicts
with this Court’s decision in Wisconsin v. Yoder, 406
U.S. 205 (1972). In Yoder, this Court affirmed that:
There is no doubt as to the power of a
State, having a high responsibility for
education of its citizens, to impose
reasonable regulations for the control
and duration of basic education. See,
e.g., Pierce v. Society of Sisters, 268 U.S.
510, 534, 45 S.Ct. 571, 573, 69 L.Ed.
1070 (1925). Providing public schools
ranks at the very apex of the function
of a State.
Id. at 213. At the same time, “[t]he values of parental
direction of the religious upbringing and education
of their children in their early and formative years
have a high place in our society.” Id.
Thus, a State’s interest in universal
education, however highly we rank it,
is not totally free from a balancing
process
when
it
impinges
on
fundamental rights and interests, such

15
as those specifically protected by the
Free Exercise Clause of the First
Amendment, and the traditional
interest of parents with respect to the
religious upbringing of their children....
Id. at 214. As it did in Barnette, this Court applied
the balancing process and found that the state’s
interest in requiring that children attend school
until age 16 had to yield to the Amish parents’
fundamental right to educate their children at home
after eighth grade in keeping with the tenets of their
faith. Id. at 218. As was true in Barnette, in Yoder,
this Court found that the state could not compel
parents to forfeit their fundamental rights when
they enroll their children in public school. Id.
However, as the Ninth Circuit concedes, that is
exactly what it is requiring parents here, and all
parents of students in the Ninth Circuit, to do. That
irreconcilable conflict with decades of this Court’s
precedents should be reviewed and resolved by this
Court.
The Ninth Circuit’s dismissal of Petitioners’
parental rights claims based on Fields’ conclusion
that parents abandon their constitutional rights
when they enroll their children in public school also
conflicts with this Court’s precedents that fit parents
retain the right to make decisions regarding their
children’s mental and physical health and wellbeing. Parham v. J.R., 442 U.S. 584, 604 (1979);
Troxel v. Granville, 530 U.S. 57, 66 (2000). The
District adopted its Policy in response to Student A’s
declaration that she identified as a boy. Appx. 205a206a. That declaration was not related to Student

16
A’s academic or athletic status but was a statement
regarding her state of mind. As such, it is related to
Student A’s mental health and within the purview
of her parent, not the school.
Student A’s parent exercised her right to
make decisions related to Student A’s mental health
when she rejected her daughter’s request that she
use the boys’ privacy facilities. Appx. 206a. That was
in keeping with the centuries-old “canon of the
common law that parents speak for their minor
children.” Parham, 442 U.S. at 621 (Stewart, J.
concurring). “Most children, even in adolescence,
simply are not able to make sound judgments
concerning many decisions, including their need for
medical care or treatment. Parents can and must
make those judgments.” Id. at 603. “We conclude
that our precedents permit the parents to retain a
substantial, if not the dominant, role in the decision,
absent a finding of neglect or abuse, and that the
traditional presumption that the parents act in the
best interests of their child should apply.” Id. at 604.
Similarly, in Troxel this Court restated, “In
light of this extensive precedent, it cannot now be
doubted that the Due Process Clause of the
Fourteenth Amendment protects the fundamental
rights of parents to make decisions concerning the
care, custody, and control of their children.” 530 U.S.
at 65. “Accordingly, so long as a parent adequately
cares for his or her children (i.e., is fit), there will
normally be no reason for the State to inject itself
into the private realm of the family to further
question the ability of that parent to make the best

17
decisions concerning the rearing of that parent’s
children.” Id. at 68-69.
Student A’s parent was denied that
presumption and her corresponding parental right
when the District adopted the Plan in contravention
of her decision concerning her own child’s mental
health and well-being. Appx. 205a-206a. Contrary to
this Court’s determination regarding parent’s rights
in Parham and Troxel, the Ninth Circuit concluded
that Student A’s parent (and the other Petitioner
parents) no longer had such rights because she had
enrolled her child in public school. That
contravention of this Court’s precedents should be
reviewed.
The Ninth Circuit’s decision irreconcilably
conflicts with decades of precedent affirming that
parents retain the right to direct the education and
upbringing of their children in the public school
setting, especially when schools overstep their
legitimate authority. It similarly conflicts with this
Court’s precedent authorizing parents to direct
decisions pertaining to their children’s mental
health and well-being. This Court should grant
review to resolve the conflicts and restore the proper
balance between state and parental authority.
II.

This Court Should Grant The Petition To
Resolve The Question Of Whether
Children Can Be Compelled To Forfeit
Their Right To Bodily Privacy In Order
To Attend Public School.

As this Court has recognized, students have a
lower expectation of privacy in school than they do

18
elsewhere because of the unique aspects of the school
environment and the need to maintain order and
discipline. Bd. of Educ. of Indep. School Dist. No. 92
v. Earls, 536 U.S. 822, 830-31 (2002). That means
that students can be restricted to a greater degree
than can adults. Id. While students’ expectations of
privacy might be diminished, they are not
extinguished. Safford Unified Sch. Dist. No. 1 v.
Redding, 557 U.S. 364, 374-75 (2009). Even in the
public school setting, this Court and courts of appeal
recognize students’ need for protection from
compelled exposure of their unclothed bodies. Id.;
Brannum v. Overton County School Bd., 516 F.3d
489, 494 (6th Cir. 2008); Cornfield by Lewis v.
Consol. High Sch. Dist. No. 230, 991 F.2d 1316 (7th
Cir. 1993).
The Ninth Circuit’s dismissal of Petitioners’
bodily privacy claims conflicts with those precedents
and with other circuit decisions affirming that even
prisoners retain a right of privacy from exposure of
their unclothed bodies to members of the opposite
physical sex. See e.g., Fortner v. Thomas, 983 F.2d
1024 (11th Cir. 1993).
A.

The Ninth Circuit Decision
Conflicts with This Court’s
Decisions Recognizing That
Bodily
Privacy
Is
A
Protected
Constitutional
Right Even In Institutional
Settings.

The Ninth Circuit’s decision conflicts with
this Court’s precedents that affirm the continuing

19
importance of recognizing the physical differences
between males and females and the associated
privacy required in communal living arrangements
and privacy facilities. Physical differences between
males and females are enduring: “[T]he two sexes
are not fungible; a community made up exclusively
of one [sex] is different from a community composed
of both.” United States v. Virginia, 518 U.S. 515, 533
(1996) (citing Ballard v. United States, 329 U.S. 187,
193 (1946)).
In Virginia, this Court specifically noted that
admitting women to the Virginia Military Institute
would “undoubtedly require alterations necessary to
afford members of each sex privacy from the
other sex in living arrangements.” 518 U.S. at 550
n.19 (emphasis added). The Court recognized that
mandating
separate
facilities
based
on
generalizations about females’ capabilities vis-a-vis
males in training, discipline, and academics was
incompatible with the Constitution. Id. However,
the enduring physical differences between the sexes
meant that separate privacy facilities were not only
compatible with the Constitution, but necessary to
protect bodily privacy. Id. That remains true
regardless of how an individual psychologically
identifies.
In Vernonia School District v. Acton, 515 U.S.
646 (1995), this Court upheld a minimally intrusive
athlete drug testing policy while upholding students’
rights to privacy in their unclothed or partially
clothed bodies. Notably, in Vernonia, students were
voluntarily participating in athletics which involved
using communal facilities designated for athletes of

20
the same sex. Id. at 657. This Court noted that these
locker rooms used by members of the same sex “were
not for the bashful” since they required dressing,
undressing, and showering together. Id. The drug
testing policy involved staff members of the same
sex accompanying the student athletes into the
bathroom designated for that sex. Id. at 658. The
students remained fully clothed with their backs to
the staff members or in a stall with the door closed
while providing urine samples. Id. Since the protocol
was no more intrusive than what the students would
encounter in any public sex-separate restroom, it
was not an unreasonable invasion of privacy. Id.
That was particularly true in light of the district’s
need to address known drug use by student athletes.
Id. In addition, except for two plaintiff parents, “the
primary guardians of Vernonia’s schoolchildren,”
i.e., their parents, did not object to the drug testing
program. Id. at 665. Therefore “[w]e find insufficient
basis to contradict the judgment of Vernonia’s
parents, its school board, and the District Court, as
to what was reasonably in the interest of these
children under the circumstances.” Id.
In Earls this Court found that a similar drug
testing policy for students in non-athletic
extracurricular activities did not violate the
students’ right to bodily privacy. 536 U.S. at 834. As
was true in Vernonia, in Earls the students
remained fully clothed and were monitored by a
same-sex staff member who stood outside a closed
bathroom stall while the students provided a urine
sample. Id. This Court found that the policy was
even less problematic with regard to students’

21
privacy interests than was the policy in Vernonia.
Id.
By contrast, in this case, students are
compelled to fully undress and perform bodily
functions in the presence of a student of the opposite
sex without objection. Student A said that she
identified as a male, but she remained
physiologically and anatomically a female. Appx.
205a-206a. Unlike the students in Vernonia and
Earls who voluntarily participated in athletics or
extracurricular activities involving changing in the
presence of students of the same sex, students here
are compelled to take PE classes and to change
clothes for those classes in the presence of students
of the opposite sex. Appx. 212a. Unlike the
circumstances in Vernonia and Earls, there is no
allegation of misconduct that justifies subjecting
students to even a minimal intrusion on their
privacy such as the fully clothed drug tests, let alone
the greater intrusion of disrobing in front of a
member of the opposite sex. Furthermore, unlike the
circumstances in Vernonia and Earls, the primary
guardians of the students, including of the student
for whom the Policy was developed, object to the
policy. Appx. 206a.
Nevertheless, the Ninth Circuit not only
decided that there was no violation of bodily privacy,
but also that there could never be a cognizable claim
for invasion of bodily privacy. That conclusion
contradicts not only Vernonia and Earls, but also
Safford.

22
In Safford, this Court found that a school
violated a student’s right to bodily privacy when it
compelled her to expose her private parts to two
female staff members as part of a search for
contraband prescription drugs. Safford, 557 U.S. at
374-75. The Court emphasized the difference
between procedures such as the urine testing in
Vernonia and Earls and the intrusive search in
Safford. Female staff members directed the female
student to remove her clothes down to her
underwear, and then “pull out” her bra and the
elastic band on her underpants while standing in
front of them in the nurse’s office. Id. at 374.
The very fact of Savana's pulling her
underwear away from her body in the
presence of the two officials who were
able to see her necessarily exposed her
breasts and pelvic area to some degree,
and both subjective and reasonable
societal expectations of personal
privacy support the treatment of such
a search as categorically distinct,
requiring
distinct
elements
of
justification on the part of school
authorities for going beyond a search of
outer
clothing
and
belongings.
Savana's subjective expectation of
privacy against such a search is
inherent in her account of it as
embarrassing,
frightening,
and
humiliating.

23
Id. This Court went on the note that the student’s
reaction was consistent with experience by other
children subject to similar exposure. Id. The Court
noted that “adolescent vulnerability intensifies the
patent intrusiveness of the exposure.” Id. If that is
true of a search by same-sex staff members, it is
much more true of daily viewing by opposite sex
peers such as is the case here.
Under Safford a single incident of an
adolescent girl being compelled to briefly expose her
private parts to female teachers in the privacy of the
nurse’s office violates the child’s right to bodily
privacy. Id. at 376-77. In this case, the children in
Dallas School District are compelled to expose their
bodies to opposite sex students in a public
locker room regularly throughout their tenure
at school. Such ongoing exposure is even more
intrusive than the one-time exposure in Safford.
Therefore, under this Court’s precedents, compelling
children to disrobe and engage in intimate bodily
functions on a daily basis in the presence of opposite
sex peers violates the students’ rights to bodily
privacy. The Ninth Circuit’s conclusion that no such
violation is legally cognizable cannot be reconciled
with Safford, Vernonia, and Earls, and should be
reviewed by this Court.

24
B.

The Ninth Circuit Decision
Conflicts With Decisions
From
Other
Circuits
Affirming A Constitutional
Right of Bodily Privacy Even
When The Expectation of
Privacy Is Diminished.
1.

The
Ninth
Circuit’s
Dismissal of Plaintiffs’
Privacy Claims Conflicts
with Decisions in the
Fourth, Sixth, and Seventh
Circuits
Upholding
Students’ Right of Privacy
Even in the Context of
Suspected Misconduct.

Echoing this Court’s ruling in U.S. v.
Virginia, the Fourth Circuit emphasized that the
need for privacy justifies separation of the sexes in
privacy facilities as it upheld a woman’s request to
enroll at The Citadel. Faulkner v. Jones, 10 F.3d 226,
232 (4th Cir. 1993). The Court contrasted
classifications based on race, which do not justify
“separate but equal” facilities, with classifications
based on sex. Id.
When, however, a gender classification
is
justified
by
acknowledged
differences, identical facilities are not
necessarily mandated. Rather, the
nature of the difference dictates the
type of facility permissible for each
gender. The point is illustrated by

25
society’s undisputed approval of
separate public rest rooms for men and
women based on privacy concerns. The
need for privacy justifies separation
and the differences between the
genders demand a facility for each
gender that is different.
Id. In the end, distinctions in any separate facilities
provided for males and females may be based on real
differences between the sexes, both in quality and
quantity, so long as the distinctions are not based on
stereotyped
or
generalized
perceptions
of
differences. Id. at 232.
The Sixth Circuit confirmed that the
constitutional right to privacy includes students’
rights to shield their bodies from exposure to
viewing by the opposite sex. Brannum, 516 F.3d at
494. The court found that right was violated when
school officials filmed students changing clothes in
locker rooms via surveillance cameras. Id.
Perhaps it is merely an abundance of
common
experience
that
leads
inexorably to the conclusion that there
must be a fundamental constitutional
right to be free from forced exposure of
one’s person to strangers of the
opposite sex when not reasonably
necessary
for
some
legitimate,
overriding reason, for the obverse
would be repugnant to notions of
human decency and personal integrity.
Id. at 495. “We recognize, of course, that this is not
a case of ‘naked bodies’ being viewed by the

26
surveillance cameras, but rather underwear clad
teen and pre-teen boys and girls. However, the
difference is one of degree, rather than of kind.” Id.
Given the universal understanding
among middle school age children in
this country that a school locker room
is a place of heightened privacy, we
believe placing cameras in such a way
so as to view the children dressing and
undressing in a locker room is
incongruent to any demonstrated
necessity, and wholly disproportionate
to the claimed policy goal of assuring
increased school security, especially
when there is no history of any threat
to security in the locker rooms.
Id. at 498.
In Beard v. Whitmore Lake School Dist., 402
F.3d 598, 605 (6th Cir. 2005), the Sixth Circuit
affirmed that “[s]tudents of course have a significant
privacy interest in their unclothed bodies.”
Consequently, the school’s strip searches of students
for alleged stolen money violated even the more
limited privacy expectation of a locker room Id. at
604-05. “The students here were attending gym class
as part of a general school curriculum.” Id. at 605.
“They accordingly did not voluntarily consent to be
regulated more closely than the general student
population, as do student athletes who choose to go
out for school sports teams.” Id. Therefore, according
to the Sixth Circuit, students’ rights of bodily
privacy are violated when they are compelled to

27
expose their bodies to members of the same sex as
part of an investigation into alleged misconduct. Id.
The Seventh Circuit has similarly held that
students have a constitutionally protected right to
not have their unclothed bodies exposed to same-sex
third parties, even when misconduct is alleged.
Cornfield by Lewis v. Consol. High Sch. Dist. No.
230, 991 F.2d 1316 (7th Cir. 1993). “Subjecting a
student to a nude search is more than just the mild
inconvenience of a pocket search, rather it is an
intrusion into an individual’s basic justifiable
expectation of privacy.” Id. at 1320. “It does not
require a constitutional scholar to conclude that a
nude search of a thirteen-year-old child is an
invasion of constitutional rights of some magnitude.
More than that: it is a violation of any known
principle of human decency.” Id. at 1320-21. The
Court noted that the effect of a nude search will vary
with the age of a student. “As children go through
puberty, they become more conscious of their bodies
and self-conscious about them. Consequently, the
potential for a search to cause embarrassment and
humiliation increases as children grow older.” Id. at
1321 n.1. That is true regardless of the reasons for
the search. In other words, from the child’s
perspective, exposing their bodies to others is
embarrassing and humiliating regardless of
whether it is for an investigation or preparing for
gym class.
In this case, there are no allegations of
misconduct, meaning there is even less justification
for district interference with student privacy than
was present in Beard or Cornfield—or in Safford.

28
Furthermore, here, students are compelled to expose
their bodies to members of the opposite sex, not the
same sex. Brannum specifically involved exposure of
children’s partially clothed bodies to the opposite
sex, which the Court found “repugnant to notions of
human decency and personal integrity.” 516 F.3d at
495. The Ninth Circuit’s conclusion that compelling
elementary and secondary students to undress in
front of peers of the opposite physical sex cannot
state a claim for invasion of bodily privacy is
irreconcilable with this precedent.
It is critical for this Court to resolve this
conflict between the circuits. Public schools are
continuing to address how to accommodate requests
from children who, like Student A, psychologically
identify as a gender other than their biological sex.
Lower courts need clear guidance from this Court
regarding student privacy rights in the context of
such requests and in light of this Court’s affirmation
that enduring physical differences between the
sexes justify separate privacy facilities. U.S. v.
Virginia, 518 U.S. at 550, n.19. See also, Faulkner v.
Jones, 10 F.3d at 232.

29
2.

The
Ninth
Circuit’s
Dismissal of Plaintiffs’
Privacy Claim Conflicts
with
Other
Circuits’
Decisions Finding that
Even Prisoners Retain
Privacy Interests in their
Unclothed Bodies.

The critical need for this Court’s review of the
Ninth Circuit’s decision is even more apparent in
light of the fact that the Ninth Circuit’s decision
affords school children a lower expectation of privacy
than that afforded to prisoners. Fortner v. Thomas,
983 F.2d 1024 (11th Cir. 1993), Canedy v.
Boardman, 16 F.3d 183 (7th Cir. 1994).
In Fortner, the Eleventh Circuit recognized
that prisoners have a right to bodily privacy against
being viewed by correctional officers of the opposite
sex. 983 F.2d at 1030. “We are persuaded to join
other circuits in recognizing a prisoner’s
constitutional right to bodily privacy because most
people have ‘a special sense of privacy in their
genitals, and involuntary exposure of them in the
presence of people of the other sex may be especially
demeaning and humiliating.’” Id.
In Canedy, the Seventh Circuit held that a
male inmate was entitled to a reasonable
accommodation
to
prevent
unnecessary
observations of his naked body by female guards. 16
F.3d at 188. “The right to privacy is now firmly
ensconced among the individual liberties protected
by our Constitution.” Id. at 185 (citing Planned

30
Parenthood v. Casey, 505 U.S. 833, 845-853 (1992)).
“Moreover, ‘[o]ne of the clearest forms of degradation
in Western Society is to strip a person of his clothes.
The right to be free from strip searches and
degrading body inspections is thus basic to the
concept of privacy.’” Id. (citing 3 George B. Trubow,
ed., Privacy Law and Practice, ¶ 25.02[1] (1991)).
The Court acknowledged that “Inmates surely do not
enjoy the full sweep of constitutional rights afforded
other members of society,” but “do not surrender all
of their constitutional rights.” Id. “There is no iron
curtain drawn between the Constitution and the
prisons of this country.” Id. at 185-86.
According to the Ninth Circuit, there is such
an iron curtain drawn between the Constitution and
public schools. The Constitution requires that
prisons accommodate the bodily privacy needs of
prisoners to not be viewed by correctional officers of
the opposite sex. However, according to the Ninth
Circuit, the Constitution does not require that public
schools accommodate the bodily privacy needs of
children to not be viewed by classmates of the
opposite sex. That disparity between rights afforded
to prisoners and rights afforded to schoolchildren
should be reviewed and resolved by this Court.

31
III.

This Court Should Grant The Petition To
Resolve The Conflict Between The Ninth
Circuit’s Decision And This Court’s Free
Exercise Precedents, Which Provide
That Schools Cannot Compel Parents
and Students To Embrace Beliefs or
Engage in Conduct That Is Undeniably
At Odds With Fundamental Tenets Of
Their Religious Beliefs.

The lower courts’ conclusion that Petitioners
cannot state a cognizable claim under the Free
Exercise clause of the First Amendment is
irreconcilable with this Court’s precedents. The Plan
as implemented by the District compels students,
under threat of disciplinary sanction, to perform acts
and accept beliefs undeniably at odds with
fundamental tenets of their religious beliefs. Appx
208a-215a. That being the case, the Plan has the
same constitutional infirmity as did the compulsory
attendance law struck down in in Yoder, 406 U.S. at
218-220, and the compulsory flag salute invalidated
in Barnette. 319 U.S. at 642. The Plan also
represents the kind of “subtle departure from
neutrality” and “masked hostility” toward religion
that this Court invalidated in Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 534
(1993). See also, Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm'n, 138 S. Ct. 1719, 1731
(2018).
In Yoder, this Court found that Wisconsin’s
interest in universal education to age 16 did not
supersede Amish parents’ Free Exercise rights. 406
U.S. at 218. This Court found that compelling Amish

32
children to attend public school beyond eighth grade
and be exposed to worldly influences instead of being
integrated into the Amish community “contravenes
the basic religious tenets and practice of the Amish
faith, both as to the parent and the child.” Id. at 218.
Those compelled acts that were antithetical to the
plaintiffs’ beliefs violated their Free Exercise rights.
Id. at 219-20. This Court rejected the state’s
assertion that actions, even though religiously
grounded, are outside the protection of the First
Amendment. Id. at 219.
Similarly, in Barnette, this Court found that
the state’s authority to regulate education did not
extend to compelling Jehovah’s Witnesses to act
contrary to their faith. 319 U.S. at 642. “We think
the action of the local authorities in compelling the
flag salute and pledge transcends constitutional
limitations on their power....” Id.
The Ninth Circuit’s dismissal of Petitioners’
Free Exercise claim contravenes these authorities in
at least two significant respects. First, because it
continues to assert that parents have ceded their
parental rights to public schools, the Ninth Circuit
did not engage in the balancing process prescribed
in Yoder, 406 U.S. at 214.
Second, the Ninth Circuit refused to recognize
that the District Plan compels actions and beliefs
antithetical to Petitioners’ sincerely held religious
beliefs. Petitioners alleged that District officials
directed students that they could not object to the
presence of an opposite sex person in their privacy
facilities, something which is antithetical to their

33
religious beliefs. Appx. 215a-217a. Nor could they
object to being compelled to accept, in effect, that a
female who self-identifies as a male is “created”
male, and vice-versa, thus disqualifying all
objections to undressing or attending to bodily needs
with opposite-sexed classmates. The students were
informed that any objection to the Plan would result
in disciplinary action. Appx. 208a-209a. In addition,
students are required to take PE and to change
clothes before and after. Appx 212a-213a. Therefore,
students are compelled to expose their bodies and be
exposed to bodies of opposite sex classmates, acts
which are contrary to their religious beliefs, and to
accept such acts as normative. Under Yoder and
Barnette, those compelled acts and acceptance of
beliefs violate Free Exercise and exceed the state’s
legitimate authority to regulate education. The
Ninth Circuit’s conclusion that there is no possible
cognizable Free Exercise claim conflicts with those
precedents and should be reviewed.
The Ninth Circuit’s decision also conflicts
with this Court’s precedents that proscribe state
action that subtly departs from neutrality and
covertly suppresses particular religious beliefs.
Church of the Lukumi Babalu Aye, 508 U.S. at 534.
In a case substantially similar to this case, the
Plaintiffs alleged, as Petitioners do here (Appx.
215a), that school officials said that any objection to
the presence of opposite sex students in privacy
facilities would be viewed by the district as
intolerance and bigotry. Students and Parents for
Privacy v. School Directors of Township High School
District 211, 377 F.Supp.3d 891, 907 (N.D. Ill. 2019).
The district court denied a motion to dismiss

34
plaintiffs’ Free Exercise claim because the
allegations “sound[] like the sort of ‘subtle
departure’ from neutrality that might support a
claim under the Free Exercise Clause.” By contrast,
because of the Ninth Circuit’s presumption that all
rights are ceded to public schools, the lower courts
here determined that there is no cognizable claim
under the Free Exercise Clause.
That conclusion is in conflict with this Court’s
recent explication of the Free Exercise Clause in
Masterpiece Cakeshop.
In Church of the Lukumi Babalu Aye,
supra, this Court made clear that the
government, if it is to respect the
Constitution's guarantee of free
exercise, cannot impose regulations
that are hostile to the religious beliefs
of affected citizens and cannot act in a
manner that passes judgment upon or
presupposes
the
illegitimacy
of
religious beliefs and practices.
The Free Exercise Clause bars even
“subtle departures from neutrality” on
matters of religion. Id., at 534. Here,
that means the Commission was
obliged under the Free Exercise Clause
to proceed in a manner neutral toward
and tolerant of Phillips’ religious
beliefs. The Constitution “commits
government
itself
to
religious
tolerance, and upon even slight
suspicion that proposals for state

35
intervention stem from animosity to
religion or distrust of its practices, all
officials must pause to remember their
own high duty to the Constitution and
to the rights it secures. Id. at 547.
138 S. Ct. at 1731.
In this case, the District was obliged under
the Free Exercise Clause to proceed in a manner
neutral toward and tolerant of Petitioners’ religious
beliefs. The Constitution requires that the District
be committed to religious tolerance and its officials
must remember their own high duty to the rights
secured by the Constitution. The District’s actions
belied that obligation, yet the Ninth Circuit found
that there was not and could not be a cognizable
claim under the Free Exercise Clause. That
conclusion and the court’s continued assertion that
parents cede their rights to public school officials
contravene this Court’s precedent. Because the
court’s conclusion impinges on fundamental First
Amendment rights, it is critical that this Court
grant the Petition.
IV.

This Court Should Grant The Petition To
Resolve The Critical Question Of
Whether Schools Violate Title IX When
They Require That Students Accept That
Sex-Separate Privacy Facilities Will Be
Used By Any Student Who Self-Identifies
As A Particular Sex.

This case presents a question of profound
importance left unanswered by the decision in

36
Bostock that will be the subject of speculation and
judicial confusion if not answered by this Court.
Justice Alito referenced the question and the
uncertainty raised by the majority’s decision in
Bostock:
“[B]athrooms, locker rooms, [and other
things] of [that] kind.” The Court may
wish to avoid this subject, but it is a
matter of concern to many people who
are reticent about disrobing or using
toilet facilities in the presence of
individuals whom they regard as
members of the opposite sex. For some,
this may simply be a question of
modesty, but for others, there is more
at stake. For women who have been
victimized by sexual assault or abuse,
the experience of seeing an unclothed
person with the anatomy of a male in a
confined and sensitive location such as
a bathroom or locker room can cause
serious psychological harm....
[A] person who has not
undertaken any physical transitioning
may claim the right to use the
bathroom or locker room assigned to
the sex with which the individual
identifies at that particular time. The
Court provides no clue why a
transgender person’s claim to such
bathroom or locker room access
might not succeed. A similar issue
has arisen under Title IX, which
prohibits sex discrimination by

37
any elementary or secondary
school
and
any
college
or
university that receives federal
financial assistance.
Bostock v. Clayton County, 2020 WL 3146686 at *40
(Alito, J., dissenting) (emphasis added).
The Ninth Circuit’s decision here involves the
precise issue identified by Justice Alito. This case
involves a female, Student A, who had not
undergone any physical transition but was granted
access to bathrooms and locker rooms assigned to
males. Appx. 205a-206a. Petitioners raised the very
concerns raised by Justice Alito regarding being in
the presence of the opposite sex and psychological
harm. Appx. 216a-217a. The Ninth Circuit ruled
that such concerns can not possibly state a viable
claim under Title IX. Appx. 44a.
Furthermore, the Ninth Circuit said the
District’s policy that biological girls identifying as
boys using privacy facilities designated for boys
represented “the normal use of privacy facilities.”
Appx. 43a. That decision conflicts with this Court’s
long-standing recognition that the sexes are not
fungible but have enduring physical differences.
United States v. Virginia, 518 U.S. at 533 (citing
Ballard 329 U.S. at 193). Those enduring physical
differences mean that providing separate privacy
facilities designated by biological sex does not
constitute sex discrimination. See id. at 550, n.19.
Recognizing the physiological differences between
the sexes in the context of privacy facilities created
for the sole purpose of accommodating those physical

38
differences is not sex “stereotyping.” While the
dress, appearance, preferences, and identification of
each sex may be subject to stereotypes, the
physiological differences between them are not–they
are biological reality.
The District’s Plan erases the enduring
physical differences between the sexes by basing
access on students’ self-identity not biological sex.
Appx. 259a-261a. Student A, a biological female, is
permitted to use the male privacy facilities if she
self-identifies as a male. Appx. 205a-206a. That
means that members of each sex are not accorded
privacy from the other sex, which is the essential
purpose of sex-separate privacy facilities. U.S. v.
Virginia, 518 U.S. at 550 n.19. Under this Court’s
precedents that is not, as the Ninth Circuit
concluded, the “normal use” of privacy facilities.
Appx. 43a.
The District’s forced interaction between
biological males and biological females in privacy
facilities contravenes the privacy-protective intent
that has justified sex-separate facilities under Title
IX prior to Bostock. As Justice Alito indicated, it is
not clear whether designating privacy facilities for
use by biological sex in public schools remains
permissible after Bostock. That issue is foundational
for analyzing requests for accommodations by
students who identify as something other than their
biological sex and should be resolved quickly by this
Court to avert an epidemic of legal confusion. This
case offers the Court the opportunity to do that.

39
The Ninth Circuit’s decision also conflicts
with this Court’s affirmation in Bostock that the
determination of whether a policy discriminates on
the basis of sex is based on individuals, not groups.
2020 WL 3146686 at *11. According to the Ninth
Circuit, the District’s Plan does not discriminate on
the basis of sex because it “treats all students—male
and female—the same.” Appx. 41a. Even if that were
true, it would not follow that the Plan does not
discriminate against individuals on the basis of sex.
In fact, by definition, the Plan does discriminate
against individuals on the basis of sex. A female who
self-identifies as a girl can only access privacy
facilities designated for females. A female, like
Student A, who self-identifies as a male can use
either the female’s or male’s privacy facilities. The
first student’s privacy facilities choices are limited
while Student A’s are not based purely on her sex.
The Ninth Circuit’s conclusion that
Petitioners cannot state a cognizable claim for sex
discrimination under Title IX conflicts with this
Court’s precedents, including U.S. v. Virginia. It
also raises critical questions raised but unanswered
in Bostock. The Court should accept review to
resolve the conflict and provide guidance on the
questions that are critical for lower courts’
adjudication of school district privacy facilities
policies across the country.

40
CONCLUSION
This case is an ideal vehicle for resolving
multiple constitutional and statutory rights related
to schools’ efforts to accommodate requests from
students who self-identity as another sex. This case
involves pure questions of law. The case presents
questions related to parental rights under the
Fourteenth Amendment, privacy rights under
various constitutional provisions, First Amendment
rights and Title IX protections. Resolution of this
case will provide clarity on four critical issues lower
courts are addressing when analyzing public schools’
policies regarding privacy facilities use requests by
students who self-identify as something other than
their biological sex, vis-a-vis the rights of others.
This is critically needed guidance for parents
and students across the nation. For these reasons,
the Petition for a Writ of Certiorari to the Ninth
Circuit Court of Appeals should be granted.
Dated July 10, 2020
Mary E. McAlister
Vernadette R. Broyles
(Counsel of Record)
Joel H. Thornton
Child & Parental Rights Child & Parental Rights
Campaign, Inc.
Campaign, Inc.
P.O. Box 637
5805 State Bridge Rd.,
Monroe, VA 24572
Suite G310
770.448.4525
Johns Creek, GA 30097
mmcalister@childparent 770.448.4525
rights.org
Counsel for Petitioners

APPENDIX

1a

United States Court of Appeals, Ninth
Circuit.
PARENTS FOR PRIVACY; Jon Golly; Kris
Golly, individually and as guardians ad litem
for A.G.; Nicole Lillie; Melissa Gregory,
individually and as guardian ad litem for T.F.;
Parents Rights in Education, an Oregon
nonprofit corporation; Lindsay Golly, PlaintiffsAppellants,
v.
William P. BARR, Attorney General; Betsy
DeVos; U.S. Department of Education; United
States Department of Justice; Dallas School
District No. 2, Defendants-Appellees,
Basic Rights Oregon, Intervenor-DefendantAppellee.
No. 18-35708
Argued and Submitted July 11, 2019 Portland,
Oregon
Filed February 12, 2020
Synopsis
Background: Current and former high school
students, their parents, and organizations
brought action for injunctive relief against
school district, Oregon Department of

2a

Education, Oregon’s Governor, U.S. Department
of Education (DOE), U.S. Secretary of
Education, U.S. Department of Justice (DOJ),
and U.S. Attorney General, alleging that high
school’s policy of allowing transgender students
to use restrooms, locker rooms, and showers that
matched their gender identity, rather than their
biological sex assigned at birth, violated the Due
Process Clause, Title IX, the First Amendment’s
Free Exercise Clause, and Oregon law. The
United States District Court for the District of
Oregon, Marco A. Hernandez, J., 326 F.Supp.3d
1075, granted defendants’ motion to dismiss for
failure to state a claim. Plaintiffs appealed.
Holdings: The Court of Appeals, Tashima,
Senior Circuit Judge, held that:
[1] Fourteenth Amendment right to privacy did
not extend to avoiding all risk of intimate
exposure to or by a transgender person;
[2] district’s student safety plan for transgender
student did not discriminate on basis of sex;
[3] Due Process Clause does not provide
fundamental parental right to determine
bathroom policies of public schools;

3a

[4] plaintiffs failed to sufficiently allege that
district’s plan was not neutral toward religion;
and
[5] district’s plan was rationally related to
legitimate government interests, for purposes of
free exercise of religion.
Affirmed.
Procedural Posture(s): On Appeal; Motion to
Dismiss for Failure to State a Claim.
Attorneys and Law Firms
J. Ryan Adams (argued), Canby, Oregon;
Herbert G. Grey, Beaverton, Oregon; for
Plaintiffs-Appellants.
Dennis Fan (argued) and Marleigh D. Dover,
Appellate Staff; Billy J. Williams, United States
Attorney; Joseph H. Hunt, Assistant Attorney
General; Civil Division, United States
Department of Justice, Washington, D.C., for
Defendants-Appellees William P. Barr, Betsy
DeVos; U.S. Department of Education, and
United States Department of Justice.
Blake H. Fry (argued) and Peter R. Mersereau,
Mersereau Shannon LLP, Portland, Oregon, for
Defendants-Appellees Dallas School District No.
2.

4a

Gabriel Arkles (argued) and Shayna MedleyWarsoff, American Civil Liberties Union
Foundation, New York, New York; Peter D.
Hawkes and Darin M. Sands, Lane Powell PC,
Portland, Oregon; Matthew W. dos Santos and
Kelly Simon, ACLU Foundation of Oregon; for
Intervenor-Defendant-Appellee.
Jesse Ryan Loffler, Cozen O’Connor, Pittsburgh,
Pennsylvania, for Amici Curiae Transgender
Students and Allies.
Anthony Todaro, Jeffrey DeGroot, and Rachael
Kessler,DLA Piper LLP (US), Seattle,
Washington; Fatima Goss Graves, Emily
Martin, Neena Chaudhry, and Sunu P. Chandy,
National Women’s Law Center, Washington,
D.C.; for Amicus Curiae National Women’s Law
Center.
Wesley R. Powell, Mary Eaton, and Patricia O.
Haynes, Willkie Farr & Gallagher LLP, New
York, New York; Arthur L. Coleman, Education
Counsel LLC, Washington, D.C.; for Amici
Curiae National PTA, GLSEN, American School
Counselor Association, and National Association
of School Psychologists.
Devi M. Rao, Jenner & Block LLP, Washington,
D.C.; Andrew G. Sullivan, Jenner & Block LLP,
Los Angeles, California; for Amici Curiae
American Academy of Pediatrics, American

5a

Medical Association, American Public Health
Association, and 13 Other Medical, Mental
Health, and Other Health Care Organizations.
John C. Dwyer, Maureen P. Alger, Sarah R.
Binning, and Emily B. Harrington, Cooley LLP,
Palo Alto, California; Kyle Wong, Cooley LLP,
San Francisco, California; Shannon Minter,
Amy Whelan, and Asaf Orr, National Center for
Lesbian Rights, San Francisco, California;
Shawn Meerkamper, Transgender Law Center,
Oakland, California; for Amici Curiae PFLAG
Inc., Trans Youth Equality Foundation, Gender
Spectrum, Gender Diversity, and Transactive
Gender Project.
Alice O’Brien, Eric A. Harrington, and Gypsy M.
Moore,
National
Education
Association,
Washington, D.C., for Amicus Curiae National
Education Association.
Ellen F. Rosenblum, Attorney General;
Benjamin Gutman, Solicitor General; Jona J.
Maukonen,
Assistant
Attorney-In-Charge;
Office of the Attorney General, Salem, Oregon;
for Amicus Curiae State of Oregon.
Cynthia Cook Robertson, Pillsbury Winthrop
Shaw Pittman LLP, Washington, D.C.; Tara L.
Borelli, Lambda Legal Defense and Education
Fund Inc., Atlanta, Georgia; Richard M. Segal
and Nathaniel R. Smith, Pillsbury Winthrop

6a

Shaw Pittman LLP, San Diego, California;
Robert C.K. Boyd and William C. Miller,
Pillsbury Winthrop Shaw Pittman LLP,
Washington, D.C.; Peter C. Renn, Lambda Legal
Defense and Education Fund Inc., Los Angeles,
California;
for
Amici
Curiae
School
Administrators from Thirty States and the
District of Columbia.
George G. Gordon, Ryan M. Moore, and Thomas
J.
Miller,
Dechert
LLP,
Philadelphia,
Pennsylvania; Steven M. Freeman, Kimberley
Plotnik, David Barkey, and Melissa Garlick,
Anti-Defamation League, New York, New York;
for Amici Curiae Anti-Defamation League;
Americans United for Separation of Church and
State; Bend the Arc Jewish Action; Central
Pacific Conference of the United Church of
Christ; Corvallis-area Lavender Women;
Greater
Seattle
Business
Association;
Hadassah, The Women’s Zionist Organization of
America, Inc.; Human Rights Campaign; Jewish
Council for Public Affairs; Jewish Federation of
Greater Portland; Keshet: For LGBTQ Equality
in Jewish Life; National Center for Transgender
Equality; National Center for Youth Law;
National Council of Jewish Women; National
Queer Asian Pacific Islander Alliance; OCA Asian Pacific American Advocates; People For
the American Way Foundation; Public Counsel;

7a

South Asian Americans Leading Together;
Union for Reform Judaism; and Central
Conference of American Rabbis.
Appeal from the United States District Court for
the District of Oregon, Marco A. Hernández,
District Judge, Presiding D.C. No. CV 17-1813
HZ
Before: A. Wallace Tashima, Susan P. Graber,
and John B. Owens, Circuit Judges.
OPINION
TASHIMA, Circuit Judge:
This case concerns whether an Oregon public
school district may allow transgender students
to use school bathrooms, locker rooms, and
showers that match their gender identity rather
than the biological sex they were assigned at
birth. Plaintiffs oppose the school district’s
policy, asserting that it violates Title IX, as well
as the constitutional rights—including the right
to privacy, the parental right to direct the
education and upbringing of one’s children, and
the right to freely exercise one’s religion—of
students and of parents of students in the school
district. Defendants and many amici highlight
the importance of the policy for creating a safe,
non-discriminatory school environment for
transgender
students
that
avoids
the

8a

detrimental physical and mental health effects
that have been shown to result from transgender
students’ exclusion from privacy facilities that
match their gender identities.
It is clear that this case touches on deeply
personal issues about which many have strong
feelings and beliefs. Moreover, adolescence and
the bodily and mental changes it brings can be
difficult for students, making bodily exposure to
other students in locker rooms a potential source
of anxiety—and this is particularly true for
transgender students who experience gender
dysphoria. School districts face the difficult task
of navigating varying student (and parent)
beliefs and interests in order to foster a safe and
productive learning environment, free from
discrimination, that accommodates the needs of
all students. At the outset, we note that it is not
our role to pass judgment on the school district’s
policy or on how the school district can best
fulfill its duty as a public educational
institution. We are asked only to resolve
whether the school district’s policy violates Title
IX or Plaintiffs’ constitutional rights.
In a thorough and well-reasoned opinion, the
district court dismissed the federal causes of
action against the school district for failure to

9a

state a claim upon which relief can be granted.1
Parents for Privacy v. Dallas Sch. Dist. No. 2,
326 F. Supp. 3d 1075 (D. Or. 2018). We agree
with the district court and hold that there is no
Fourteenth Amendment fundamental privacy
right to avoid all risk of intimate exposure to or
by a transgender person who was assigned the
opposite biological sex at birth. We also hold that
a policy that treats all students equally does not
discriminate based on sex in violation of Title IX,
and that the normal use of privacy facilities does
not constitute actionable sexual harassment
under Title IX just because a person is
transgender. We hold further that the
Fourteenth Amendment does not provide a
fundamental parental right to determine the
bathroom policies of the public schools to which
parents may send their children, either
independent of the parental right to direct the
upbringing and education of their children or
encompassed by it. Finally, we hold that the
school district’s policy is rationally related to a
legitimate state purpose, and does not infringe
Plaintiffs’ First Amendment free exercise rights
The district court also dismissed Plaintiffs’
claims under Oregon state law, but Plaintiffs do
not challenge that portion of the district court’s
order on appeal.
1

10a

because it does not target religious conduct.
Accordingly, we affirm the district court’s
dismissal with prejudice of the action.
I.
In September 2015, a student at Dallas
High School who had been born and who
remained biologically female publicly identified
as a boy, and he asked school officials to allow
him to use the boys’ bathroom and locker room.2
Defendant-Appellee Dallas School District No. 2
(the “District”) responded by creating and
implementing a “Student Safety Plan” for the
transgender boy (“Student A”) and any other
transgender student who might make a similar
For the purposes of this appeal, which is
taken from the dismissal of Plaintiffs’ complaint,
we draw the facts from the complaint’s wellpleaded factual allegations and from the
exhibits attached to the complaint. See Outdoor
Media Grp., Inc. v. City of Beaumont, 506 F.3d
895, 899–900 (9th Cir. 2007) (“When ruling on a
motion to dismiss, we may ‘generally consider
only allegations contained in the pleadings,
exhibits attached to the complaint, and matters
properly subject to judicial notice.’ ” (quoting
Swartz v. KPMG LLP, 476 F.3d 756, 763 (9th
Cir. 2007) (per curiam)).
2

11a

request in the future, in order to ensure that
transgender persons like Student A could safely
participate in school activities.
The Plan acknowledged Student A as a
“transgender male” and permitted him to use
the boys’ locker room and bathroom facilities
with his peers at Dallas High School.3 The Plan
also provided that, while Student A had not
indicated “which bathroom he feels comfortable
using,” Student A could “use any of the
bathrooms in the building to which he identifies
sexually.” In addition, to ensure Student A’s
safety, the Student Safety Plan provided that all
staff would receive training and instruction
regarding Title IX, that teachers would teach
about anti-bullying and harassment, that the
Physical Education (“PE”) teacher would be first
to enter and last to leave the locker room, and
that Student A’s locker would be in direct line of
sight of the PE teacher in the coach’s office. The
Student Safety Plan also listed several “Safe
Adults” with whom Student A could share any
concerns.
The District also planned to spend between
$200,000 and $500,000 upgrading the high
school’s bathrooms and locker rooms to better
accommodate their use by transgender students.
3

12a

Student A began using the boys’ locker room
and changing clothes “while male students were
present.” This caused several cisgender boys
“embarrassment,
humiliation,
anxiety,
intimidation, fear, apprehension, and stress,”
because they had to change clothes for their PE
class and attend to their needs while someone
who had been assigned the opposite sex at birth
was present.4 Although privacy stalls were
available in the bathrooms, these were
insufficient to alleviate the cisgender boys’ fear
of exposing themselves to Student A, because
the stalls had gaps through which “partially
unclothed bodies” could “inadvertently” be seen.
And an available single-user bathroom was
often inconvenient or was considered inferior
because it lacked a shower. As a consequence of
In the District, PE is a mandatory course for
two or more years of school, and students must
change into and out of clothing appropriate for
PE class at the beginning and end of each PE
class. Some of the cisgender boys who had PE
during the same class period as Student A
changed into their PE clothes as quickly as
possible as a result of their anxiety that Student
A might see them in a partial state of undress.
4

13a

their fear of exposure to Student A, some
cisgender boys began using the restroom as little
as possible while at school, and others risked
tardiness by using distant restrooms during
passing periods in order to try to find a restroom
in which Student A was unlikely to be present.
When parents and other students in the Dallas
community became aware of the Student Safety
Plan, many opposed it publicly at successive
school board meetings, in an effort to dissuade
the District from implementing the policy. Some
parents in the District are concerned and
anxious about the prospect of their children
using locker rooms or bathrooms together with a
student who was assigned the opposite
biological sex at birth. The Student Safety Plan
also interferes with some parents’ preferred
moral and/or religious teaching of their children
concerning modesty and nudity. In addition,
several cisgender girls suffered from stress and
anxiety as a result of their fear that a
transgender girl student who remains
biologically male would be allowed to use the
girls’ locker room and bathroom. Girls had the
option of changing in the nurse’s office, but it
was on the other side of the school.
Students who opposed the Student Safety Plan
attempted to circulate a petition opposing the
policy, but the high school principal confiscated

14a

the petitions and ordered students to
discontinue doing so or face disciplinary action.
Despite the objections raised by several parents
and students, the District continued to allow
Student A to use the bathroom and locker room
that matched the gender with which he
identified.
II.
In November 2017, Plaintiffs-Appellants
Parents for Privacy, Parents’ Rights in
Education, and several individuals (collectively,
“Plaintiffs”)5 sued the District, the Oregon
The individual plaintiffs are or were
students (“Student Plaintiffs”) or parents of
students (“Parent Plaintiffs”) in the District.
Specifically, Plaintiff Lindsay Golly formerly
attended Dallas High School during the 2015–
2016 school year while the Plan was in place.
Plaintiffs Kris Golly and Jon Golly are her
parents, as well as the parents of their son A.G.,
who at the time of filing was an eighth-grade
student who would soon attend Dallas High
School. Plaintiff Melissa Gregory is a parent of
T.F., who at the time of filing was a student at
Dallas High School.
5

Plaintiff
Parents
for
Privacy
is
an
unincorporated association whose members

15a

Department of Education, the Governor of
Oregon, and various federal officials and
agencies
(collectively,
the
“Federal
6
Defendants”), arguing that the Student Safety
included, at the time of filing, current and
former students and parents of current and
former students in the District, as well as “other
concerned members of the District community.”
Plaintiff Parents’ Rights in Education is a
nonprofit “whose mission is to protect and
advocate for parents’ rights to guide the
education of their children.”
6
The Federal Defendants are the U.S.
Department of Justice, U.S. Department of
Education, Attorney General, and Secretary of
Education. These defendants were involved at
various times in the issuance and enforcement
of a number of guidance documents that initially
promoted accommodation of transgender
students in public schools, including on Title IX
grounds. Subsequently, some of those guidance
documents were withdrawn, and others were
later superseded by contrary guidance
documents.
Plaintiffs
asserted
that,
notwithstanding the withdrawal of the relevant
guidance documents, the Federal Defendants, in
part, caused the District to adopt the Student
Safety Plan, because the guidance “has not been
formally repealed, and it has continuing legal

16a

Plan violates the Constitution and numerous
other laws. The complaint alleges eight claims:
(1) violation by the Federal Defendants of the
Administrative Procedure Act, 5 U.S.C. §§ 551–
559;
(2) violation by the District and the Federal
Defendants of the Fundamental Right to Privacy
under the Fourteenth Amendment to the
Constitution;
(3) violation by the District and the Federal
Defendants of Parents’ Fundamental Right to
Direct the Education and Upbringing of Their
Children under the Fourteenth Amendment;
(4) violation by the District of Title IX, 20 U.S.C.
§§ 1681–1688;
(5) violation by the Federal Defendants of the
Religious Freedom Restoration Act of 1993, 42
U.S.C. § 2000bb– 2000bb–4;

force and effect [that is] binding” upon the
Dallas School District. Thus, the complaint
seeks to enjoin the Federal Defendants from
“taking any action” based on their previous
guidance.

17a

(6) violation by the District and the Federal
Defendants of the First Amendment’s
Guarantee of Free Exercise of Religion;
(7) violation by the District, the Governor of
Oregon, and the Oregon Department of
Education of Oregon’s Public Accommodation
Discrimination law, Or. Rev. Stat. § 659A.885;
and
(8) violation by the District of Oregon’s
Discrimination in Education law, Or. Rev. Stat.
§ 659.850.
Plaintiffs sought to enjoin Defendants from
enforcing the Student Safety Plan, and they
sought a court order requiring the District to
mandate that students use only the bathrooms,
locker rooms, and showers that match their
biological sex assigned at birth.
Upon the parties’ stipulation, Plaintiffs’ claims
against Oregon Governor Kate Brown and the
Oregon Department of Education were

18a

voluntarily dismissed on Eleventh Amendment
grounds.7,8
Thereafter the District, Basic Rights Oregon,
and the Federal Defendants each moved to
dismiss Plaintiffs’ complaint. In a lengthy,
detailed, and careful opinion, the district court
granted all three motions and dismissed the case
with prejudice. Parents for Privacy, 326 F. Supp.
3d at 1111. The court dismissed the claims
against the District and Basic Rights Oregon on
the merits under Federal Rule of Civil Procedure
12(b)(6), concluding that Plaintiffs had failed to
state claims upon which relief could be granted
because the legal theories on which Plaintiffs’
claims were premised failed, and that
amendment of the claims would therefore be
futile. Id. at 1092–1110.

Those two dismissed defendants later
requested and were granted leave to appear as
amici.
8
Also, Basic Rights Oregon, a non-profit
LGBTQ advocacy organization that had been
involved
in
the
development
and
implementation of the Student Safety Plan,
moved to intervene as a defendant, which the
district court granted.
7

19a

Separately, the court addressed the Federal
Defendants’ motion to dismiss Plaintiffs’ claims
against the Federal Defendants for lack of
standing, and concluded that Plaintiffs indeed
lacked Article III standing to bring their claims
against the Federal Defendants. The court
explained that Plaintiffs had not established
causation or redressability with respect to the
Federal Defendants, because the District had
adopted the Student Safety Plan “in response to
Student A’s accommodation requests, not [the]
Federal Defendants’ actions,” and the District
would “retain[ ] the discretion to continue
enforcing the Plan” notwithstanding any relief
against the Federal Defendants. Id. at 1087–92.
Plaintiffs appealed the district court’s dismissal
order, arguing that the district court erred by
dismissing, for failure to state a claim under
Federal Rule of Civil Procedure 12(b)(6), their
Title IX and constitutional claims against the
District. Plaintiffs further contend that the
district court committed reversible error in
failing to provide Plaintiffs an opportunity to
amend their complaint and instead dismissing
the case with prejudice.
III.
We have jurisdiction under 28 U.S.C. § 1291,
and we review de novo the grant of a Rule

20a

12(b)(6) motion to dismiss for failure to state a
claim upon which relief may be granted. Fields
v. Palmdale Sch. Dist., 427 F.3d 1197, 1203 (9th
Cir. 2005), amended on denial of reh’g by 447
F.3d 1187 (9th Cir. 2006) (per curiam). Under
Rule 12(b)(6), a complaint must be dismissed
when a plaintiff’s allegations fail to set forth a
set of facts that, if true, would entitle the
complainant to relief.
Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007); see also Ashcroft v. Iqbal,
556 U.S. 662, 679, 129 S.Ct. 1937, 173 L.Ed.2d
868 (2009) (holding that a claim must be facially
plausible in order to survive a motion to
dismiss). In assessing whether a plaintiff has
stated a claim, we accept as true all well-pleaded
factual allegations, and construe all factual
inferences in the light most favorable to the
plaintiff. See Manzarek v. St. Paul Fire &
Marine Ins. Co., 519 F.3d 1025, 1031 (9th Cir.
2008). However, we are not required to accept as
true legal conclusions couched as factual
allegations. Iqbal, 556 U.S. at 678, 129 S.Ct.
1937; Fayer v. Vaughn, 649 F.3d 1061, 1064 (9th
Cir. 2011) (per curiam).
Dismissal of a complaint without leave to amend
is improper unless it is clear, on de novo review,
that the complaint could not be saved by any
amendment. See Eminence Capital, LLC v.

21a

Aspeon, Inc., 316 F.3d 1048, 1052 (9th Cir. 2003)
(per curiam); Lopez v. Smith, 203 F.3d 1122,
1127 (9th Cir. 2000) (en banc). “A district court
acts within its discretion to deny leave to amend
when amendment would be futile ....” V.V.V. &
Sons Edible Oils Ltd. v. Meenakshi Overseas,
LLC, 946 F.3d 542, 547 (9th Cir. 2019) (ellipsis
in original) (quoting Chappel v. Lab. Corp. of
Am., 232 F.3d 719, 725 (9th Cir. 2000)).
IV.
On appeal, Plaintiffs challenge the district
court’s dismissal of their claims that the District
violated: (1) the Fourteenth Amendment right to
privacy; (2) Title IX; (3) the Fourteenth
Amendment right to direct the education and
upbringing of one’s children; and (4) the First
Amendment’s Free Exercise Clause.9 We
address each claim seriatim.

In their opening brief, Plaintiffs do not
challenge or discuss the district court’s ruling
that Plaintiffs lacked Article III standing to sue
Federal Defendants as a result of Plaintiffs’
failure to establish causation and redressability.
We therefore do not review the district court’s
dismissal of Plaintiffs’ claims against Federal
Defendants. See Mandelbrot v. J.T. Thorpe
Settlement Trust (In re J.T. Thorpe, Inc.), 870
9

22a

A.
First, Plaintiffs challenge the district court’s
dismissal of their claim for violation of a
fundamental right to privacy under the
Fourteenth Amendment.
The Fourteenth Amendment provides that no
state shall “deprive any person of life, liberty, or
property, without due process of law.” U.S.
Const. amend. XIV, § 1. The Fourteenth
Amendment’s Due Process Clause “specially
protects those fundamental rights and liberties
which are, objectively, deeply rooted in this
Nation’s history and tradition, and implicit in
the concept of ordered liberty, such that neither
liberty nor justice would exist if they were
sacrificed.” Washington v. Glucksberg, 521 U.S.
702, 720–21, 117 S.Ct. 2258, 138 L.Ed.2d 772
(1997) (internal quotation marks and citations
omitted). The Supreme Court has recognized
that “one aspect of the ‘liberty’ protected by the
F.3d 1121, 1124 (9th Cir. 2017) (“[W]e will not
ordinarily consider matters on appeal that are
not specifically and distinctly raised and argued
in appellant’s opening brief.” (quoting Int’l
Union of Bricklayers & Allied Craftsman Local
Union No. 20 v. Martin Jaska, Inc., 752 F.2d
1401, 1404 (9th Cir. 1985))).

23a

Due Process Clause of the Fourteenth
Amendment is ‘a right of personal privacy, or a
guarantee of certain areas or zones of privacy.’ ”
Carey v. Population Servs. Int’l, 431 U.S. 678,
684, 97 S.Ct. 2010, 52 L.Ed.2d 675 (1977)
(quoting Roe v. Wade, 410 U.S. 113, 152, 93 S.Ct.
705, 35 L.Ed.2d 147, (1973)). This right includes
“at least two constitutionally protected privacy
interests: the right to control the disclosure of
sensitive information and the right to
‘independence [in] making certain kinds of
important decisions.’” Fields, 427 F.3d at 1207
(quoting Whalen v. Roe, 429 U.S. 589, 599–600,
97 S.Ct. 869, 51 L.Ed.2d 64 (1977); see also
Marsh v. County of San Diego, 680 F.3d 1148,
1153 (9th Cir. 2012).)
Plaintiffs contend that the privacy protections
afforded by the Fourteenth Amendment’s Due
Process Clause also encompass a “fundamental
right to bodily privacy” that includes “a right to
privacy of one’s fully or partially unclothed body
and the right to be free from State-compelled
risk of intimate exposure of oneself to the
opposite sex.” Further, they assert that
“[f]reedom from the risk of compelled intimate
exposure to the opposite sex, especially for
minors, is a fundamental right deeply rooted in
this nation’s history and tradition and is also
implicit in the concept of ordered liberty.”

24a

Because the District’s Student Safety Plan
allegedly infringes these rights by “requir[ing]
Student Plaintiffs to risk being intimately
exposed to those of the opposite biological sex ...
without any compelling justification,” Plaintiffs
contend that the District violated their
fundamental Fourteenth Amendment rights.
The district court dismissed this claim on the
ground that the complaint did not allege
infringement of any constitutionally protected
right. It concluded that the Fourteenth
Amendment does not provide high school
students with a constitutional privacy right not
to share restrooms or locker rooms with
transgender students whose sex assigned at
birth is different than theirs. Parents for
Privacy, 326 F. Supp. 3d at 1099.
In reaching this conclusion, the district court
examined the authorities on which Plaintiffs
relied, but rejected those cases as inapposite
because, unlike the scenario presented in this
case, those cases “involve[d] egregious statecompelled intrusions into one’s personal
privacy,” such as “government officials”—often
law enforcement or correctional officers—
“viewing or touching the naked bodies of persons
of the opposite sex against their will.” Id. For
example, the district court noted that York v.
Story, 324 F.2d 450, 452 (9th Cir. 1963), the

25a

Ninth Circuit case that Plaintiffs claim provides
the basis for their asserted right to bodily
privacy, “involved a male police officer taking
unnecessary nude photographs of a female
victim in provocative positions and circulating
them to other officers.” Parents for Privacy, 326
F. Supp. 3d at 1097. Similarly, the Ninth Circuit
in Sepulveda v. Ramirez, 967 F.2d 1413, 1415
(9th Cir. 1992), determined that a male parole
officer violated a female parolee’s right to bodily
privacy by entering her bathroom stall over her
objections and remaining in the stall while she
“finished urinating, cleaned herself, and
dressed.” Parents for Privacy, 326 F. Supp. 3d at
1097. And, the district court noted, Byrd v.
Maricopa County Sheriff’s Department, 629 F.3d
1135, 1137 (9th Cir. 2011), concerned a strip
search by a female cadet of a male detainee in
the presence of approximately three dozen
cadets and detention officers as well as other
male detainees, which the Ninth Circuit
determined violated the Fourth Amendment’s
prohibition on unreasonable searches. Parents
for Privacy, 326 F. Supp. 3d at 1097.
Because “none of these cases support[ed] the
proposition that high school students have a
fundamental right not to share restrooms and
locker rooms with transgender students who
have a different assigned sex than theirs,” the

26a

district court concluded that “Plaintiffs have
failed to sufficiently allege a fundamental right
to privacy cognizable under the Fourteenth
Amendment.”10 Id. at 1096–99. It explained that

For further support for the obvious distinction
between Plaintiffs’ cited cases and the
circumstances presented in this case, the
district court pointed to several out-of-circuit
cases similar to this one in which courts also
rejected Plaintiffs’ purported privacy interest, in
favor of transgender students’ access to school
facilities. Parents for Privacy, 326 F. Supp. 3d at
1093–96; see, e.g., Doe ex rel. Doe v. Boyertown
Area Sch. Dist., 897 F.3d 518, 531 (3d Cir. 2018)
(“[W]e decline to recognize such an expansive
constitutional right to privacy—a right that
would be violated by the presence of students [in
restrooms or locker rooms] who do not share the
same birth sex.”), cert. denied, ––– U.S. ––––,
139 S. Ct. 2636, 204 L.Ed.2d 300 (2019);
Whitaker ex rel. Whitaker v. Kenosha Unified
Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034,
1052 (7th Cir. 2017) (“A transgender student’s
presence in the restroom provides no more of a
risk to other students’ privacy rights than the
presence of ... any other student who used the
bathroom at the same time.”), cert. dismissed, –
10

27a

“[t]o hold otherwise would sweepingly expand
the right to privacy beyond what any court has
recognized,” in contravention of the Supreme
Court’s reluctance to expand the “short list” of
liberty rights protected by the Due Process
Clause, including “the rights to marry, to have
children, to direct the education and upbringing
of one’s children, to marital privacy, to use
contraception, to bodily integrity, and to
abortion.” Id. at 1099 (quoting Glucksberg, 521
U.S. at 720, 117 S.Ct. 2258). Thus, because
“[t]he potential threat that a high school student
might see or be seen by someone of the opposite
biological sex while either are undressing or
performing bodily functions in a restroom,
shower, or locker room does not give rise to a
constitutional violation,” the district court
concluded that Plaintiffs failed to state a claim
for violation of the Fourteenth Amendment. See
id.
On appeal, Plaintiffs make several ultimately
unavailing arguments about why the district
court erred in dismissing their privacy rights
claim under the Fourteenth Amendment. First,
they argue that the Ninth Circuit in York, 324
F.2d at 455, recognized the right to bodily
–– U.S. ––––, 138 S. Ct. 1260, 200 L.Ed.2d 415
(2018).

28a

privacy when it commented that “[t]he desire to
shield one’s unclothed figure from views of
strangers, and particularly strangers of the
opposite sex, is impelled by elementary selfrespect and personal dignity.” The problem with
this argument is that York addressed an
egregious privacy violation by police and
recognized a much more specific and limited Due
Process privacy right than Plaintiffs claim here.
As noted, York involved a male police officer who
coerced a female assault victim to allow him to
take unnecessary nude photographs of her,
which he later distributed to other officers. See
id. at 452. In discussing the plaintiff’s claim for
violation of her fundamental right to privacy
under the Fourteenth Amendment, we
explained:
We are not called upon to decide as
an original proposition whether
‘privacy,’ as such, is comprehended
within the ‘liberty’ of which one may
not be deprived without due process
of law, as used in the Due Process
Clause
of
the
Fourteenth
Amendment. For it has already been
declared by the Supreme Court that
the security of one’s privacy against
arbitrary intrusion by the police is
basic to a free society and is

29a

therefore ‘implicit in the concept of
ordered liberty,’ embraced within
the Due Process Clause of the
Fourteenth Amendment.
Id. at 454–55 (emphasis added) (footnote
omitted).
Thus, York recognized an established right to be
free from arbitrary police intrusions upon one’s
privacy under the Fourth Amendment. See id. at
455 (“A search of one’s home has been
established to be an invasion of one’s privacy
against intrusion by the police, which, if
‘unreasonable,’ is arbitrary and therefore
banned under the Fourth Amendment. We do
not see how it can be argued that the searching
of one’s home deprives him of privacy, but the
photographing of one’s nude body, and the
distribution of such photographs to strangers
does not.” (footnote omitted)). Thus, York did not
recognize a more general right to be free from
alleged privacy intrusions by other nongovernment persons, or a privacy right to avoid
any risk of being exposed briefly to opposite-sex
nudity by sharing locker facilities with
transgender students in public schools.
Moreover, the actions that the Ninth Circuit
concluded made the police’s intrusion in York so
arbitrary as to rise to the level of a violation of

30a

the plaintiff’s privacy right under the Due
Process Clause were far more invasive than the
transgender student’s actions alleged in this
case. In York, we explained:
[W]e [cannot] imagine a more
arbitrary police intrusion upon the
security of [a person’s] privacy than
for a male police officer to
unnecessarily photograph the nude
body of a female citizen who has
made complaint of an assault upon
her, over her protest that the
photographs
would
show
no
injuries, and at a time when a
female police officer could have
been, but was not, called in for this
purpose, and to distribute those
photographs to other personnel of
the police department despite the
fact that such distribution of the
photographs could not have aided in
apprehending the person who
perpetrated the assault.
Id. Here, Plaintiffs do not allege that
transgender students are taking nude
photographs of them or purposefully taking
overt steps to invade their privacy for no
legitimate reason. Thus, beyond failing to
support the broad privacy right claimed by

31a

Plaintiffs, York is also readily distinguishable on
its facts.
Next, Plaintiffs point to out-of-circuit cases to
argue that the Fourteenth Amendment protects
a “privacy interest in [a person’s] partially
clothed body.” See, e.g., Doe v. Luzerne County,
660 F.3d 169, 175–76 & 176 n.5 (3d Cir. 2011).
But beyond the fact that those cases are not
binding, none of them directly supports
Plaintiffs’ argument that the Constitution
affords a broad privacy right protecting against
being exposed in even a partial state of undress
to any person of the opposite sex, whether or not
they are a government actor. For example,
Luzerne County involved the unconsented and
surreptitious filming of a female deputy sheriff
by male superior officers while she was
completely undressed, and the subsequent
sharing of the video footage and still photos. See
id. at 171–73, 175–78. The Third Circuit
analyzed whether the public disclosure of those
files violated constitutional “protect[ions]
against public disclosure [of] ... highly personal
matters representing the most intimate aspects
of human affairs,” id. at 176 (second alteration
in original) (quoting Nunez v. Pachman, 578,
F.3d 228, 232 (3d Cir. 2009)), noting that “a
person’s right to avoid disclosure of personal
matters is not absolute,” id. at 178, because

32a

“[d]isclosure may be required if the government
interest in disclosure outweighs the individual’s
privacy interest,” id. (quoting Fraternal Order of
Police, Lodge No. 5 v. City of Philadelphia, 812
F.2d 105, 110 (3d Cir. 1987)). Thus, both the
facts and the legal issue in Luzerne are
distinguishable from the case at bench, because
this case does not involve a privacy intrusion by
government officers or the public disclosure of
photos or video footage.11
Other cases cited by Plaintiffs are similarly
inapposite. Poe v. Leonard, 282 F.3d 123 (2d Cir.
2002), also involved the surreptitious and
unconsented filming of a female officer by a male
law enforcement officer. See id. at 138. The court
concluded that the plaintiff had stated a claim
for a violation of her Fourteenth Amendment
privacy rights because the officer’s behavior
constituted “arbitrary government action” that
“shock[ed] the conscience” and was “without any
reasonable justification in the service of a
legitimate governmental objective.” Id. at 139
(quoting County of Sacramento v. Lewis, 523
U.S. 833, 845–46, 118 S.Ct. 1708, 140 L.Ed.2d
1043 (1998)). Again, the instant case does not
involve an arbitrary privacy intrusion by a law
enforcement officer in the form of unconsented
filming.
11

33a

Finally, Plaintiffs attempt to support their
Fourteenth Amendment argument by pointing
to cases suggesting that providing separate
restrooms for males and females is not illegal,
cases discussing Fourth Amendment violations,
and cases addressing whether Title VII protects
against discrimination on the basis of sexual
orientation or gender identity. Those cases,
however, are inapposite; none establishes a
Fourteenth Amendment right to privacy that
protects against any risk of bodily exposure to a
transgender student in school facilities.
In sum, Plaintiffs fail to show that the contours
of the privacy right protected by the Fourteenth
Amendment are so broad as to protect against
the District’s implementation of the Student

Similarly, Canedy v. Boardman, 16 F.3d 183
(7th Cir. 1994), is distinguishable because it
involved a non-emergency strip search of a male
inmate by two female deputies, even though
other male officers were nearby and could have
conducted the search. See id. at 184–85.

34a

Safety Plan.12 This conclusion is supported by
the fact that the Student Safety Plan provides
alternative options and privacy protections to
those who do not want to share facilities with a
transgender student, even though those
alternative options admittedly appear inferior
and less convenient. See Caribbean Marine
Servs. Co. v. Baldrige, 844 F.2d 668, 678 (9th
Cir. 1988) (suggesting that in cases in which
privacy interests must be weighed against
governmental interests, inconvenience and
slight discomfort that results from attempting to

As a result, Plaintiffs’ argument that the
District placed an unconstitutional condition on
their privacy rights by implementing the
Student Safety Plan also fails. If the asserted
right is not protected by the Constitution, then
any conditions that the District allegedly placed
on the asserted right cannot be constitutionally
impermissible. See Koontz v. St. Johns River
Water Mgmt. Dist., 570 U.S. 595, 604, 133 S.Ct.
2586, 186 L.Ed.2d 697 (2013) (“[T]he
unconstitutional
conditions
doctrine
...
vindicates the Constitution’s enumerated rights
by preventing the government from coercing
people into giving them up.”).
12

35a

accommodate both interests are not enough to
establish a privacy violation).
Accordingly, we affirm the district court’s
dismissal with prejudice of Plaintiffs’ claim for
violation of privacy under the Fourteenth
Amendment’s Due Process Clause. See Albright
v. Oliver, 510 U.S. 266, 271, 114 S.Ct. 807, 127
L.Ed.2d 114 (1994) (holding that the plaintiff’s §
1983 claim failed where the plaintiff failed to
establish that he was deprived of a substantive
due process right secured by the Constitution).
Because this claim is premised on the violation
of an asserted right that, as a matter of law, is
not protected by the Fourteenth Amendment’s
Due Process Clause, amendment of this claim
would be futile.13
Because we agree with the district court that
the right to privacy on which Plaintiffs’ claim is
premised is not protected by the Constitution,
we do not reach the district court’s further
conclusions that: (1) even if the right asserted by
Plaintiffs were protected by the Constitution,
the presence of a transgender student in school
facilities does not infringe that right, see Parents
for Privacy, 326 F. Supp. 3d at 1100–01; and (2)
policies permitting transgender access further a
compelling state interest in protecting
transgender students from discrimination and
13

36a

B.
Next, Plaintiffs contend that the district court
erred in failing to recognize that the District’s
policy violates Title IX by turning locker rooms,
showers, and multi-user restrooms into sexually
harassing environments and by forcing students
to forgo use of such facilities as the solution to
harassment.
Title IX provides that “[n]o person in the United
States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of,
or be subjected to discrimination under any
education program or activity receiving Federal
financial assistance ....” 20 U.S.C. § 1681(a).
Plaintiffs allege that the Student Safety Plan
violates Title IX because it “produces unwelcome
sexual harassment and create[s] a hostile
environment on the basis of sex.” They allege
that the Plan “needlessly subjects Student
Plaintiffs to the risk that their partially or fully
unclothed bodies will be exposed to students of
the opposite sex and that they will be exposed to
opposite-sex nudity, causing the Student
Plaintiffs
to
experience
embarrassment,
humiliation,
anxiety,
intimidation,
fear,
are narrowly tailored to satisfy strict scrutiny.
Id.

37a

apprehension, stress, degradation, and loss of
dignity.” According to Plaintiffs, “[a]llowing
people to use restrooms, locker rooms or showers
designated for the opposite biological sex
violates privacy and creates a sexually
harassing environment,” in part because
“[e]xposure to opposite-sex nudity creates a
sexually harassing hostile environment.” As a
result of this allegedly harassing environment,
“all Student Plaintiffs find that school has
become intimidating and stressful,” and some of
them “are avoiding the restroom” and “are not
able to concentrate as well in school.”
Stating a Title IX hostile environment claim
requires alleging that the school district: (1) had
actual knowledge of; (2) and was deliberately
indifferent to; (3) harassment because of sex
that was; (4) “so severe, pervasive, and
objectively offensive that it can be said to
deprive the victims of access to the educational
opportunities or benefits provided by the
school.” Davis ex rel. LaShonda D. v. Monroe
Cty. Bd. of Educ., 526 U.S. 629, 650, 119 S.Ct.
1661, 143 L.Ed.2d 839 (1999); see also Reese v.
Jefferson Sch. Dist. No. 14J, 208 F.3d 736, 738–
39 (9th Cir. 2000). The district court ruled that
Plaintiffs had failed to establish the third and
fourth elements and, on that basis, dismissed

38a

Plaintiffs’ Title IX hostile environment claim.
Parents for Privacy, 326 F. Supp. 3d at 1104.
The district court concluded that the alleged
harassment was not discrimination on the basis
of sex within the meaning of Title IX, because
the “District’s plan does not target any Student
Plaintiff because of their sex.” Id. at 1102.
Rather, the Student Safety Plan applies to all
students regardless of their sex, and therefore
“Student Plaintiffs have not demonstrated that
they are being treated any differently from other
students at Dallas High School.”
In addition, the district court held that
Plaintiffs failed to show “that the District’s Plan
discriminates because of sex, or that it creates a
severe, pervasive, and objectively offensive
environment.” Id. at 1104. The court explained
that, in contrast to cases involving “egregious
and persistent acts of sexual violence and verbal
harassment,” “[c]ourts have recognized that the
presence of transgender people in an intimate
setting does not, by itself, create a sexually
harassing environment that is severe or
pervasive.” Id. at 1102; see also id. at 1102–04
(discussing cases). Noting Plaintiffs’ failure to
cite supporting authority, the district court
rejected Plaintiffs’ arguments that harassment
was pervasive because the District’s Plan is
“widely applied” and that the Plan is objectively

39a

offensive because sex-segregated facilities are
the well-established norm. Id. at 1103–04.
Again, we agree with the district court’s
analysis and find Plaintiffs’ contrary arguments
unpersuasive. First, Plaintiffs argue broadly
that Title IX “unequivocally uphold[s] the right
to bodily privacy” and therefore requires that
facilities be segregated based on “biological” sex
rather than “gender identity.” To support this
argument, Plaintiffs point out that the statute
provides that it should not be construed to
“prohibit any educational institution ... from
maintaining separate living facilities for the
different sexes,” 20 U.S.C. § 1686, and that Title
IX’s implementing regulations specifically
authorize providing separate but comparable
“toilet, locker room, and shower facilities on the
basis of sex,” 34 C.F.R. § 106.33. Plaintiffs
further argue that Title IX’s text and its
legislative history make clear that the permitted
basis on which such “separate” facilities may be
segregated—“sex”— refers to “biological sex” as
assigned at birth, and cannot encompass gender
identity.
But just because Title IX authorizes sexsegregated facilities does not mean that they are
required, let alone that they must be segregated
based only on biological sex and cannot
accommodate gender identity. Nowhere does the

40a

statute explicitly state, or even suggest, that
schools may not allow transgender students to
use the facilities that are most consistent with
their gender identity. That is, Title IX does not
specifically make actionable a school’s decision
not to provide facilities segregated by “biological
sex”; contrary to Plaintiffs’ suggestion, the
statute does not create distinct “bodily privacy
rights” that may be vindicated through suit.
Instead, Title IX provides recourse for
discriminatory treatment “on the basis of sex.”
20 U.S.C. § 1681(a). Thus, even if Plaintiffs are
correct that “Congress intended to preserve
distinct privacy facilities based on biological sex”
and that the District chose not to do so, that fact
alone is insufficient to state a legally cognizable
claim under Title IX. Rather, to show that the
District violated Title IX, Plaintiffs must
establish that the District had actual knowledge
of and was deliberately indifferent to
harassment because of sex that was “so severe,
pervasive, and objectively offensive that it can
be said to deprive the victims of access to the
educational opportunities or benefits provided
by the school.” Davis, 526 U.S. at 650, 119 S.Ct.
1661; see also Reese, 208 F.3d at 739.
Plaintiffs focus on the third and fourth elements
of a Title IX hostile environment claim, as did
the district court, namely whether there was

41a

harassment because of sex that was so severe,
pervasive, and objectively offensive that it
deprived Plaintiffs of access to the educational
opportunities or benefits provided by Dallas
High School. First, Plaintiffs assert that the
Student Safety Plan created harassment on the
basis of sex “because the only way to achieve the
policy’s purpose of opposite-sex affirmation is to
select facilities based on the sex (or gender
identity) of users.” But just because the Student
Safety Plan implicitly addresses the topics of sex
and gender by seeking to accommodate a
transgender student’s gender identity, or
because it segregates facilities by gender
identity, does not mean that the Plan harasses
other students on the basis of their sex. As the
district court explained, the Plan does not target
students or discriminate against them on the
basis of their sex; the Student Safety Plan treats
all students—male and female—the same. See
Parents for Privacy, 326 F. Supp. 3d at 1096–97.
Plaintiffs respond that the district court’s
conclusion that there was no harassment based
on sex because the Student Safety Plan affects
all students equally is “legally and logically
indefensible.” Plaintiffs argue that the fact that
the Student Safety Plan affects both sexes does
not preclude a Title IX violation, because the
Plan actually harasses both sexes on the basis of

42a

their sex by allowing students assigned the
opposite sex at birth to enter privacy facilities.
But Plaintiffs cite no authority to support the
notion that “equal harassment” against both
sexes is cognizable under Title IX.
To the contrary, treating both male and female
students the same suggests an absence of
gender/sex animus, while Title IX is aimed at
addressing discrimination based on sex or
gender stereotypes. Numerous courts have ruled
that a Title IX sexual harassment hostile
environment claim fails where the alleged
harassment is inflicted without regard to gender
or sex, i.e., where there is no discrimination. See
Doe ex rel. Doe v. Boyertown Area Sch. Dist., 276
F. Supp. 3d 324, 394–95 (E.D. Pa. 2017)
(collecting cases), aff’d, 897 F.3d 518 (3d Cir.
2018), cert. denied, ––– U.S. ––––, 139 S. Ct.
2636, 204 L.Ed.2d 300 (2019). We see no reason
to arrive at a different conclusion here.
Plaintiffs’
argument
that
the
alleged
harassment was “based on sex” because it
involved opposite-sex nudity conflates the basis
for the perceived harm—a distinction between
biological sexes—with the basis for the alleged
harassment, which, as discussed above,
Plaintiffs have not shown was discriminatory or
motivated by any gender animus. In sum, the
district court correctly ruled that Plaintiffs

43a

failed to establish the third element of their Title
IX claim. See Parents for Privacy, 326 F. Supp.
3d at 1102.
The district court also correctly ruled that
Plaintiffs failed to establish the fourth element
of their Title IX claim. See id. at 1104. Plaintiffs
argue that they satisfy the fourth element of a
hostile environment claim because the alleged
harassment is both viewed subjectively as
harassment by the victims and is, objectively,
sufficiently severe or pervasive that a
reasonable person would agree that it is
harassment. However, even crediting Plaintiffs’
subjective perceptions, under the totality of the
circumstances, the alleged harassment is not so
severe, pervasive, and objectively offensive to
rise to the level of a Title IX violation. Plaintiffs
do not allege that transgender students are
making inappropriate comments, threatening
them, deliberately flaunting nudity, or
physically touching them. Rather, Plaintiffs
allegedly feel harassed by the mere presence of
transgender students in locker and bathroom
facilities. This cannot be enough. The use of
facilities for their intended purpose, without
more, does not constitute an act of harassment
simply because a person is transgender. See
Cruzan v. Special Sch. Dist., # 1, 294 F.3d 981,
984 (8th Cir. 2002) (per curiam) (concluding that

44a

a transgender woman’s “merely being present in
the women’s ... restroom” did not constitute
actionable sexual harassment of her female coworkers); cf. Davis, 526 U.S. at 650, 652–53, 119
S.Ct. 1661 (explaining that “peer harassment ...
is less likely to [violate Title IX] than is teacherstudent harassment” in part because “simple
acts of teasing and name-calling among school
children” do not establish severe harassment,
and noting that “[t]he most obvious example of
student-on-student sexual harassment capable
of triggering a damages claim would ... involve
the overt, physical deprivation of access to
school resources,” for example by making
effective physical threats).
Accordingly, we affirm the district court’s
dismissal with prejudice of Plaintiffs’ Title IX
hostile environment claim. Because the Student
Safety Plan does not discriminate on the basis of
sex, amendment would be futile.
C.
Next, Plaintiffs challenge the dismissal of their
Fourteenth Amendment claim for violation of
Parent Plaintiffs’ fundamental rights to direct
the care, education, and upbringing of their
children.
As
discussed
above,
the
Fourteenth
Amendment’s Due Process Clause “specially

45a

protects those fundamental rights and liberties
which are, objectively, deeply rooted in this
Nation’s history and tradition, and implicit in
the concept of ordered liberty.” Glucksberg, 521
U.S. at 720–21, 117 S.Ct. 2258 (internal
quotation marks and citations omitted). The
Supreme Court has held that one such
fundamental liberty interest protected by the
Due Process Clause is “the fundamental right of
parents to make decisions concerning the care,
custody, and control of their children.”14 Troxel
v. Granville, 530 U.S. 57, 66, 120 S.Ct. 2054, 147
L.Ed.2d 49 (2000); see also Fields, 427 F.3d at
1204. Among other things, this right means that
the state cannot prevent parents from choosing
a specific educational program—whether it be
religious instruction at a private school or
instruction in a foreign language. That is, the
state does not have the power to “standardize its
children” or “foster a homogenous people” by
completely foreclosing the opportunity of

This right is commonly referred to as the
Meyer– Pierce right because it finds its origin in
two Supreme Court cases, Meyer v. Nebraska,
262 U.S. 390, 43 S.Ct. 625, 67 L.Ed. 1042 (1923),
and Pierce v. Society of Sisters, 268 U.S. 510, 45
S.Ct. 571, 69 L.Ed. 1070 (1925).
14

46a

individuals and groups to choose a different path
of education.
Id. at 1205 (quoting Brown v. Hot, Sexy & Safer
Prods., Inc., 68 F.3d 525, 533–34 (1st Cir.1995),
abrogated on other grounds by Martinez v. Cui,
608 F.3d 54 (1st Cir. 2010)). This freedom,
however, does not “encompass[ ] a fundamental
constitutional right to dictate the curriculum at
the public school to which [parents] have chosen
to send their children.” Id.
Parent Plaintiffs allege that the fundamental
parental right to make decisions concerning the
care, custody, and control of their children also
encompasses the following rights: (1) “the power
to direct the education and upbringing of [their]
children”; (2) the right to “instill moral
standards and values in their children”; (3) the
“right to determine whether and when their
children will have to risk being exposed to
opposite sex nudity at school”; and (4) the “right
to determine whether their children, while at
school, will have to *1230 risk exposing their
own undressed or partially unclothed bodies to
members of the opposite sex” in “intimate,
vulnerable settings like restrooms, locker rooms
and showers.” Parent Plaintiffs claim that the
District’s implementation of the Student Safety
Plan violates these rights, and therefore the
Fourteenth Amendment, because Parent

47a

Plaintiffs “do not want their minor children to
endure the risk of being exposed to the opposite
sex ... nor do they want their minor children to
attend to their personal, private bodily needs in
the presence of members of the opposite sex.”
They explain that they “desire to raise their
children with a respect for traditional modesty,
which requires that one not undress or use the
restroom in the presence of the opposite sex,”
and that some parents also object to the Student
Safety Plan because of “sincerely-held religious
beliefs.”
The district court disposed of this claim on the
ground that the fundamental parental right
protected by the Fourteenth Amendment’s Due
Process Clause is narrower than Plaintiffs
assert. See Parents for Privacy, 326 F. Supp. 3d
at 1108–09. The district court reasoned that
although Parent Plaintiffs have the right to
choose where their children obtain an education,
meaning that they have a right to remove their
children from Dallas High School if they
disapprove of transgender student access to
facilities, binding Ninth Circuit authority makes
clear that “Parent Plaintiffs’ Fourteenth
Amendment liberty interest in the education
and upbringing of their children ‘does not extend
beyond the threshold of the school door.’ ” Id. at

48a

1109 (quoting Fields, 427 F.3d at 1207).15 The
district court thus disagreed with Plaintiffs’
unsupported proposition that parents “retain
the right to prevent transgender students from
sharing school facilities with their children.” Id.
On appeal, Parent Plaintiffs argue that the
district court erroneously limited their
fundamental parental rights. They challenge in
particular the district court’s conclusion that
their parental rights do not “extend beyond the
threshold of the school door.” Plaintiffs, relying
on Troxel, 530 U.S. at 65–66, 120 S.Ct. 2054
(quoting Prince v. Massachusetts, 321 U.S. 158,
166, 64 S.Ct. 438, 88 L.Ed. 645 (1944)), note that
“the custody, care, and nurture of the child
reside first in the parents, whose primary
function and freedom include preparation for
obligations the state can neither supply nor
hinder.” But other than affirming that parents
have a long-recognized constitutional right to
Although it does not affect the application of
Fields to this case or the merits of Plaintiffs’
substantive argument, it is worth noting that we
deleted the phrase “do[ ] not extend beyond the
threshold of the school door” from the Fields
opinion upon denial of rehearing. See Fields,
427 F.3d at 1207.
15

49a

“make decisions concerning the care, custody,
and control of their children,” Troxel lends no
concrete support to Plaintiffs’ specific argument
in this case. Id. at 66, 120 S.Ct. 2054. Troxel
concerned a state government’s interference
with a mother’s decision about the amount of
visitation with her daughters’ paternal
grandparents that was in her daughters’ best
interests; it did not address the extent of
parents’ rights to direct the policies of the public
schools that their children attend.16 See id. at
Similarly, Plaintiffs’ reliance on Wisconsin v.
Yoder, 406 U.S. 205, 92 S.Ct. 1526, 32 L.Ed.2d
15 (1972), in their reply brief is unavailing. In
that case, the Supreme Court held that the state
of Wisconsin could not compel Amish parents to
send their children to formal high school up to
the age of 16, because as applied to the Amish
parents in that case, doing so violated the Free
Exercise Clause of the First Amendment, and
also interfered with “the traditional interest of
parents with respect to the religious upbringing
of their children.” Id. at 214, 92 S.Ct. 1526; see
also id. at 232–36, 92 S.Ct. 1526. Yoder supports
the district court’s recognition that parents have
the right to remove their children from Dallas
High School, but it does not support Plaintiffs’
assertion that their parental rights go beyond
that decision and extend to a right to require a
16

50a

67–73, 120 S.Ct. 2054. Moreover, we have
previously explained that although the Supreme
Court “recognized that parents’ liberty interest
in the custody, care, and nurture of their
children resides ‘first’ in the parents, [it] does
not reside there exclusively, nor is it ‘beyond
regulation [by the state] in the public interest.’ ”
Fields, 427 F.3d at 1204 (second alteration in
original) (quoting Prince, 321 U.S. at 166, 64
S.Ct. 438).
Next, Plaintiffs attempt to distinguish Fields,
the Ninth Circuit case on which the district
court relied, by pointing out that the instant
case is not about curriculum, but rather “about
conduct authorized by the school allowing
opposite-sex students into privacy facilities.”
Fields involved conduct authorized by the school
allowing a researcher to administer a survey
that included questions about sexual topics.
Fields, 427 F.3d at 1200–01. We held that
although “[p]arents have a right to inform their
children when and as they wish on the subject of
sex,” they “have no constitutional right ... to
prevent a public school from providing its
students with whatever information it wishes to
particular
bathroom
transgender students.

access

policy

for

51a

provide, sexual or otherwise, when and as the
school determines that it is appropriate to do so.”
Id. at 1206. While the purported risk of Parent
Plaintiffs’ children being exposed to the
unclothed bodies of students who were assigned
the opposite sex at birth does not involve the
provision of information, as did Fields, it
similarly involves students being exposed to
things of which their parents disapprove.
In any case, in Fields we adopted the Sixth
Circuit’s view that parents not only lack a
constitutional right to direct the curriculum that
is taught to their children, but that they also
lack constitutionally protected rights to direct
school administration more generally. See id. at
1206 (rejecting a “curriculum exception”).
Specifically, we endorsed the Sixth Circuit’s
explanation that:
While parents may have a
fundamental
right
to
decide
whether to send their child to a
public school, they do not have a
fundamental right generally to
direct how a public school teaches
their child. Whether it is the school
curriculum, the hours of the school
day, school discipline, the timing
and content of examinations, the
individuals hired to teach at the

52a

school, the extracurricular activities
offered at the school or ... a dress
code, these issues of public
education are generally committed
to the control of state and local
authorities.
Id. (internal quotation marks omitted) (quoting
Blau v. Fort Thomas Pub. Sch. Dist., 401 F.3d
381, 395–96 (6th Cir. 2005)). This binding
precedent thus directly supports the district
court’s conclusion that Parent Plaintiffs lack a
fundamental right to direct Dallas High School’s
bathroom and locker room policy.
Plaintiffs nonetheless argue that, contrary to
Fields, the Supreme Court has extended
parental rights into the classroom. Specifically,
they argue that the Supreme Court has ruled
that students from Jehovah’s Witness families
could not be compelled to recite the Pledge of
Allegiance at school.17 See W. Va. State Bd. of
Plaintiffs cite Minersville School District v.
Gobitis, 310 U.S. 586, 60 S.Ct. 1010, 84 L.Ed.
1375 (1940), for this proposition, but Gobitis
actually held the opposite—namely, that the
government could require students to salute the
flag. The Supreme Court, however, overruled
Gobitis three years later in West Virginia State
Board of Education v. Barnette, 319 U.S. 624,
17

53a

Educ. v. Barnette, 319 U.S. 624, 642, 63 S.Ct.
1178, 87 L.Ed. 1628 (1943). But that Supreme
Court decision rested on the First Amendment;18
nowhere did the Supreme Court reference the
fundamental rights of parents to direct their
children’s upbringing.19 See Barnette, 319 U.S.
642, 63 S.Ct. 1178, 87 L.Ed. 1628 (1943). Thus,
we assume that Plaintiffs actually intended to
cite Barnette, particularly because their Gobitis’
pincite of “642” appears in Barnette, but not in
Gobitis.
18
Similarly,
Tinker v. Des Moines
Independent Community School District, 393
U.S. 503, 89 S.Ct. 733, 21 L.Ed.2d 731 (1969),
and Shelton v. Tucker, 364 U.S. 479, 81 S.Ct.
247, 5 L.Ed.2d 231 (1960), both of which
Plaintiffs cite in their reply, also rested on the
First Amendment and its protection of students’
and teachers’ freedoms of speech and
association.
19
Moreover, unlike the instant case, Barnette
involved “a compulsion of students to declare a
belief.” Barnette, 319 U.S. at 631, 63 S.Ct. 1178.
The Student Safety Plan does not compel a
declaration of support for any particular belief.
And in Barnette, the Court also noted that the
appellees’ asserted freedom not to salute the flag
“does not bring them into collision with rights
asserted by any other individual.” Id. at 630, 63

54a

at 639, 642, 63 S.Ct. 1178. Thus, Plaintiffs fail
to cite any Supreme Court authority showing
that parents’ substantive due process rights
under the Fourteenth Amendment encompass a
right to direct the curriculum, administration,
or policies of public schools.
Finally, perhaps recognizing the lack of
supporting case law, Plaintiffs argue that the
following items both “undercut[ ] the district
court’s unprincipled expansion of Fields” and
support the constitutional parental rights that
Plaintiffs assert: (1) that “no one would seriously
suggest [that] parents lack any means to assure
their students are free from physical assault,
coercive threats[,] or criminal activity”; (2) that
“federal law and Oregon law confer on parents
S.Ct. 1178. Here, in contrast, Plaintiffs’ asserted
right not to be exposed to any risk of seeing in a
state of undress (or being seen by) any person
who was assigned the opposite sex at birth does
“bring them into collision with rights asserted by
... other[s],” namely the rights of transgender
students to use the locker rooms that match
their gender identity and to avoid being subject
to discrimination based on gender stereotypes
regarding the sex assigned to them at birth. See
id.

55a

the right to inspect instructional materials upon
request”; (3) that Congress in 2002 “enacted a
federal law that no student can be required to
take a survey concerning sexual behavior or
attitudes unless the school provides parents
with the survey before administering the survey
to students and receives consent to administer
the survey”; and (4) that “many states, including
Oregon, have in place laws regulating public
school education that require schools to allow
parents to opt their children out of certain
situations concerning sexual right [sic] and sex
education.” However, those assertions, even if
true, do not establish that the Fourteenth
Amendment’s Due Process Clause protects the
right asserted by Plaintiffs in this case.
Although state and federal statutes may expand
upon constitutional protections by creating new
statutory rights, statutes do not alter the
protections afforded by the Constitution itself.20

Plaintiffs provide no citation suggesting
that the statutes they cite were enacted in order
to enforce existing constitutional parental
rights. Rather, the opposite inference—that the
statutes were enacted to create rights
specifically because the Constitution does not
protect such rights—may be the more
reasonable one. Cf. Holt v. Hobbs, 574 U.S. 352,
20

56a

In sum, Plaintiffs fail to cite any authority that
supports
their
asserted
fundamental
Fourteenth Amendment parental right to
“determine whether and when their children
will have to risk being exposed to opposite sex
nudity at school” and “whether their children,
while at school, will have to risk exposing their
own undressed or partially unclothed bodies to
members of the opposite sex” in “intimate,
vulnerable settings like restrooms, locker rooms
and showers.” In fact, Fields makes clear that
the fundamental right to control the upbringing
of one’s children does not extend so far as
Plaintiffs’ hypothesize. See Fields, 427 F.3d at
1206–07. Plaintiffs neither distinguish this
precedent nor address the practical issue raised
by Fields: that accommodating the different
“personal, moral, or religious concerns of every
parent” would be “impossible” for public schools,
because different parents would often likely, as
135 S. Ct. 853, 859–60, 190 L.Ed.2d 747 (2015)
(“Following our decision in Employment
Division, Department of Human Resources of
Oregon v. Smith, 494 U.S. 872, 110 S.Ct. 1595,
108 L.Ed.2d 876 (1990), Congress enacted [the
Religious Freedom Restoration Act of 1993] in
order to provide greater protection for religious
exercise than is available under the First
Amendment.”).

57a

in this case, prefer opposite and contradictory
outcomes. Id. at 1206. As a result, Plaintiffs’
legal theory fails. Considering that Supreme
Court and Ninth Circuit case law not only have
not recognized the specific rights asserted by
Plaintiffs, but further forecloses recognizing
such rights as being encompassed by the
fundamental parental rights protected by the
Fourteenth Amendment’s Due Process Clause,
amendment of this claim would be futile.
For the foregoing reasons, we affirm the district
court’s dismissal with prejudice of this claim.
D.
Fourth, Plaintiffs contend that the district court
erred in dismissing their claim for violation of
their First Amendment free exercise rights.
The First Amendment provides that “Congress
shall make no law respecting an establishment
of religion, or prohibiting the free exercise
thereof ....” U.S. Const., amend. I. “The free
exercise of religion means, first and foremost,
the right to believe and profess whatever
religious doctrine one desires.” Emp’t Div., Dep’t
of Human Res. of Or. v. Smith, 494 U.S. 872 877,
110 S.Ct. 1595, 108 L.Ed.2d 876 (1990),
superseded by statute in other contexts as stated
in Holt, 135 S. Ct. at 859–60. The Supreme
Court has explained that the First Amendment

58a

“obviously excludes all ‘governmental regulation
of religious beliefs as such,’ ” meaning that “[t]he
government may not compel affirmation of
religious belief, punish the expression of
religious doctrines it believes to be false, impose
special disabilities on the basis of religious views
or religious status, or lend its power to one or the
other side in controversies over religious
authority or dogma.” Id. (citations omitted)
(quoting Sherbert v. Verner, 374 U.S. 398, 402,
83 S.Ct. 1790, 10 L.Ed.2d 965 (1963)). The
Supreme Court has also suggested that the
government would interfere with the free
exercise of religion impermissibly if it sought to
ban the performance of or abstention from
certain physical acts, but “only when [those acts]
are engaged in for religious reasons, or only
because of the religious belief that they display.”
Id. Nevertheless, the “freedom to act” pursuant
to one’s religious beliefs “cannot be” absolute;
“[c]onduct remains subject to regulation for the
protection of society.” Stormans, Inc. v. Selecky,
586 F.3d 1109, 1128 (9th Cir. 2009) (citing
Cantwell v. Connecticut, 310 U.S. 296, 303–04,
60 S.Ct. 900, 84 L.Ed. 1213 (1940)). Thus, “[t]he
Cantwell right to freely exercise one’s religion ...
‘does not relieve an individual of the obligation
to comply with a “valid and neutral law of
general applicability on the ground that the law
proscribes (or prescribes) conduct that his [or

59a

her] religion prescribes (or proscribes).’ ” Id. at
1127 (quoting Smith, 494 U.S. at 879, 110 S.Ct.
1595).
Here, Plaintiffs claim that the Student Safety
Plan violates their First Amendment rights to
freely exercise their religion because the
Student Safety Plan forces them to be exposed to
an environment in school bathrooms and locker
facilities that conflicts with, and prevents them
from fully practicing, their religious beliefs.
Specifically, the complaint alleges that many
Student Plaintiffs and some Parent Plaintiffs
“have the sincere religious belief” that children
“must not undress, or use the restroom, in the
presence of a member of the opposite biological
sex, and also that they must not be in the
presence of the opposite biological sex while the
opposite biological sex is undressing or using the
restroom.” Because the Student Safety Plan
permits transgender students who were
assigned the opposite biological sex at birth into
their locker rooms, the Plan “prevents Student
Plaintiffs from practicing the modesty that their
faith requires of them, and it further interferes
with Parent Plaintiffs teaching their children
traditional modesty and insisting that their
children practice modesty, as their faith
requires.” Plaintiffs further assert that, as a
result, “[c]omplying with the requirements of

60a

the Student Safety Plan ... places a substantial
burden on the Plaintiffs’ exercise of religion by
requiring Plaintiffs to choose between the
benefit of a free public education and violating
their religious beliefs.”
The district court dismissed this claim on the
basis that the Student Safety Plan was neutral
and generally applicable with respect to religion,
noting that “neutral, generally applicable laws
that incidentally burden the exercise of religion
usually do not violate the Free Exercise Clause
of the First Amendment” because they need only
be “rationally related to a legitimate
government interest.” Parents for Privacy, 326
F. Supp. 3d at 1110 (quoting Holt, 135 S. Ct. at
859) (citing Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah, 508 U.S. 520, 531, 113
S.Ct. 2217, 124 L.Ed.2d 472 (1993)). The district
court rejected Plaintiffs’ assertion that, because
the Plan pertains specifically to Student A, the
Plan is not generally applicable. Id. The court,
citing Lukumi, 508 U.S. at 532–33, 113 S.Ct.
2217, explained that “Plaintiffs misunderstand
the law,” because neutrality and general
applicability are “considered with respect to
religion” rather than with respect to the person
or groups to which the law most directly
pertains. Parents for Privacy, 326 F. Supp. 3d at
1110. Because the District’s Plan did not force

61a

any Plaintiff to embrace a religious belief and
did not punish anyone for expressing their
religious beliefs, the district court concluded
that the Plan is “neutral and generally
applicable with respect to religion,” and
therefore did not violate Plaintiffs’ First
Amendment rights. Id.
On appeal, Plaintiffs argue that the district
court should have applied strict scrutiny
because, contrary to the district court’s
conclusion, the Student Safety Plan is not
neutral or generally applicable. Plaintiffs point
out that the Student Safety Plan was
implemented to benefit one student in
particular, and they claim, without any
supporting citation, that “a policy implemented
for a single student is not generally applicable.”
Plaintiffs do not address the district court’s
reasoning that neutrality and general
applicability are considered with respect to
religion. Nor does their argument acknowledge
that the Plan applies to all transgender
students, not just to Student A; that is, the
argument does not distinguish between an event
that triggered development of a policy and the
breadth of the resulting policy itself.
In
assessing
neutrality
and
general
applicability, courts evaluate both “the text of
the challenged law as well as the effect ... in its

62a

real operation.” Stormans, Inc. v. Wiesman, 794
F.3d 1064, 1076 (9th Cir. 2015) (ellipsis in
original) (internal quotation marks omitted). As
the district court correctly explained, the two
tests for whether a law is neutral and generally
applicable focus on whether a law specifically
targets or singles out religion. See Parents for
Privacy, 326 F. Supp. 3d at 1110; Lukumi, 508
U.S. at 532, 113 S.Ct. 2217 (“[T]he protections of
the Free Exercise Clause pertain if the law at
issue discriminates against some or all religious
beliefs or regulates or prohibits conduct because
it is undertaken for religious reasons.”).
First, “if the object of a law is to infringe upon or
restrict practices because of their religious
motivation, the law is not neutral.” Selecky, 586
F.3d at 1130 (emphasis added) (quoting
Lukumi, 508 U.S. at 533, 113 S.Ct. 2217). For
example, “[a] law lacks facial neutrality if it
refers to a religious practice without a secular
meaning discernable from the language or
context.” Lukumi, 508 U.S. at 533, 113 S.Ct.
2217. Even if a law is facially neutral, it may
nonetheless fail the neutrality test if “[t]he
record ... compels the conclusion that
suppression of [a religion or religious practice]
was the object of the ordinances.” Id. at 534,
542, 113 S.Ct. 2217. Thus, in Lukumi, the
Supreme Court concluded that an animal

63a

ordinance that in its operation effectively
banned only the ritual animal sacrifice
performed by practitioners of the Santeria
religion, was not neutral because it
accomplished a “religious gerrymander,” i.e., an
impermissible attempt to target religious
practices through careful legislative drafting.
See id. at 535–37, 113 S.Ct. 2217.
Here, on the other hand, Plaintiffs’ complaint
contains no allegation suggesting that the
Student Safety Plan was adopted with the object
of suppressing the exercise of religion. To the
contrary, Plaintiffs allege that the District
developed and implemented the Student Safety
Plan in “response to the threat of [federal]
enforcement action” and in “response to Student
A’s complaints for accommodation.” Moreover,
the Student Safety Plan “make[s] no reference to
any religious practice, conduct, belief, or
motivation.” See Wiesman, 794 F.3d at 1076.
Instead, the Plan itself states that it was
“created to support a transgender male
expressing the right to access the boy’s locker
room at Dallas High School.” Plaintiffs do not
counter this evidence or point to anything in the
record suggesting that the Student Safety Plan
was adopted with the specific purpose of
infringing on Plaintiffs’ religious practices or
suppressing Plaintiffs’ religion. Accordingly, the

64a

district court correctly concluded that the
Student Safety Plan is neutral for purposes of
analyzing the free exercise claim.
Second, the question of general applicability
addresses whether a law treats religious
observers unequally. See Lukumi, 508 U.S. at
542, 113 S.Ct. 2217. For example, “inequality
results when a legislature decides that the
governmental interests it seeks to advance are
worthy of being pursued only against conduct
with a religious motivation.” Id. at 542–43, 113
S.Ct. 2217. Thus, “[a] law is not generally
applicable if its prohibitions substantially
underinclude non-religiously motivated conduct
that might endanger the same governmental
interest that the law is designed to protect.”
Wiesman, 794 F.3d at 1079 (citing Lukumi, 508
U.S. at 542–46, 113 S.Ct. 2217). “In other words,
if a law pursues the government’s interest ‘only
against conduct motivated by religious belief,’
but fails to include in its prohibitions
substantial, comparable secular conduct that
would similarly threaten the government’s
interest, then the law is not generally
applicable.” Id. (quoting Lukumi, 508 U.S. at
545, 113 S.Ct. 2217). For example, in Lukumi,
the Court concluded that the challenged
ordinances were not generally applicable
because they “pursue[d] the city’s governmental

65a

interests only against conduct motivated by
religious belief” and “fail[ed] to prohibit
nonreligious conduct that endanger[ed] these
interests in a similar or greater degree than
Santeria sacrifice does.” Lukumi, 508 U.S. at
543, 545, 113 S.Ct. 2217; see also Selecky, 586
F.3d at 1134.
Here, the Student Safety Plan is not
underinclusive, because it does not require only
religious students to share a locker room with a
transgender student who was assigned the
opposite sex at birth, nor does the Plan require
only religious teachers and staff to receive
training or to teach about anti-bullying and
harassment. In other words, the Student Safety
Plan affects all students and staff—it does not
place demands on exclusively religious persons
or conduct. Plaintiffs’ singular argument that
the Student Safety Plan is underinclusive
because it was aimed at a particular student and
does not allow every student to use the facilities
of their choosing regardless of biological sex or
self-identified gender misses the mark because
it misunderstands the applicable test.
Underinclusiveness is determined with respect
to the burdens on religious and non-religious
conduct and the interests sought to be advanced
by the policy. That the Student Safety Plan
focuses on transgender students rather than

66a

allowing all students to claim a right to use
whichever facility they wish regardless of
gender is irrelevant because that alleged
underinclusion is not related to the interests
furthered by the plan, and Plaintiffs have not
tied it to burdens on secular versus religious
conduct. The correct inquiry here is whether, in
seeking to create a safe, non-discriminatory
school environment for transgender students,
the Student Safety Plan selectively imposes
certain conditions or restrictions only on
religious conduct. Because Plaintiffs have not
made any showing that the Plan does so, the
district court correctly determined that the Plan
is generally applicable for purposes of the free
exercise analysis. See Parents for Privacy, 326 F.
Supp. 3d at 1110.
Because the Student Safety Plan qualifies as
neutral and generally applicable, it is not
subject to strict scrutiny. See Selecky, 586 F.3d
at 1129 (“[A] neutral law of general applicability
will not be subject to strict scrutiny review.”); see
also Smith, 494 U.S. at 888, 110 S.Ct. 1595
(“Precisely because we are a cosmopolitan
nation made up of people of almost every
conceivable religious preference, and precisely
because we value and protect that religious
divergence, we cannot afford the luxury of
deeming presumptively invalid, as applied to the

67a

religious objector, every regulation of conduct
that does not protect an interest of the highest
order.” (citation and internal quotation marks
omitted)).
Plaintiffs argue that strict scrutiny should
nevertheless apply because this suit concerns
the
alleged
infringement
of
multiple
constitutional rights. Relying on Smith, 494
U.S. at 882, 110 S.Ct. 1595, they argue that
“[w]here, as here, plaintiffs allege multiple
fundamental rights arising under the First and
Fourteenth Amendments (bodily privacy,
parental rights and free exercise rights), hybrid
rights analysis requires strict scrutiny as well.”
The district court rejected this argument
because it had already dismissed Plaintiffs’
other constitutional claims. See Parents for
Privacy, 326 F. Supp. 3d at 1110 n.10. For the
following reasons, we agree with the district
court that Plaintiffs’ argument—that strict
scrutiny is required simply because Plaintiffs
alleged
multiple
constitutional
claims
concerning fundamental rights—fails here.
The extent to which the hybrid rights exception
truly exists, and what standard applies to it, is
unclear. In Smith, the Court noted that “[t]he
only decisions in which we have held that the
First Amendment bars application of a neutral,
generally applicable law to religiously motivated

68a

action have involved not the Free Exercise
Clause alone, but the Free Exercise Clause in
conjunction
with
other
constitutional
protections.” Smith, 494 U.S. at 881, 110 S.Ct.
1595. However, Smith did “not present such a
hybrid situation,” and thus the Court did not
further explain how a hybrid rights scenario
should be scrutinized. See id. at 882, 110 S.Ct.
1595. The Ninth Circuit subsequently discussed
the nature of “hybrid rights” at length, and a
three-judge panel majority concluded that, “[i]n
order to trigger strict scrutiny, a hybrid-rights
plaintiff must show a ‘fair probability’—a
‘likelihood’—of success on the merits of his
companion claim.” Thomas v. Anchorage Equal
Rights Comm’n, 165 F.3d 692, 706 (9th Cir.),
reh’g granted, opinion withdrawn, 192 F.3d
1208 (9th Cir. 1999). The dissent, however,
noted that “there is real doubt whether the
hybrid-rights exception even exists” because
“the Supreme Court itself has never explicitly
held that it exists.” Id. at 722–23 (Hawkins, J.,
dissenting). “[T]he paragraph in
Smith
purporting to carve out a hybrid-rights
exception is dicta,” “the Supreme Court in
Smith did not announce a different test for
hybrid-rights cases,” and “[e]ven the cases which
the Supreme Court cited as involving ‘hybrid
rights’ did not explicitly refer to or invoke strict
scrutiny or a compelling government interest

69a

test.” Id. at 723–24. In any case, that opinion
discussing the appropriate hybrid rights test in
our Circuit was withdrawn upon granting
rehearing en banc, and the en banc court did not
address the hybrid rights issue. See Thomas v.
Anchorage Equal Rights Comm’n, 220 F.3d
1134, 1148 (9th Cir. 2000) (en banc) (noting that
“we postpone ... application of [Smith’s] newly
developed hybrid rights doctrine”) (O’Scannlain,
J., concurring).
Moreover, Miller v. Reed, the Ninth Circuit case
that Plaintiffs cite as the basis for the hybrid
rights exception in our Circuit, was decided after
the panel opinion in Thomas was issued, but
before the three-judge opinion was withdrawn
upon granting rehearing en banc. See Miller v.
Reed, 176 F.3d 1202 (9th Cir. 1999). Thus, no
weight can be given to Miller’s citation to the
Thomas panel opinion for the suggestion that
the hybrid rights exception has been established
in our Circuit. See id. at 1207 (“[W]e recently
held that, to assert a hybrid-rights claim, ‘a free
exercise plaintiff must make out a “colorable
claim” that a companion right has been
violated—that is, a “fair probability” or a
“likelihood,” but not a certitude, of success on the
merits.’ ” (quoting Thomas, 165 F.3d at 703,
707)). There is therefore no binding Ninth
Circuit authority deciding the issue of whether

70a

the hybrid rights exception exists and requires
strict scrutiny.
Nonetheless, we need not resolve that question
now, because even if a hybrid rights exception
does exist, it would not apply in this case. For
the reasons discussed in the Thomas panel
opinion, alleging multiple failing constitutional
claims that do not have a likelihood of success on
the merits cannot be enough to invoke a hybrid
rights exception and require strict scrutiny. See
Thomas, 165 F.3d at 703–07; cf. id. at 705 (“[A]
plaintiff invoking Smith’s hybrid exception must
make out a ‘colorable claim’ that a companion
right has been infringed.”); Miller, 176 F.3d at
1207–08 (collecting cases and noting that
“[o]ther circuits have adopted ... predicates for a
hybrid-rights claim” that are “similar or more
stringent” than the standard adopted in
Thomas, and holding that “a plaintiff does not
allege a hybrid-rights claim entitled to strict
scrutiny analysis merely by combining a free
exercise claim with an utterly meritless claim of
the violation of another alleged fundamental
right or a claim of an alleged violation of a nonfundamental or non-existent right”). As
explained earlier in this opinion, Plaintiffs have
not established colorable companion claims—
they have not shown even a likelihood of success,
which is why their claims were all dismissed

71a

with prejudice. Thus, even if the hybrid rights
exception does exist, it would not apply to
require
strict
scrutiny
in
this
case.
Alternatively, if the hybrid rights exception does
not actually exist, then, of course, it cannot
apply to this case to require strict scrutiny of
Plaintiffs’ purported hybrid claims. Cf. Leebaert
v. Harrington, 332 F.3d 134, 143 (2d Cir. 2003)
(“Several circuits have stated that
Smith
mandates stricter scrutiny for hybrid situations
than for a free exercise claim standing alone,
but, as far as we are able to tell, no circuit has
yet actually applied strict scrutiny based on this
theory.”); Catholic Charities of Sacramento, Inc.
v. Superior Court, 32 Cal.4th 527, 10
Cal.Rptr.3d 283, 85 P.3d 67, 88 (2004)
(explaining that a rule requiring only a
“colorable” and not an “ultimately meritorious”
companion claim would not make sense because
it would allow the hybrid exception to swallow
the Smith rule, and noting that the California
Supreme Court was “aware of no decision in
which a federal court has actually relied solely
on the hybrid rights theory to justify applying
strict scrutiny to a free exercise claim”).
In sum, whether the hybrid rights exception
exists and requires at least a colorable
companion claim, or whether it does not really
exist at all—an issue that we do not resolve

72a

here—Plaintiffs’ argument that the hybrid
rights exception requires that we apply strict
scrutiny to their free exercise claim fails.
Because strict scrutiny does not apply, we also
need not address Plaintiffs’ arguments about
narrow tailoring.
Instead, we review the Plan for a rational basis,
which means that the Plan must be upheld if it
is rationally related to a legitimate
governmental purpose. See Wiesman, 794 F.3d
at 1084; see also Selecky, 586 F.3d at 1127–28
(“Under the governing standard, ‘a law that is
neutral and of general applicability need not be
justified by a compelling governmental interest
even if the law has the incidental effect of
burdening a particular religious practice.’ ”
(quoting Lukumi, 508 U.S. at 531, 113 S.Ct.
2217)). “Plaintiffs ‘have the burden to negate
every conceivable basis which might support
[the Plan].’” Wiesman, 794 F.3d at 1084
(brackets omitted) (quoting FCC v. Beach
Commc’ns, Inc., 508 U.S. 307, 315, 113 S.Ct.
2096, 124 L.Ed.2d 211 (1993)). They fail to meet
that burden, because they fail to negate what
the record makes clear: the Student Safety Plan
is rationally related to the legitimate purpose of
protecting student safety and well-being, and
eliminating discrimination on the basis of sex
and transgender status. Cf. New York v. Ferber,

73a

458 U.S. 747, 756–57, 102 S.Ct. 3348, 73 L.Ed.2d
1113 (1982) (explaining that “a State’s interest
in ‘safeguarding the physical and psychological
well-being of a minor’ is ‘compelling’ ” (quoting
Globe Newspaper Co. v. Superior Court, 457 U.S.
596, 607, 102 S.Ct. 2613, 73 L.Ed.2d 248
(1982))); Goehring v. Brophy, 94 F.3d 1294, 1300
(9th Cir. 1996) (holding that a university had a
compelling interest in the “health and wellbeing of its students”).21 Plaintiffs’ argument
In their arguments regarding the compelling
governmental interest that would be required if
we were to apply strict scrutiny, Plaintiffs argue
that “[t]he relevant government interest ...
cannot be a general interest in prohibiting
discrimination because that position has already
been rejected by the Supreme Court in Hurley
v. Irish-American Gay, Lesbian & Bisexual
Group of Boston, 515 U.S. 557, 573, 115 S.Ct.
2338, 132 L.Ed.2d 487 (1995).” But Hurley is
inapposite because that was a free speech case;
the Supreme Court’s suggestion in Hurley that
a broad statutory objective of forbidding
discriminatory speech in public parades would
be “fatal” because “[o]ur tradition of free speech
commands that a speaker who takes to the
street corner to express his views in this way
should be free from interference by the State
based on the content of what he says” is hardly
21

74a

that the Supreme Court has also recognized
bodily privacy as a compelling interest is
surprising or controversial. See id. at 578–79,
115 S.Ct. 2338. That statement in Hurley
certainly does not preclude the District here
from asserting an interest in providing an
accommodating and safe school environment for
transgender students and assuring that they do
not suffer the stigmatizing injury of
discrimination by being denied access to multiuser bathrooms that match their gender
identity. And in fact, the Supreme Court has
recognized repeatedly that the government has
a compelling interest “of the highest order” in
“eliminating discrimination and assuring its
citizens equal access to publicly available goods
and services.” Roberts v. U.S. Jaycees, 468 U.S.
609, 624, 104 S.Ct. 3244, 82 L.Ed.2d 462 (1984);
see also id. at 623, 628, 104 S.Ct. 3244 (noting
that “acts of invidious discrimination in the
distribution of publicly available goods, services,
and other advantages cause unique evils that
government has a compelling interest to
prevent,” and holding that “Minnesota’s
compelling
interest
in
eradicating
discrimination against its female citizens
justifies the impact that application of the
statute to the Jaycees may have on the male
members’ associational freedoms”).

75a

unavailing, because it does not negate the fact
that the Student Safety Plan has a rational
basis. Thus, we conclude that because the
Student Safety Plan is neutral, generally
applicable, and rationally related to a legitimate
governmental purpose, the Plan does not
impermissibly
burden
Plaintiffs’
First
Amendment free exercise rights. See Wiesman,
794 F.3d at 1085. And because Plaintiffs have
not shown that any new factual allegations
could alter these conclusions based on settled
precedent, amendment would be futile.
For the foregoing reasons, we affirm the
dismissal with prejudice of Plaintiffs’ First
Amendment free exercise claim.
V.
Finally, Plaintiffs argue that the district court
erred in failing to allow Plaintiffs leave to
replead. Although Plaintiffs correctly point out
that leave to amend should be liberally granted
if the complaint can be saved by amendment,
Plaintiffs have not shown, either in their
briefing or at oral argument, how they could
amend their complaint to remedy the many legal
deficiencies in their claims. Instead, Plaintiffs
simply argue that their complaint, as currently
alleged, is sufficient to state their claims
because their claims “were not conclusory;

76a

rather, they were extensive, well-articulated
statements of fact that clearly pleaded claims for
relief” and “exceeded both the Twombly and
Iqbal standards.”
The problem with Plaintiffs’ complaint,
however, is not the sufficiency of their factual
allegations. Rather, as we have explained above,
Plaintiffs’ legal theories fail. Amending the
complaint will not change, for example, the
extent of the rights that are protected by the
Fourteenth Amendment’s Due Process Clause.
As a result, we affirm the district court’s denial
of leave to amend.22 Further amendment would

Because we affirm the dismissal with
prejudice of Plaintiffs’ complaint, we do not
reach the district court’s determination that
Plaintiffs’ requested relief—a court order
requiring transgender students to use singleuser facilities or facilities that match their
biological sex—would itself violate Title IX
because it “would punish transgender students
for their gender nonconformity and constitute a
form of [impermissible] sex-stereotyping.”
Parents for Privacy, 326 F. Supp. 3d at 1106
(citing Whitaker ex rel. Whitaker, 858 F.3d at
1048–50).
22

77a

simply be a futile exercise. See V.V.V. & Sons
Edible Oils. Ltd., 946 F.3d at 547.
VI.
In summary, we hold that Dallas School District
No. 2’s carefully-crafted Student Safety Plan
seeks to avoid discrimination and ensure the
safety and well-being of transgender students; it
does not violate Title IX or any of Plaintiffs’
cognizable constitutional rights. A policy that
allows transgender students to use school
bathroom and locker facilities that match their
self-identified gender in the same manner that
cisgender students utilize those facilities does
not infringe Fourteenth Amendment privacy or
parental rights or First Amendment free
exercise rights, nor does it create actionable sex
harassment under Title IX.
Accordingly, Plaintiffs have failed to state a
federal claim upon which relief can be granted.
The judgment of the district court is
AFFIRMED.

78a

326 F.Supp.3d 1075
United States District Court, D. Oregon.
PARENTS FOR PRIVACY; Kris Golly and Jon
Golly, individually and as guardians ad litem
for A.G.; Lindsay Golly; Nicole Lillie; Melissa
Gregory, individually and as guardian ad litem
for T.F.; and Parents’ Rights in Education, an
Oregon nonprofit corporation, Plaintiffs,
v.
DALLAS SCHOOL DISTRICT NO. 2; Oregon
Department of Education; Governor Kate
Brown, in her official capacity as the
Superintendent of Public Instruction; and
United States Department of Education; Betsy
Devos, in her official capacity as United States
Secretary of Education, as successor to John B.
King, Jr.; United States Department of Justice;
Jeff Sessions, in his official capacity as United
States Attorney General, as successor to
Loretta F. Lynch, Defendants.
No. 3:17-cv-01813-HZ
Signed 07/24/2018
Synopsis
Background: Current and former high school
students and their parents brought action
against
school
district,
United
States

79a

Department of Education (DOE), Secretary of
Education, United States Department of Justice
(DOJ), and Attorney General, alleging that high
school’s policy of allowing transgender students
to use restrooms, locker rooms, and showers that
matched their gender identity, rather than their
biological sex assigned at birth, violated the Due
Process Clause, Title IX, the First Amendment’s
Free Exercise Clause, and Oregon law. School
district, DOE, Secretary, DOJ, and Attorney
General moved to dismiss.
Holdings: The District Court, Hernández, J.,
held that:
[1] students’ purported injuries were not
causally linked to actions of DOE and DOJ in
promulgating federal guidelines concerning
transgender students and in enforcing those
guidelines, and thus, students lacked Article III
standing to maintain action against DOE and
DOJ;
[2] students did not have fundamental privacy
right under the Due Process Clause to not share
restrooms, locker rooms, and showers with
transgender students whose biological sex was
different than theirs, and thus, high school’s
policy did not violate students’ constitutional
right to privacy;

80a

[3] high school’s policy did not discriminate on
the basis of sex within meaning of Title IX;
[4] high school’s policy did not unreasonably
differentiate in its treatment of students and did
not have discriminatory impact, and thus did
not violate Oregon’s discrimination in education
statute;
[5] high school’s policy did not violate Oregon’s
discrimination in public accommodations
statute; and
[6] high school’s policy did not violate parents’
fundamental right to direct the education and
upbringing of their children under the Due
Process Clause.
Motions granted.
Procedural Posture(s): Motion to Dismiss.
OPINION & ORDER
HERNÁNDEZ, District Judge:
The Court must determine whether Oregon
public schools may allow transgender students
to use restrooms, locker rooms, and showers that
match their gender identity rather than their
biological sex assigned at birth. Dallas High
School, located in Dallas, Oregon, and under the
control of Defendant Dallas School District No.
2 (“District”), adopted and implemented the

81a

Student Safety Plan (“Plan”) together with
underlying policies allowing transgender
students to use restrooms, locker rooms, and
showers that match their gender identity.
Plaintiff Parents for Privacy is composed of
current and former Dallas High School students
(“Student Plaintiffs”) and their parents (“Parent
Plaintiffs”). Plaintiff Lindsay Golly formerly
attended Dallas High School during the 2015–
2016 school year while the Plan was in place.
Compl. ¶ 16, ECF 1. Plaintiffs Kris Golly and
Jon Golly are her parents as well as the parents
of their son A.G., an eighth-grade student who
will soon attend Dallas High School. Compl. ¶
16. Plaintiff Melissa Gregory is a parent of T.F.,
a student at Dallas high school. Id. at ¶ 17.1
Plaintiffs challenge the legality of the plan, seek
to enjoin District from enforcing it, and request
that the Court order District to require students
to only use the restrooms, locker rooms, and
showers that match their biological sex.
Plaintiffs also include Parents’ Rights in
Education, a nonprofit organization based out of
Washington County, Oregon. Compl. ¶ 9. This
Plaintiff, however, is merely a named party and
is not specifically mentioned in any factual
allegations of the Complaint nor in any briefing.
1

82a

Additionally, Plaintiffs seek to enjoin the U.S.
Department of Education (“USDOE”), U.S.
Department of Justice (“USDOJ”), and their
respective secretaries (collectively “Federal
Defendants”) from taking any action based on
USDOE’s alleged rule redefining the word “sex”
as used in Title IX to include gender identity.
District and Federal Defendants have
separately filed motions to dismiss Plaintiffs’
claims.
Moreover, Basic Rights Oregon (“BRO”), a nonprofit organization dedicated to protecting the
rights of Oregon’s LGBTQ community, filed a
motion to intervene as a defendant in this case.
See Mot. to Intervene, ECF. 24. The Court
granted BRO’s motion to intervene and BRO
filed its own motion to dismiss. See BRO’s Mot.
to Dismiss, ECF 30.
Lastly, the Oregon Department of Education
(“ORDOE”) and Governor Kate Brown
(collectively “State”) were originally named
parties in this lawsuit. Upon the parties’
stipulation, Plaintiffs’ claims against those
defendants were dismissed. See Stip. Notice of
Dismissal, ECF 11. State, however, moved to
rejoin this litigation as amicus curiae. See Mot.
for Leave to Appear as Amicus Curiae, ECF 50.
The Court granted that motion, and State filed
its amicus brief in support of District’s Motion to

83a

Dismiss. See Amicus Br., ECF 50-1. In sum,
there are three fully-briefed motions to dismiss
before the Court.2 For the reasons discussed
below, the motions are GRANTED and this case
is DISMISSED.
Plaintiffs bring the following eight claims for
relief:
First Claim: (against Federal Defendants)
Violation of the Administrative Procedure Act
(“APA”), 5 U.S.C. § 500 et seq. Compl. ¶¶ 136–
185.

A motion for a preliminary injunction is also
embedded in the Complaint’s prayer for relief.
See Compl. pp. 63–64. In substantially similar
cases, courts have adjudicated motions for
preliminary injunctions before entertaining
Rule 12 motions to dismiss. Here, however,
Plaintiffs have not pressed the issue, and the
parties do not discuss an injunction anywhere in
their briefing. At oral argument, the parties
indicated their intent to litigate the motions to
dismiss currently before the Court, since
resolution of the motions may moot any
potential injunction.
2

84a

Second Claim: (against District and Federal
Defendants) Violation of the Fundamental Right
to Privacy. Id. at ¶¶ 186–206.
Third Claim: (against District and Federal
Defendants)
Violation
of
the
Parents’
Fundamental Right to Direct the Education and
Upbringing of Their Children. Id. at ¶¶ 207–220.
Fourth Claim: (against District) Violation of
Title IX, 20 U.S.C. § 1681 et seq. Id. at ¶¶ 221–
247.
Fifth Claim: (against Federal Defendants):
Violation of the Religious Freedom Restoration
Act (“RFRA”), 42 U.S.C. § 2000bb et seq. Id. at
¶¶ 248–255.
Sixth Claim: (against District and Federal
Defendants):
Violation
of
the
First
Amendment’s Guarantee of Free Exercise of
Religion. Id. at ¶¶ 256–264.
Seventh Claim: (against District) Public
Accommodation Discrimination, Or. Rev. Stat.
(“O.R.S.”) §§ 659A.400, 659A.885. Id. at ¶¶ 265–
271.
Eighth Claim: (against District) Discrimination
in Education, O.R.S. 659.850. Id. at ¶¶ 272–277.
Plaintiffs and District conferred and consent to
the dismissal of some of Plaintiffs’ claims. First,

85a

they agree that Plaintiff Lindsay Golly should be
dismissed because she does not have standing.
Second, the parties agree that Plaintiff Nicole
Lillie should be dismissed; while her name is in
the case caption, she is not included in any of the
Complaint’s allegations. Third, Plaintiffs
consent to the dismissal of their request for
compensatory damages as to Plaintiffs A.G. and
T.F. Furthermore, Plaintiffs concede that their
third claim for relief—violation of the right to
direct the education and upbringing of one’s
children—should be dismissed to the extent that
it is based on the District’s alleged liability for
the LaCreole Middle School special needs
assessment. See Pl.’s Resp. to District’s Mot. to
Dismiss 2, ECF 41.
BACKGROUND3
The facts recited below are taken from
Plaintiffs’ complaint and exhibits attached
thereto. The Court assumes that the
Complaint’s factual allegations are true unless
they are contradicted by the Complaint’s
exhibits. See Warren v. Fox Family Worldwide,
Inc., 328 F.3d 1136, 1139 (9th Cir. 2003) (“[W]e
are not required to accept as true conclusory
allegations
which
are
contradicted
by
documents referred to in the complaint, and we
do not necessarily assume the truth of legal
3

86a

I. Definitions
As a preliminary matter, the Court finds it
necessary to explain its use of several relevant
terms. In a recent decision, the Third Circuit
aptly summarized the same set of terms the
Court uses throughout this Opinion & Order.
See Doe v. Boyertown Area Sch. Dist., 893 F.3d
179, 183–84 (3d Cir. 2018). The Court adopts the
following definitions from the Third Circuit:
“Sex” is defined as the “anatomical
and physiological processes that
lead to or denote male or female.”
Typically, sex is determined at birth
based on the appearance of external
genitalia.
“Gender” is a “broader societal
construct” that encompasses how a
“society defines what male or female
is within a certain cultural context.”
A person’s gender identity is their
subjective, deep-core sense of self as
being
a
particular
gender....
“[C]isgender” refers to a person who
identifies with the sex that person
conclusions merely because they are cast in the
form of factual allegations.”) (internal quotation
marks, citations, and alterations omitted).

87a

was determined to have at birth.
The term “transgender” refers to a
person whose gender identity does
not align with the sex that person
was determined to have at birth. A
transgender boy is therefore a
person who has a lasting, persistent
male gender identity, though that
person’s sex was determined to be
female at birth. A transgender girl
is a person who has a lasting,
persistent female gender identity
though that person’s sex was
determined to be male at birth.
Id. (citations omitted).
II. Dallas School District and the Student
Safety Plan
Dallas High School is located in Dallas, Oregon
in Polk County. Compl. ¶ 19. Student A was a
twelfth grade student at Dallas High School. Id.
at ¶ 76. Student A was born and remains
biologically female. Id. at ¶ 77. Before
September 2015, Student A used the girls’
restrooms, locker rooms, and showers
(collectively “facilities”). Id. at ¶ 77. In
September 2015, Student A publicly identified

88a

as a boy and asked District to allow him4 to use
the boys’ facilities. Id. at ¶ 78–79.
In November 2015, District responded to
Student A’s request by implementing the
Student Safety Plan entitled “Transgender
Student Access to Locker Room.” Compl. Ex. A,
at 1. The Plan permits Student A to use Dallas
High School’s locker rooms, restrooms, and
showers consistent with his gender identity.
Compl. ¶ 75, Ex. A, at 1. The preamble to the
Plan states:
All students have rights for
attendance at public schools, and we
have to follow the laws which
protect those students[’] rights. This
safety plan has been created to
support
a
transgender
male
expressing the right to access the
boy’s locker room at Dallas High
Following Ninth Circuit decisions involving
transgender people, the Court uses the
masculine rather than feminine pronouns when
referring to Student A. See Schwenk v. Hartford,
204 F.3d 1187, 1192 n.1 (9th Cir. 2000). In other
words, when referring to a transgender person,
the Court uses the pronoun consistent with that
person’s gender identity.
4

89a

School. Following are targeted areas
of concern and the procedures or
actions aimed to support all
students in this transition.
Compl. Ex. A, at 1. At that time, Student A had
not expressed which bathroom he felt
comfortable using. Id. at ¶ 79. Accordingly, the
Plan states that Student A “can use any of the
bathrooms in the building to which he identifies
sexually.” Compl. Ex. A, at 2.
Furthermore, the Plan, as referred to by the
parties, also encompasses several previously
established District policies. Compl. Exs. B–G.
District’s nondiscrimination policy provides that
District
“prohibits
discrimination
and
harassment on any basis protected by law,
including ... an individual[’]s perceived or actual
... sex” or “sexual orientation.” Compl. Ex. B, at
1. Sexual orientation under the policy “means an
individual’s actual or perceived ... gender
identity, regardless of whether the individual’s
gender identity, appearance, expression or
behavior differs from that traditionally
associated with the individual’s sex at birth.” Id.
Likewise, District has a policy entitled “Equal
Education Opportunity” providing that “[e]very
student of the district will be given equal
educational opportunities regardless of ... sex” or

90a

“sexual orientation.” Compl. Ex. C. The policy
explains:
Further, no student will be excluded
from participating in, denied the
benefits of, or subjected to
discrimination
under
any
educational program or activity
conducted by the district. The
district will treat its students
without discrimination on the basis
of sex as this pertains to course
offerings, athletics, counseling,
employment
assistance
and
extracurricular activities.
Id.
In accordance with the Plan, Student A used the
boys’ locker rooms, showers, and restrooms at
Dallas High school. Compl. ¶ 79. Other male
students, including Student Plaintiffs, have
used school facilities at the same time as
Student A. Id. at ¶ 79. Specifically, Student A
has used the boys’ locker room and showers and
has changed clothes while male students were
present. Id. at ¶ 82. Plaintiffs allege that male
students at Dallas High school experience
“embarrassment,
humiliation,
anxiety,
intimidation, fear, apprehension, and stress
produced by using the restroom with students of

91a

the opposite sex[.]” Id. at ¶ 83. The alleged risks
posed to those students persist despite the
presence of privacy stalls in the bathrooms
because “there are large gaps above and below
the stall doors, and gaps along the sides of the
doors” through which “another student could see
through even inadvertently.” Id. Therefore,
Plaintiffs maintain that Student Plaintiffs
“must risk exposing themselves to the opposite
sex every time they use the restroom.” Id. at ¶
83. Consequently, Student Plaintiffs and other
students use the restroom as little as possible
and “risk tardiness by hurrying to distant
facilities of the school, during short 5-minute
passing periods, to try and find a restroom not
likely to be used by a student of the opposite
biological sex.” Id. at ¶ 85.
Student and Parent Plaintiffs expressed their
concerns about the Plan to Dallas High School’s
principal who informed them that all facilities
may be used by any student regardless of
biological sex. Id. at ¶ 87. The principal also told
Parent Plaintiffs that their students could use
the unisex staff lounge which has no shower. Id.
at ¶ 91. Dallas School Board meetings were held
on December 14, 2015, January 19, 2016, and
February 11, 2016. Id. at ¶ 93. At those
meetings, District supported the Plan over

92a

Plaintiffs’ objections and those of other parents
and students. Id.5
II. Federal Defendants’ Administrative
Actions
Plaintiffs allege that Federal Defendants have
exercised their authority to promulgate,
administer, and enforce a new legislative rule
redefining “sex” within the meaning of Title IX
to include gender identity and prohibiting school
districts from providing sex-specific facilities. Id.
at ¶¶ 26–30, 32–39, 49–73. Federal Defendants’
new legislative rule (“Rule”) as alleged in the
Complaint is composed of a series of Federal
Plaintiffs also challenge another action
taken by District related to La Creole Middle
School. Compl. ¶ 96. In February 2017, District
administered a “Needs Assessment” to La Creole
Middle School students without prior notice,
knowledge, or consent of the students’ parents.
Compl. Ex. P. The Needs Assessment asked
students to disclose information about problems
or issues they were experiencing involving
clothing, school supplies, family food sufficiency,
alcohol or drug abuse, suicide, self-image, sexual
orientation and gender identity, unhealthy
relationships and other subjects of a personal or
family nature. Compl. ¶ 96. As noted above,
Plaintiffs conceded this claim.
5

93a

Guidelines promulgated between April 2014 and
May 2016, including:
- USDOE, Office for Civil Rights, Questions and
Answers on Title IX and Sexual Violence (Apr.
2014). Compl. Ex. H [hereinafter “Q & A on
Sexual Violence”].
- USDOE, Office for Civil Rights, Questions and
Answers on Title IX and Single-Sex Elementary
and Secondary Classes and Extracurricular
Activities, (Dec. 2014). Compl. Ex. I [hereinafter
“Q & A on Single-Sex Activities”].
- USDOE, Office of Civil Rights, Title IX
Resource Guide. (Apr. 2015). Compl. Ex. J.
- USDOJ, Civil Rights Division, USDOE, Office
for Civil Rights, Dear Colleague Letter on
Transgender Students (May 13, 2016). Compl.
Ex. K [hereinafter “May 2016 Dear Colleague
Letter”].
First, in April 2014, USDOE published the Q &
A on Sexual Violence which provides: “Title IX’s
sex discrimination prohibition extends to claims
of discrimination based on gender identity or
failure to conform to stereotypical notions of
masculinity or femininity[.]” Compl. Ex. H at 12.
That guidance was withdrawn in September
2017, before this lawsuit was filed. See U.S.
Dep’t of Educ., Office for Civil Rights, Dear

94a

Colleague
Letter
(Sept.
22,
2017),
https://www2.ed.gov/about/offices/list/ocr/letters
/colleague-201702-title-ix.pdf.
Second, in December 2014, USDOE published
the Q & A on Single-Sex Classes, providing that:
All students, including transgender
students and students who do not
conform to sex stereotypes are
protected
from
sex-based
discrimination under Title IX.
Under Title IX, a recipient generally
must treat transgender students
consistent with their gender
identity in all aspects of planning,
implementation,
enrollment,
operation, and evaluation of singlesex classes.
Compl. Ex. I, at 30.
Third, in April 2015, USDOE published the
Title IX Resource Guide which reiterates that
Title IX’s prohibition of sex discrimination
includes gender identity. Compl. Ex. J, at 5.
Specifically, the prohibition extends to claims of
discrimination based on gender identity or
failure to conform to stereotypical notions of
masculinity or femininity. Id. at 5–6. “Similarly,
the actual or perceived sexual orientation or

95a

gender identity of the parties does not change a
recipient’s obligations.” Id. at 21.
The fourth challenged document is the May
2016 Dear Colleague Letter jointly issued by the
USDOJ and USDOE. Compl. Ex. K. The May
2016 Dear Colleague Letter repeated that Title
IX’s
sex-discrimination
prohibition
“encompasses discrimination based on a
student’s
gender
identity,
including
discrimination based on a student’s transgender
status.” Id. at 2. Federal Defendants
characterized this letter as “significant
guidance” that “does not add requirements to
applicable law, but provides information and
examples to inform recipients about how the
Departments evaluate whether covered entities
are complying with their legal obligations.” Id.
at 2. Most importantly, this document provides
specific guidance on transgender students’
access to sex-segregated activities and facilities:
3. Sex-Segregated Activities and Facilities
Title IX’s implementing regulations permit a
school to provide sex-segregated restrooms,
locker rooms, shower facilities, housing, and
athletic teams, as well as single-sex classes
under certain circumstances. When a school
provides sex-segregated activities and facilities,
transgender students must be allowed to

96a

participate in such activities and access such
facilities consistent with their gender identity.
Restrooms and Locker Rooms. A school may
provide separate facilities on the basis of sex,
but must allow transgender students access to
such facilities consistent with their gender
identity. A school may not require transgender
students to use facilities inconsistent with their
gender identity or to use individual-user
facilities when other students are not required
to do so. A school may, however, make
individual-user options available to all students
who voluntarily seek additional privacy.
Athletics. Title IX regulations
permit a school to operate or sponsor
sex-segregated
athletics
teams
when selection for such teams is
based upon competitive skill or
when the activity involved is a
contact sport. A school may not,
however, adopt or adhere to
requirements that rely on overly
broad generalizations or stereotypes
about the differences between
transgender students and other
students of the same sex (i.e., the
same gender identity) or others’
discomfort
with
transgender
students. Title IX does not prohibit

97a

age-appropriate,
tailored
requirements based on sound,
current,
and
research-based
medical knowledge about the impact
of the students’ participation on the
competitive fairness or physical
safety of the sport.
Id. at 4.
On February 22, 2017, the USDOJ and USDOE
published a second dear colleague letter
withdrawing the guidance provided in their May
2016 Dear Colleague Letter. See U.S. Dep’ts of
Educ. & Justice, Dear Colleague Letter (Feb. 22,
2017),
https://www2.ed.gov/about/offices/list/ocr/le
tters/colleague-201702-title-ix.pdf [hereinafter
“February 2017 Dear Colleague Letter”]. The
February 2017 Dear Colleague Letter began:
“The purpose of this guidance is to inform you
that the Department of Justice and the
Department of Education are withdrawing the
statements of policy and guidance reflected” in
the May 2016 Dear Colleague Letter. Id. The
letter
explained
that
prior
guidance’s
interpretation of “on the basis of sex” in Title IX
to include gender identity has “given rise to
significant litigation regarding school restrooms
and locker rooms.” Id.

98a

The February 2017 Dear Colleague Letter did
not state that the prior guidance was unlawful,
nor did Federal Defendants replace the prior
guidance with new guidance. Rather, the letter
stated that, in light of litigation on the issue
producing differing results, “there must be due
regard for the primary role of the States and
local school districts in establishing education
policy.” Id. “In these circumstances, the
[USDOE and USDOJ] have decided to withdraw
and rescind the above-reference guidance
documents in order to further and more
completely consider the legal issues involved.
The Departments thus will not rely on the views
expressed within them.” Id.; see also Compl. Ex.
N (USDOE instructions to field offices stating
that in light of the February 2017 Dear
Colleague
Letter
and
other
litigation
developments, the USDOE should not rely on
the May 2016 Dear Colleague letter when
analyzing Title IX discrimination claims).
STANDARDS
On a motion to dismiss, the court must review
the sufficiency of the complaint. Scheuer v.
Rhodes, 416 U.S. 232, 236, 94 S.Ct. 1683, 40
L.Ed.2d 90 (1974). A complaint is construed in
favor of the plaintiff, and its factual allegations
are taken as true. Daniels–Hall v. Nat’l Educ.
Ass’n, 629 F.3d 992, 998 (9th Cir. 2010). “[F]or a

99a

complaint to survive a motion to dismiss, the
non-conclusory factual content, and reasonable
inferences from that content, must be plausibly
suggestive of a claim entitling the plaintiff to
relief.” Moss v. United States Secret Serv., 572
F.3d 962, 969 (9th Cir. 2009) (internal quotation
marks omitted). “A claim has facial plausibility
when the plaintiff pleads factual content that
allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868
(2009). “[O]nce a claim has been stated
adequately, it may be supported by showing any
set of facts consistent with the allegations in the
complaint.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 563, 127 S.Ct. 1955, 167 L.Ed.2d 929
(2007). The court, however, need “not assume
the truth of legal conclusions merely because
they are cast in the form of factual allegations.”
Id. “[A] plaintiff’s obligation to provide the
‘grounds’ of his ‘entitle[ment] to relief’ requires
more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do ....” Id. at 555, 127 S.Ct. 1955.
DISCUSSION
As outlined above, Plaintiffs allege eight claims
for relief which the Court has grouped together
as follows: (I) APA; (II) the right to privacy; (III)

100a

Title IX; (IV) Oregon state law; (V) parents’
rights to direct the education and upbringing of
their children; and (VI) First Amendment and
RFRA. The Court will discuss each topic in turn.
I. APA
Plaintiffs’ first claim for relief alleges that
Federal Defendants violated by the APA
through promulgating and enforcing “a new
legislative rule that redefines the term ‘sex’ in
Title IX and its accompanying regulations to
mean, or at least include, ‘gender identity.’”
Compl. ¶ 137. They argue that the May 2016
Dear Colleague Letter demonstrates that
Federal Defendants will investigate and enforce
Title IX against school districts that do not
permit transgender students to use restrooms,
locker rooms and showers consistent with their
gender identity. Id. at ¶¶ 140–41. Plaintiffs
contend
that
Federal
Defendants’
administrative actions are in excess of legal
authority, arbitrary and capricious, contrary to
the U.S. Constitution, and done without
observance
of
required
administrative
procedures. Id. at ¶ 145 (citing 5 U.S.C. §
706(2)(A)–(D) ).
In response, Federal Defendants move to
dismiss Plaintiffs’ APA claim on the ground that
Plaintiffs lack standing. Two of the four

101a

guidance documents that comprise the
challenged Rule were withdrawn before this
lawsuit commenced. Federal Defendants claim
that Plaintiffs cannot show that they suffered
any injury as a result of the Rule or that
Plaintiffs’ alleged injuries would be redressed by
the relief that they seek from Federal
Defendants. The May 2016 Dear Colleague
Letter—the
only
guidance
specifically
addressing transgender students’ use of school
facilities—was expressly withdrawn by the
February 2017 Dear Colleague Letter. Federal
Defendants point to District’s Plan as the sole
source of Plaintiffs’ alleged injuries. In other
words, withdrawal of Federal Defendants’ Rule
would neither compel District to rescind its Plan
nor require students at Dallas High School to
use facilities matching their biological sex.
To have Article III standing, a plaintiff must
show that, (1) it suffered an “injury in fact,” (2)
arising out of the defendant’s conduct, and (3) “it
must be ‘likely,’ as opposed to ‘speculative,’ that
the injury will be redressed by a favorable
decision.” Lujan v. Defs. of Wildlife, 504 U.S.
555, 560–61, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992) (citations omitted).

102a

A. Injury
Plaintiffs allege that they have “suffered a legal
wrong as a direct result of USDOE’s actions,
because Plaintiffs’ constitutional and statutory
rights were and continue to be violated by the
Student Safety Plan, which is the direct result of
USDOE’s enforcement of its new rule.” Compl. ¶
144. Federal Defendants do not challenge the
injury requirement for standing. Instead, they
argue that the alleged injury is solely
attributable to District’s Plan and that Plaintiffs
are unable to establish either causation or
redressability. As discussed below, however, the
Court finds that Plaintiffs have not plausibly
alleged their remaining claims based on
District’s Plan. Accordingly, because those
dismissed claims form the basis for Plaintiff’s
alleged injury, Plaintiffs’ APA claim falls with
them. The Court will nevertheless determine
whether Plaintiffs have satisfied the remaining
elements of standing.
B. Causation
Assuming that Plaintiffs have plausibly alleged
an injury-in-fact, Federal Defendants argue that
Plaintiffs’ injuries are not fairly traceable to the
challenged administrative actions. Federal
Defendants point out that four of the five claims
that Plaintiffs allege against them do not

103a

mention any federal action. See Fed. Defs.’ Mot.
to Dismiss 8, ECF 49. Plaintiffs’ second, third,
fifth, and sixth claims for relief only allege
actions taken by District. Plaintiffs’ sole causal
connection lies in Federal Defendants’ alleged
influence on District’s decision to enact and
enforce the Plan. Particularly, Plaintiffs allege
that Federal Defendants’ enforcement of Title IX
against other school districts based on the Rule
caused District to enact the Plan.
Causation requires showing that an injury is
“fairly traceable to the challenged action of the
defendant, and not the result of the independent
action of some third party not before the court.”
Bennett v. Spear, 520 U.S. 154, 167, 117 S.Ct.
1154, 137 L.Ed.2d 281 (1997). An indirect injury,
however, “does not in itself preclude standing.”
Warth v. Seldin, 422 U.S. 490, 504, 95 S.Ct.
2197, 45 L.Ed.2d 343 (1975). “Causation may be
found even if there are multiple links in the
chain connecting the defendant’s unlawful
conduct to the plaintiff’s injury, and there’s no
requirement that the defendant’s conduct
comprise the last link in the chain.” Mendia v.
Garcia, 768 F.3d 1009, 1012 (9th Cir. 2014)
(citing Bennett, 520 U.S. at 167, 117 S.Ct. 1154).
“[W]hat matters in not the ‘length of the chain of
causation,’ but rather the ‘plausibility of the
links that comprise the chain[.]’ ” Nat’l Audubon

104a

Soc’y, Inc. v. Davis, 307 F.3d 835, 849 (9th Cir.
2002) (quoting Autolog Corp. v. Regan, 731 F.2d
25, 31 (D.C. Cir. 1984) ).
District’s Plan was enacted in November 2015.
At that time, of the four challenged guidance
documents comprising the Rule, the Q & A on
Sexual Violence, the Q & A on Single-Sex
Activities, and the Title IX Resource Guide were
in effect. All three of those documents state that
USDOE interprets Title IX as prohibiting
discrimination on the basis of gender identity.
None of those documents, however, state that
Title IX requires school districts to permit
transgender students to use school facilities
consistent with their gender-identity. Only the
May 2016 Dear Colleague Letter—issued six
months after the Plan was made effective—
requires school districts to take such action.
Compl. Ex. K, at 4. Plaintiffs allege that Federal
Defendants “have enforced the Rule through
public investigations, findings, and threats to
revoke millions of dollars in federal funding
from several school districts because they
provided sex-specific private facilities.” Compl. ¶
63. In particular, Plaintiffs point to USDOE’s
actions against Township High School District
211 (“District 211”) in Palantine, Illinois. Id. at
¶ 64. There, in November 2015, USDOE issued
a letter stating that District 211 violated Title

105a

IX by not allowing a transgender female to use
the girls’ locker room. Id. at ¶¶ 65–66. District
211 and USDOE entered into an agreement
allowing transgender student access to the
disputed facilities. Compl. ¶ 67, Ex. M. Likewise,
the USDOJ filed a lawsuit in May 2016 against
North Carolina based on the University of North
Carolina’s enforcement of sex-specific private
facilities. Compl. ¶¶ 69–71.
In response to Federal Defendants’ actions,
students, parents, and interest groups similar to
Plaintiffs in this case, joined together and filed
federal lawsuits asserting substantially similar
claims. See Fed. Defs.’ Mot. to Dismiss 4–5
(collecting cases). Students and parents involved
in the District 211 case filed their own lawsuit
alleging claims substantially identical to those
asserted in this case. That particular case will
be discussed in greater detail below.
In turn, Federal Defendants issued the
February 2017 Dear Colleague Letter. The
purpose of the letter was, in part, to inform the
public
that
Federal
Defendants
were
“withdrawing the statements of policy and
guidance reflected in” the May 2016 Dear
Colleague Letter. U.S. Dep’ts of Educ. & Justice,
Dear Colleague Letter (Feb. 22, 2017). The
February 2017 Dear Colleague Letter states
that its interpretation that “on the basis of sex”

106a

in Title IX “requires access to sex-segregated
facilities based on gender identity” has “given
rise to significant litigation regarding school
restrooms and locker rooms.” Id. The letter
continues by acknowledging then-existing
conflicting judicial rulings on the issue among
federal courts. Based on those circumstances,
the letter states that Federal Defendants “have
decided to withdraw and rescind the abovereferenced guidance documents in order to
further and more completely consider the legal
issues involved. The Departments thus will not
rely on the views expressed within them.” Id.
Furthermore, Plaintiffs attach to their
complaint another letter from USDOE to its
field offices dated June 6, 2017. Compl. Ex. N.
Similar to the February 2017 Dear Colleague
Letter, this letter informs regional directors of
USDOE’s Office for Civil Rights that they “may
not rely on the policy set forth in the May 2016
Dear Colleague Letter.” Id. at 1.
In response to the February 2017 Dear
Colleague Letter, several lawsuits challenging
Federal Defendants’ Rule were voluntarily
dismissed. See Fed. Defs.’ Mot. to Dismiss 5
(collecting cases). In addition, the Supreme
Court previously granted certiorari on the
question of whether courts should defer to the
May 2016 Dear Colleague Letter. See Gloucester

107a

Cty. Sch. Bd. v. G.G. ex rel. Grimm, ––– U.S. ––
––, 137 S. Ct. 369, 196 L.Ed.2d 283 (2016)
(mem.). Again, upon issuance of the February
2017 Dear Colleague Letter, the Supreme Court
vacated the Fourth Circuit’s decision in that
case and remanded for a determination of
whether the issue had been mooted. Gloucester
County School Bd. v. G. G. ex rel. Grimm, –––
U.S. ––––, 137 S.Ct. 1239, 197 L.Ed.2d 460
(2017) (mem.). Upon remand, the district court
determined that the transgender student
plaintiff’s Title IX claim was not mooted and was
sufficiently pled regardless of Federal
Defendants’ administrative actions. Grimm v.
Gloucester Cty. Sch. Bd., 302 F.Supp.3d 730, 748
(E.D. Va. 2018).
Based on the Complaint and its attached
exhibits, Plaintiffs have not plausibly alleged a
causal link between Federal Defendants’
challenged Rule and the alleged injury. Despite
having full knowledge of the events described
above, Plaintiffs nevertheless filed this lawsuit
on November 13, 2017, including allegations
against Federal Defendants based on their
rescinded interpretation of Title IX. District’s
Plan was enacted in November 2015, well before
the May 2016 Dear Colleague letter was issued.
Similarly, most of Federal Defendants’
enforcement actions alleged in the complaint

108a

occurred after the Plan was enacted. Other than
USDOE’s letter of a Title IX violation to District
211, the remaining enforcement allegations
pertain to actions taken after the Plan’s
enactment. Therefore those enforcement actions
cannot support Plaintiff’s alleged causal link.
As to the District 211 action, USDOE issued its
violation letter on November 2, 2015, and it
entered into an agreement with District 211 on
December 2, 2015. Compl. Exs. L & M. While it
is possible that USDOE’s letter issued to District
211 influenced the District’s decision to enact
the Plan that same month, that conclusion is
merely speculative and fails to plausibly
establish causation. Plaintiffs “must offer facts
showing that the government’s unlawful
conduct is at least a substantial factor
motivating the third parties’ actions” and they
must “make that showing without relying on
‘speculation’ or ‘guesswork’ about the third
parties’ motivations.” Mendia, 768 F.3d at 1013
(internal quotation marks and citations
omitted).
The sequence of events in this case shows that
District’s Plan was enacted in response to
Student A’s accommodation request, not Federal
Defendants’ actions. Compl. ¶ 78–82. Upon first
receiving Student A’s request in September
2015,
District
initially
provided
an

109a

accommodation by allowing him to access singleuse facilities. Id. at ¶¶ 78–79. District then
formalized its response to Student A by issuing
the Student Safety Plan in November 2015.
Compl. ¶ 82. The Plan begins by stating that
“[a]ll students have rights for attendance at
public schools, and we have to follow the laws
which protect those student rights.” Compl. Ex.
A, at 1. Nothing in the Plan states that District
was motivated by external litigation or
enforcement of Title IX as a basis for its action.
Rather, District lists elsewhere that its
nondiscrimination policies comply with several
Oregon state laws as well as over a dozen federal
laws, including Title IX. See, e.g., Compl. Ex. B,
at 2; Ex. D at 3. It would be purely speculative
to
conclude
that
Federal
Defendants’
enforcement actions—as opposed to Student A’s
request or the requirements of many other state
and federal laws—substantially motivated
District to enact its Plan. There are no
allegations based on District’s statements
explaining why they enacted the Plan. Plaintiffs
simply allege that Federal Defendants’
enforcement actions caused District to
implement the Plan. However, in light of the
documents attached to the complaint, the Court
is no longer required to accept that allegation as
true.

110a

Accordingly, the Court concludes that Plaintiffs
have not alleged that their purported injuries
are fairly traceable to Federal Defendants’
actions. Therefore, Plaintiffs have not
sufficiently pleaded causation sufficient to
establish Article III standing.
C. Redressability
Lastly, assuming Plaintiffs sufficiently alleged
injury and causation, they must still establish
standing’s third requirement—redressability.
Generally, a plaintiff must show that its
requested relief will redress its alleged injury.
Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 103, 118 S.Ct. 1003, 140 L.Ed.2d 210 (1998).
When ... a plaintiff’s asserted injury
arises from the government’s
allegedly unlawful regulation (or
lack of regulation) of someone else,
much more is needed. In that
circumstance,
causation
and
redressability ordinarily hinge on
the response of the regulated (or
regulable) third party to the
government action or inaction—and
perhaps on the response of others as
well.
Lujan, 504 U.S at 562, 112 S.Ct. 2130. The
concept of redressability “has been ingrained in

111a

our jurisprudence from the beginning,” the point
of which is to determine “whether a plaintiff
‘personally would benefit in a tangible way from
the court’s intervention.’” Steel Co., 523 U.S. at
103 n.5, 118 S.Ct. 1003 (quoting Warth v.
Seldin, 422 U.S. 490, 508, 95 S.Ct. 2197, 45
L.Ed.2d 343 (1975) ). The Supreme Court has
found that there is no standing for lack of
redressability where “the injury to the plaintiff
by the defendant was indirect (e.g., dependent
on the action of a third party).” Id. at 125, 118
S.Ct. 1003.
In this case, Plaintiffs seek relief including a
Court order declaring the challenged guidance
documents unlawful and directing Federal
Defendants to remove those documents from
their public websites. Compl. ¶ 147, p. 63.
Plaintiffs also seek to enjoin Federal Defendants
from “enforcing Title IX in a manner that
requires District to give any students the right
of entry to, and use of, the private facilities
(including locker rooms, showers and restrooms)
designated for students of the opposite sex.” Id.
at ¶147, p. 63.
Plaintiffs have not established that obtaining
the relief they seek against Federal Defendants
will redress their alleged injury. A favorable
ruling for Plaintiff would result in the rescission
of the Rule and would enjoin Federal

112a

Defendants from taking enforcement actions
against District described above. This relief
would not, however, redress Plaintiffs’ alleged
injury. District adopted its plan independent of
any action by Federal Defendants and an order
invalidating the Rule would not result in the
Plan’s withdrawal. In other words, District’s
plan would continue and Plaintiffs’ injury would
persist notwithstanding granting Plaintiffs’
relief against Federal Defendants. Plaintiffs’
alleged legal wrongs based on their other claims
would remain unaffected by a Court order
invalidating the Rule and enjoining Federal
Defendants.
Furthermore, as discussed above, District cites
to over two dozen state and federal laws as bases
for its non-discrimination policy underlying the
Student Safety Plan. See Compl. Ex. B.
Invalidation of Rule as to Title IX would not
affect District’s obligations under other state
and federal laws. In any event, Federal
Defendants have unequivocally withdrawn the
only guidance on the issue of transgender
student access to school facilities and they have
forbidden reliance on that guidance. See Feb.
2017 Dear Colleague Letter. The February 2017
Dear Colleague Letter states that Federal
Defendants believe “there must be due regard
for the primary role of the States and local school

113a

districts in establishing educational policy.” Id.
In sum, District retains the discretion to
continue enforcing the Plan even if the Court
granted Plaintiffs the relief they sought against
Federal Defendants. Therefore, Plaintiffs have
not demonstrated that their requested relief as
to Federal Defendants will redress their alleged
injury.
II. The Right to Privacy
Next, Plaintiffs allege that District and Federal
Defendants violated Parent and Student
Plaintiffs’ right to privacy guaranteed by the
U.S. Constitution. While there is no generalized
right to privacy, the Supreme Court has
recognized a privacy right against certain kinds
of governmental intrusions under the Due
Process Clause of the Fourteenth Amendment.
Katz v. United States, 389 U.S. 347, 350, 88 S.Ct.
507, 19 L.Ed.2d 576 (1967); Roe v. Wade, 410
U.S. 113, 152, 93 S.Ct. 705, 35 L.Ed.2d 147
(1973). “[O]nly personal rights that can be
deemed ‘fundamental’ or ‘implicit in the concept
of ordered liberty,’ are included in this
guarantee of personal privacy.” Roe, 410 U.S. at
152, 93 S.Ct. 705 (quoting Palko v. Connecticut,
302 U.S. 319, 325, 58 S.Ct. 149, 82 L.Ed. 288
(1937) ). The Due Process Clause “specially
protects those fundamental rights and liberties
which are, objectively, deeply rooted in this

114a

Nation’s history and tradition, and implicit in
the concept of ordered liberty, such that neither
liberty nor justice would exist if they were
sacrifices.” Washington v. Glucksberg, 521 U.S.
702, 721, 117 S.Ct. 2302, 138 L.Ed.2d 772 (1997)
(internal quotation marks and citations
omitted). The law further requires “a ‘careful
description’ of the asserted fundamental liberty
interest.” Id. Courts are, however, “reluctant to
expand the concept of substantive due process
because
guideposts
for
responsible
decisionmaking in this unchartered area are
scarce and open-ended.” Collins v. City of
Harker Heights, Tex., 503 U.S. 115, 125, 112
S.Ct. 1061, 117 L.Ed.2d 261 (1992).
A. Fundamental Right
Plaintiffs formulate their privacy right as “a
fundamental right to bodily privacy” which
includes “a right to privacy of one’s fully or
partially unclothed body and the right to be free
from State-compelled risk of intimate exposure
of oneself to the opposite sex.” Compl. ¶ 188.
Reformulated elsewhere in the Complaint,
Plaintiffs argue:
The ability to be clothed in the
presence of the opposite biological
sex, along with the freedom to use
the restroom, locker room and

115a

shower away from the presence of
the opposite biological sex, is
fundamental to most people’s sense
of self-respect and personal dignity,
including plaintiffs’, who should be
free from State-compelled risk of
exposure of their bodies, or their
intimate activities.
Id. at ¶ 199.
District and BRO argue that Plaintiffs’ asserted
fundamental
right
is
overbroad
and
unrecognized by any federal court. Under
substantially similar circumstances, a district
court considered a nearly identically-phrased
fundamental right. See Students v. U.S. Dep’t of
Educ., No. 16-CV-4945, 2016 WL 6134121, at
*22 (N.D. Ill. Oct. 18, 2016) [hereinafter “
Students & Parents R & R”], report and
recommendation adopted, Students and Parents
for Privacy v. U.S. Dep’t of Educ., 2017 WL
6629520 (N.D. Ill. Dec. 29, 2017) [hereinafter
“Students & Parents”]. That court also
considered a second restatement of the right at
issue: “does letting a biological male use the
girls’ locker room and restrooms, and so
subjecting Girl Plaintiffs to the risk of compelled
exposure of their bodies to the opposite biological
sex, violate Girl Plaintiffs’ constitutional right to
privacy?” Students & Parents R & R, 2016 WL

116a

6134121, at *23. The district court found the
latter formation more apt than the one from the
complaint; it then posited its own version of the
issue: “do high school students have a
constitutional right not to share restrooms or
locker rooms with transgender students whose
sex assigned at birth is different than theirs?”
Id. The Court adopts the district court’s
formation in Students & Parents, which is a
more specific and complete statement of
Plaintiffs’ asserted privacy right in this case.
Equipped with this description of the asserted
right, the Court must determine whether high
school students have a fundamental right not to
share restrooms or locker rooms with
transgender students. Defendants direct the
Court to several cases similar to this one in
which courts have rejected Plaintiffs’ purported
privacy interest in favor of transgender
students’ access to school facilities. The
following decisions are not binding upon this
Court; however, in the absence of binding
authority from the Ninth Circuit, the Court
relies on these opinions for their persuasiveness.
Defendants primarily rely upon Students &
Parents, 2017 WL 6629520. As discussed above,
the court in Students & Parents concluded that
high school students did not have a fundamental

117a

right not to share school facilities with
transgender students whose assigned sex is
different than theirs. Students & Parents R &
R, 2016 WL 6134121, at *23. In reaching that
conclusion, the court considered the practical
implications of transgender students’ access to
facilities, our Nation’s history of protecting and
deferring to school administrators’ discretion,
and contemporary notions of liberty and justice.
Id. at *24–27.
The court noted that no student was
“compelled” by a state actor to use facilities with
a transgender student. Rather, District 211’s
policy allowed transgender students to use
facilities of their choice. The facilities included
privacy stalls as well as other protections.
Additionally, privacy alternatives such as
separate, single-user facilities were available.
Students could also request the use of an
alternate changing area within the locker
rooms. The court found these privacy protections
significant and that they distinguished the case
from
those
involving
compulsion
and
involuntary invasions of privacy. The court
opined:
Generally speaking, the penumbral
rights of privacy the Supreme Court
has recognized in other contexts
protect certain aspects of a person’s

118a

private space and decision-making
from governmental intrusion. Even
in the context of the right to privacy
in one’s own body, the cases deal
with compelled intrusion into or
with respect to a person’s intimate
space or exposed body. No case
recognizes a right to privacy that
insulates a person from coming into
contact with someone who is
different than they are, or who they
fear will act in a way that causes
them to be embarrassed or
uncomfortable, when there are
alternative
means
for
both
individuals to protect themselves
from such contact, embarrassment,
or discomfort.
Id. at *24. Regarding the Nation’s history of
deferring to schools, the court wrote:
Therefore, our Nation’s deeply
rooted history and tradition of
protecting school administrators’
discretion require that this Court
not unduly constrain schools from
fulfilling their role as a principal
instrument in awakening the child
to cultural values, in preparing him
or her for later professional

119a

training, and in helping him or her
to adjust normally to his or her
environment.
Id. (internal quotation marks, alterations, and
citations omitted). The court also found that the
plaintiffs’
asserted
privacy
right
was
inconsistent with contemporary notions of
liberty and justice. Id. at *25. It was persuaded
that transgender people do not live their lives in
conformance with their sex assigned at birth
and the transgender students at issue in that
case were treated by others in a manner that
was consistent with their gender identities.
Additionally, the court reflected on the fact that,
at that time, the U.S. military and militaries of
other nations allowed transgender personnel to
serve fully and openly. Recognition and
acceptance of transgender people in various
areas of society contradicted plaintiffs’ asserted
right of high school students not to share
facilities with transgender students.
Similarly, the Seventh Circuit granted a
transgender boy’s request for a preliminary
injunction enjoining a school district from
preventing him from using facilities consistent
with his gender identity. See Whitaker v.
Kenosha Unified Sch. Dist. No. 1 Bd. of Educ.,
858 F.3d 1034, 1038 (7th Cir. 2017), cert.
dismissed, Kenosha Unified Sch. Dist. No. 1 Bd.

120a

of Educ. v. Whitaker ex rel. Whitaker, ––– U.S. –
–––, 138 S.Ct. 1260, 200 L.Ed.2d 415 (2018). The
plaintiff in that case, a transgender boy named
Ash, was forced by the school district to use
either the girls’ restroom or a gender-neutral
restroom in the school’s main office. Id. at 1040.
Ash had publicly transitioned and believed
using the girls’ restroom would undermine his
transition. Id. He also feared that being the only
student allowed to use the restroom in the main
office would draw unwanted attention to his
transition and have a stigmatizing effect. Id.
Lastly, he was concerned about being disciplined
for attempting to use the girls’ restroom. Id. As
a result, Ash drank less water and avoided using
restrooms during the school day even though it
exacerbated his medical condition that made
him more susceptible to fainting and seizures.
Id. at 1041. Ash ultimately used the boys’
restroom later in high school and was punished
for violating school policy. Id. at 1042.
When analyzing Ash’s assertion of irreparable
harm, the Seventh Circuit found that Ash’s use
of the boys’ restroom was integral to his
transition and emotional well-being. Id. at 1045.
The court also found that “he was faced with the
unenviable choice between using a bathroom
that would further stigmatize him and cause
him to miss class time, or to avoid use of the

121a

bathroom altogether at the expense of his
health.” Id. When considering Ash’s likelihood
of success on the merits of his Equal Protection
claim, the court found that the school’s policy
“does nothing to protect the privacy rights of
each individual student vis-à-vis students who
share similar anatomy and it ignores the
practical reality of how Ash, as a transgender
boy, uses the bathroom: by entering a stall and
closing the door.” Id. at 1052.
The court in that case elaborated:
A transgender student’s presence in
the restroom provides no more of a
risk to other students’ privacy rights
than the presence of an overly
curious student of the same
biological sex who decides to sneak
glances at his or her classmates
performing bodily functions. Or for
that matter, any other student who
uses the bathroom at the same time.
Common sense tells us that the
communal restroom is a place where
individuals act in a discreet manner
to protect their privacy and those
who have true privacy concerns are
able to utilize a stall.

122a

Id. Accordingly, the court found that Ash was
likely to succeed on the merits of his Equal
Protection claim. Lastly, the court found the
balance of harms favored Ash and the school
district had not demonstrated that it will suffer
any harm “[n]or have they demonstrated that
Ash’s presence has actually caused an invasion
of any other student’s privacy.” Id. at 1054.6
In further example, a Western District of
Pennsylvania court granted transgender high
school students’ motion for a preliminary
injunction enjoining the school from requiring
them to use only bathrooms matching their sex
assigned at birth or single-user bathrooms.
Evancho v. Pine-Richland Sch. Dist., 237
The Supreme Court granted certiorari on the
dispositive issue in Whitaker. The relevant
question presented asked: “Whether a school
policy requiring boys and girls to use separate
bathroom facilities that correspond to their
biological sex is sex stereotyping that
constitutes discrimination ‘based on sex’ in
violation of Title IX.” Whitaker, 858 F.3d 1034,
petition for cert. filed, 2017 WL 3713066, at *1
(U.S. Aug. 27 2017) (No. 17-301). The parties,
however, voluntarily dismissed the case, leaving
this Court without further guidance.
6

123a

F.Supp.3d 267, 272 (W.D. Pa. 2017). When
analyzing the plaintiffs’ Equal Protection claim,
that court considered whether other students’
right to privacy provided a constitutionally
sufficient basis supporting the school district’s
policy. The court found that the physical layout
of the school’s facilities ensured adequate
privacy. Id. at 290–91. The court was persuaded
that the bathroom stalls “afforded actual
physical privacy from others viewing their
external sex organs and excretory functions.
Conversely, others in the restrooms are shielded
from such views.” Id. at 291.
In another example, the Eastern District of
Pennsylvania in Doe v. Boyertown Area School
District rejected a high school student’s
challenge to a school rule allowing transgender
students to use facilities consistent with
students’ gender identities. 276 F.Supp.3d 324
(E.D. Pa. 2017), aff’d, 890 F.3d 1124 (3d Cir.
2018). The Third Circuit unanimously and
emphatically affirmed the district court’s
decision from the bench.7 The Doe court
On June 18, 2018, the Third Circuit
subsequently issued a formal written opinion
stating: “Although we amplify the District
Court’s reasoning because of the interest in this
issue, we affirm substantially for the reasons set
7

124a

summarized the student plaintiffs’ asserted
right to bodily privacy as follows:
At bottom, the plaintiffs are opposed
to the mere presence of transgender
students in locker rooms or
bathrooms with them because they
designate them as members of the
opposite sex and note that, inter
alia,
society
has
historically
separated bathrooms and locker
rooms on the basis of biological sex
to
preserve
the
privacy
of
individuals from members of the
opposite biological sex.
Id. at 330. In that case, a transgender boy
changed clothes with the student plaintiffs in
the boys’ locker room and one plaintiff observed
the transgender boy “wearing nothing but shorts
and a bra.” Id. at 332. In response to that
encounter and others like it, student boy
plaintiffs felt ashamed and embarrassed,
changed quickly, and otherwise avoided
encountering a transgender student in school
facilities. Id. When analyzing the plaintiffs’ §
1983 claim based on the fundamental right to
forth in the District Court’s opinion.” Doe, 893
F.3d at 180.

125a

privacy, the court wrote that plaintiffs believe
“[t]he Constitution prohibits Defendants from
placing students in situations where their bodies
or private, intimate activities may be exposed to
the opposite sex or where the students will use
privacy facilities with someone of the opposite
sex.” Id. at 376–77. The Doe Court found that
“[t]he plaintiffs have not identified and this
court has not located any court that has
recognized a constitutional right of privacy as
broadly defined by the plaintiffs.” Id. at 383. The
court noted that the plaintiffs’ right:
is so expansive that it would be a
constitutional violation for a female
to be in the presence of a male inside
of a locker room or bathroom and
vice versa, and it would be a
violation of one’s constitutional
right of privacy to view a member of
the opposite sex in a state of undress
even if the viewing party was fully
clothed at the time. There is no
support for such a broad right of
privacy that has yet to be
recognized.
Id. at 386. Indeed, the Third Circuit agreed,
writing: “[W]e decline to recognize such an
expansive constitutional right to privacy—a
right that would be violated by the presence of

126a

students who do not share the same birth sex.
Moreover, no Court has ever done so.” Doe, 893
F.3d at 193.
The district court in Doe then engaged in an indepth analysis of Students & Parents, ultimately
adopting the reasoning therein. Doe, 276
F.Supp.3d at 385–86. The court concluded that
plaintiffs “have no constitutional right not to
share restrooms and locker rooms with
transgender students whose sex assigned at
birth is different from theirs.” Id. at 387. Similar
to Students & Parents, the court in Doe was
persuaded that the case did not involve any
compelled and involuntary exposure of genitals
nor did it involve a strip search or other
egregious privacy infringement. The court
concluded that the school’s policy was narrowly
tailored to serve a compelling government
interest in not discriminating against
transgender students.
Lastly, Defendants rely on a Southern District
of Ohio decision denying a school district’s
motion for a preliminary injunction against
USDOE. Bd. of Educ. of the Highland Local Sch.
Dist. v. United States Dep’t of Educ., 208
F.Supp.3d 850, 854 (S.D. Ohio 2016). The
plaintiff school district in that case sought to
enjoin USDOE from requiring it to permit a
transgender girl to use the girls’ restroom. Id.

127a

The district attempted to justify excluding Jane,
a transgender girl student, by asserting the
privacy rights of other students. Id. at 874. The
court found that there was “no evidence that
Jane herself, if allowed to use the girls’
restroom, would infringe upon the privacy rights
of any other students.” Id.8 The district argued
that the “students’ ‘zone of privacy’ in the
restroom starts at the door of the restroom, not
merely at the stall door, and that, therefore,
students’ privacy interests would be imperiled if
Jane even enters the girls’ bathroom.” Id. at 875.
The court found that there were no complaints
of privacy violations and the district’s
“purported justification for its policy is ‘merely
speculative’
and
lacks
any
‘factual
underpinning.’” Id. It concluded that the district
“cannot show that its refusal to let Jane use the
girls’ restroom is substantially related to its
interest in student privacy.” Id. at 867.
In contrast with Defendants’ authority,
Plaintiffs present the Court with unpersuasive
The Third Circuit in Doe affirmed the district
court’s ruling “that even if a cisgender plaintiff
had been viewed by a transgender student, it
would not have violated the cisgender student’s
constitutional right to privacy.” 893 F.3d at 186.
8

128a

precedent that fails to establish their purported
privacy right. Plaintiffs argue that their
asserted privacy right finds its genesis in the
Ninth Circuit’s decision in York v. Story, 324
F.2d 450, 455 (9th Cir. 1963). The Ninth Circuit
explained: “We cannot conceive of a more basic
subject of privacy than the naked body. The
desire to shield one’s unclothed figured from the
view of strangers, and particularly strangers of
the opposite sex, is impelled by elementary selfrespect and personal dignity.” Id.; see also
Sepulveda v. Ramirez, 967 F.2d 1413, 1415 (9th
Cir. 1992) (stating that the “right to bodily
privacy was established” in York). York involved
a male police officer taking unnecessary nude
photographs of a female victim in provocative
positions and circulating them to other officers.
324 F.2d at 452. The Ninth Circuit reversed the
trial court’s decision to dismiss the plaintiff’s
claim, holding that the complaint sufficiently
alleged that the officer’s acts “constitute an
arbitrary intrusion upon the security of her
privacy, as guaranteed to her by the Due Process
Clause of the Fourteenth Amendment.” Id. at
456.
Based in part on York, Plaintiffs cite to several
Ninth Circuit decisions acknowledging a right to
bodily privacy. For example, in Byrd v. Maricopa
County Sheriff’s Department, 629 F.3d 1135 (9th

129a

Cir. 2011), the Ninth Circuit considered the
constitutionality of a strip search in jail. A
female cadet conducted a strip search of a male
detainee in the presence of approximately three
dozen cadets and detention officers as well as
other male detainees. Id. at 1137. The cadet
searched over the detainee’s boxer shorts using
her hands to search over his buttocks and
genitals. Id. The Ninth Circuit held that the
cross-gender strip search, in the absence of an
emergency, was a violation of the plaintiff’s
Fourth Amendment right to be free from
unreasonable searches. Id. at 1146–47.
Similarly, in Caribbean Marine Services Co. v.
Baldrige, 844 F.2d 668, 670 (9th Cir. 1988), the
Ninth Circuit considered whether a federal
regulation requiring the presence of a female
wildlife observer on a commercial fishing vessel
violated the male crewmembers’ right to
privacy. Given the tight quarters of the fishing
vessel, the plaintiff crew members alleged that
the observer may both see and be seen by crew
members while undressing or performing bodily
functions. Id. at 672. The Ninth Circuit vacated
the district court’s grant of a preliminary
injunction in the crew members’ favor. The court
found, in relevant part, that the crew members’
“mere allegations of inconvenience” would not
support a claim of “irreparable harm to their

130a

constitutional rights.” Id. at 676. The court
continued, however, that it would not reach the
issue of whether “a female observer would
infringe any constitutionally protected privacy
interests” because the district court had not
considered the plaintiffs’ likelihood of success on
the merits when it issued the preliminary
injunction. Id.
In Sepulveda v. Ramirez, the Ninth Circuit
considered whether a male parole officer
violated a female parolee’s right to bodily
privacy by entering the bathroom stall she
occupied while she was partially clothed. 967
F.2d 1413, 1416 (9th Cir. 1992). The plaintiff
parolee was required to produce a urine sample
for a drug test and the male parole officer
entered the stall without her consent. Id. at
1415. The plaintiff strongly objected, asking the
officer to leave. In response, he said that she “did
not have anything he had not seen before.” Id.
The parole officer “remained in the stall while
Supelveda finished urinating, cleaned herself,
and dressed.” Id. The Ninth Circuit found that,
unlike other inmate cases involving obscured
cross-sex observations from a distance,
Supelveda experienced a “far more degrading”
observation. Id. The Ninth Circuit rejected the
parole officer’s claim for qualified immunity,

131a

concluding that the plaintiff had asserted a
clearly established right to bodily privacy. Id.
Each of the Ninth Circuit cases that Plaintiffs
cite deal with alleged violations outside of the
school context. Further still, these cases involve
very different circumstances than the facts of
this case. Plaintiffs’ Ninth Circuit authority
involves a strip search that violated the Fourth
Amendment, a female observer sharing ship
quarters with male fishermen, a police officer
taking unnecessary nude photos of a female
crime victim, and a male parole officer entering
a female parolee’s bathroom stall while she
urinated.
Simply
put,
each
involved
government-compelled
exposure
of
the
plaintiffs’ bodies to government actors of the
opposite biological sex. At its core, none of these
cases support the proposition that high school
students have a fundamental right not to share
restrooms and locker rooms with transgender
students who have a different assigned sex than
theirs. Indeed, Plaintiffs’ Ninth Circuit
authority does not establish that the purported
privacy right is implicit in the concept of ordered
liberty.
Plaintiffs also rely on two out-of-circuit cases
that the Court finds unpersuasive. The only case
Plaintiffs cite that discusses a privacy right in
the school context is a Sixth Circuit decision

132a

involving a parent’s challenge to the dress code
at his daughter’s middle school. Blau v. Fort
Thomas Pub. Sch. Dist., 401 F.3d 381, 385 (6th
Cir. 2005). The court there framed the plaintiff’s
asserted privacy right as the right to wear blue
jeans, which it rejected. Id. at 393–94. Plaintiffs
point to the Blau court’s citation to an old
Supreme Court case to support their position.
Specifically, in Union Pacific Railway Co. v.
Botsford, 141 U.S. 250, 251, 11 S.Ct. 1000, 35
L.Ed. 734 (1891), the Supreme Court stated:
To compel any one ... to lay bare the
body, or to submit to the touch of a
stranger, without lawful authority,
is an indignity, an assault, and a
trespass; and no order of process,
commanding such an exposure or
submission, was ever known to the
common law in the administration
of justice between individuals.
Id. at 252. That case involved a defendant’s
request in a tort action that the plaintiff submit
to a surgical examination to determine the
extent of her injuries. Blau, 401 F.3d at 395. The
Sixth Circuit in Blau concluded that the
plaintiff’s reliance on Pacific Railway was
misplaced and the quote was taken out of
context. “Quite plainly, forcing someone to ‘lay
bare the body’ to a surgical procedure is not the

133a

same thing as forcing a middle-school student to
wear certain types of clothes to school.” Id. at
395. Here too, the facts of Blau and Pacific
Railway are distinguishable and do not lend any
support for Plaintiffs’ purported privacy right
relating to the presence of transgender students
in school facilities.
The second out-of-circuit case Plaintiffs rely
upon is a District of Maine decision involving a
pretrial detainee’s lawsuit against a jail. Crosby
v. Reynolds, 763 F.Supp. 666, 667 (D. Me. 1991).
The plaintiff alleged that the jail unlawfully
housed her with a transgender woman who
retained male genitalia. Id. Particularly, she
alleged that she encountered the transgender
detainee while using the shower and restroom.
The district court found that it was not “called
upon to decide whether a right to privacy would
be clearly invaded if males and females
generally were housed together.” Id. at 670 n.5.
Instead, it concluded that the contours of the
right to privacy were not clear and the
defendants were entitled to qualified immunity.
Id.
Plaintiffs also argue that the language of Title
IX and one of its implementing regulations
support segregating school facilities based on
biological sex. Particularly, 20 U.S.C. § 1686
states that “nothing contained herein shall be

134a

construed to prohibit any educational institution
receiving funds under this Act, from
maintaining separate living facilities for
different sexes.” Likewise, a regulation states:
“A recipient may provide separate toilet, locker
room, and shower facilities on the basis of sex,
but such facilities provided for students of one
sex shall be comparable to such facilities
provided from students of the other sex.” 34 CFR
§ 106.33. As District points out, however, the
first statutory provision above is permissive, not
mandatory. See Doe, 893 F.3d at 195. (“This
exception is permissive—Title IX does not
require that an institution provide separate
privacy facilities for the sexes.”). This Court
agrees that the regulation providing for
equivalent facilities does not mandate sexsegregated facilities. Simply put, while
Plaintiffs’ legal authorities support a school
district’s decision to provide sex-segregated
facilities,
those
authorities
do
not
“unequivocally uphold the right to bodily
privacy” as Plaintiffs claim. See Pls.’ Resp. to
District Mot to Dismiss 6.
The Court finds that Plaintiffs have failed to
sufficiently allege a fundamental right to
privacy cognizable under the Fourteenth
Amendment. The cases that Plaintiffs rely on
are inapposite and involve egregious state-

135a

compelled intrusions into one’s personal privacy.
Put another way, Plaintiffs draw heavily on
prisoner and police cases distinguishable from
the issue presented in this case. Those cases
involved government officials viewing or
touching the naked bodies of persons of the
opposite sex against their will. Even under some
of those circumstances, courts have rejected the
asserted privacy right.
The Court is persuaded by Defendants’
authority and concludes that high school
students do not have a fundamental privacy
right to not share school restrooms, lockers, and
showers with transgender students whose
biological sex is different than theirs. The
potential threat that a high school student
might see or be seen by someone of the opposite
biological sex while either are undressing or
performing bodily functions in a restroom,
shower, or locker room does not give rise to a
constitutional violation. See Vernonia Sch. Dist.
47J v. Acton, 515 U.S. 646, 657, 115 S.Ct. 2386,
2393, 132 L.Ed. 2d 564 (1995) (recognizing that
“[p]ublic school locker rooms ... are not notable
for the privacy they afford” and legitimate
expectations of privacy in such spaces are
lessened); Doe, 893 F.3d at 193; Whitaker, 858
F.3d at 1052–53; Students & Parents R & R,
2016 WL 6134121, at *24–27; Evancho, 237

136a

F.Supp.3d at 291. To hold otherwise would
sweepingly expand the right to privacy beyond
what any court has recognized. The Supreme
Court has repeatedly emphasized its reluctance
to expand substantive due process rights such as
the right to privacy. It has stressed that the
short list of liberty rights “protected by the Due
Process Clause includes the rights to marry, to
have children, to direct the education and
upbringing of one’s children, to marital privacy,
to use contraception, to bodily integrity, and to
abortion.” Washington v. Glucksberg, 521 U.S.
702, 720, 117 S.Ct. 2258, 138 L.Ed.2d 772
(1997). The right that Plaintiffs’ assert cannot be
added to that list.
B. Infringement of the Right
Even assuming Plaintiffs’ asserted privacy right
is fundamental, then the Court must determine
whether District’s challenged conduct infringed
the right and if so whether “the infringement is
narrowly tailored to serve a compelling
government interest.” Reno v. Flores, 507 U.S.
292, 301–02, 113 S.Ct. 1439, 123 L.Ed.2d 1
(1993).
Plaintiffs allege that because Student A has
been allowed to access school facilities,
“biologically male and female students ... have
experienced,
or
may
experience,

137a

embarrassment, humiliation, anxiety, fear,
apprehension, stress, degradation, and loss of
dignity because they will have to use locker
rooms, showers and restrooms with a student of
the opposite sex.” Compl. ¶ 43. Students are
allegedly afraid of being seen by and sharing
space with students of the opposite biological sex
while undressing. Id. at ¶ 44. Particularly,
Plaintiffs allege that students are afraid to
attend to their personal needs, avoid using
school facilities, have dropped PE classes,
change as quickly as possible, or avoid restrooms
altogether. Id. at ¶ 47. Further still, Plaintiffs
allege that the facilities do not adequately
ensure student privacy because the stalls are
not fully private as there are large gaps all
around the stall doors that would allow other
students to inadvertently see through. Id. at ¶
83. Because of those gaps, students are at risk of
exposing themselves to the opposite sex when
they use the restroom. Id. In sum, Plaintiffs
allege that this risk of intimate exposure to the
opposite sex violates the students’ fundamental
right to privacy. Id. at ¶¶ 198–204.
In cases involving similar or stronger factual
allegations, courts found that the student
plaintiffs had failed to sufficiently allege that
their schools had violated their right to privacy.
In Students & Parents, the district court

138a

considered allegations that student plaintiffs
would suffer fear and anxiety given the risk of
exposure to the opposite sex in school facilities.
Plaintiffs in this case, like the plaintiffs in
Students & Parents, do not allege that any
transgender student and any Student Plaintiff
“ever saw an intimate part of the other’s body.”
Students & Parents R & R, 2016 WL 6134121, at
*28. The court found that “[i]nside the stalls,
there is no meaningful risk that any part of a
student’s unclothed body would be seen by
another student. Therefore, these protections
almost entirely mitigate any potential risk of
unwanted exposure by or to any Student
Plaintiff.” Id. at *29.
In Doe, the court considered greater evidence of
possible
infringement
and
found
no
constitutional violation. As described above, a
boy plaintiff in Doe saw a transgender boy in the
locker room wearing only shorts and a bra. Doe,
276 F.Supp.3d at 382. In that case, a female
student also entered a bathroom and saw a
transgender girl while both were fully clothed.
Id. Another boy student testified that while he
was in his underwear in the locker room, a
transgender boy was in close proximity to him.
Id. The Doe court concluded:
Since this matter does not involve
any forced or involuntary exposure

139a

of a student’s body to or by a
transgender person, and the School
District has instituted numerous
privacy protections and available
alternatives
for
uncomfortable
students or to protect against
involuntary exposure of a student’s
partially clothed or unclothed body,
the plaintiffs have not shown that
the defendants infringed upon their
constitutional privacy rights.
Id. at 388–89; see also Whitaker, 858 F.3d at
1054 (the Seventh Circuit held that the
plaintiffs had not demonstrated that presence of
a transgender student in school facilities caused
an invasion of any other student’s privacy).
Even assuming that the presence of a
transgender student in school facilities posed a
risk of privacy infringement, which this Court
finds it does not, the cases discussed above also
found that policies permitting transgender
access were narrowly tailored to satisfy
constitutional scrutiny. For example, in Doe, the
Third Circuit recognized that cisgender
plaintiffs may experience a certain level of stress
due to transgender students’ presence in school
facilities, but that stress was not “comparable to
the plight of transgender students who are not
allowed to use facilities consistent with their

140a

gender identity.” 893 F.3d at 185. The Doe court
found that the school district “had a compelling
state interest in protecting transgender
students from discrimination.” Id. at 190. The
plaintiffs in Doe and Plaintiffs in this case both
argued that a school policy allowing all students
to use single-user accommodations or restrooms
consistent with their biological sex would be
narrowly tailored. The Doe court rejected that
argument, finding that such a policy would
violate the compelling interest identified above
and brand transgender students, inviting
greater scrutiny from their peers. Id. at 192.
In conclusion, based on the facts alleged in this
case and the authority discussed above,
Plaintiffs’ Fourteenth Amendment claim for a
violation of the right to privacy must be
dismissed.
III. Title IX
Plaintiffs claim that District’s Plan violates Title
IX’s prohibition of sex discrimination by creating
a sexually harassing hostile environment.
District responds that the Plan comports with
Title IX. BRO and State extend District’s
argument and contend that Plaintiffs’ request
that school facilities to be segregated based on
biological sex would itself violate Title IX. Title
IX provides: “No person in the United States

141a

shall, on the basis of sex, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance....” 20 U.S.C. § 1681(a). An
implementing regulation similarly provides: “A
recipient may provide separate toilet, locker
room, and shower facilities on the basis of sex,
but such facilities provided for students of one
sex shall be comparable to such facilities
provided for students of the other sex.” 34 C.F.R.
§ 106.33.
A. Hostile Environment
Title IX hostile environment claims require that
the school district: (1) had actual knowledge of;
(2) and was deliberately indifferent to; (3)
harassment because of sex that was; (4) “so
severe, pervasive, and objectively offensive that
it can be said to deprive the victims of access to
the educational opportunities or benefits
provided by the school.” Davis v. Monroe Cty.
Bd. of Educ., 526 U.S. 629, 650, 119 S.Ct. 1661,
143 L.Ed.2d 839 (1999). Defendants move to
dismiss the Title IX claim on the basis that
Plaintiffs fail to establish the third and fourth
hostile environment elements. First, Plaintiffs
have not shown that the Plan targets or treats
them any differently from other students who
attend Dallas High School. Second, Defendants

142a

argue that transgender students’ use of school
facilities is not severe, pervasive, or objectively
offensive.
As to Defendants’ first argument, they explain
that the Plan applies equally to all students and
is not discriminatory on the basis of sex. The
district court in Students & Parents agreed with
that position. There, the court found that the
student plaintiffs “are not being targeted or
singled out by District 211 on the basis of their
sex, nor are they being treated any different
than boys who attend school within District
211.” Students & Parents R & R, 2016 WL
6134121, at *31. The court elaborated that the
bathroom policy applied to all restrooms:
That means cisgender boys use the
boys’ restrooms with transgender
boys just like cisgender girls use the
girls’ restrooms with transgender
girls. District 211 also has made
clear that it will allow transgender
boys to use the boys’ locker rooms
and will provide the same privacy
protections in the boys’ locker rooms
as exist in the girls’ locker rooms, if
requested. Therefore, the alleged
discrimination
and
hostile
environment that Girl Plaintiffs
claim to experience is not on the

143a

basis of their sex, and any
discomfort Girl Plaintiffs allege they
feel is not the result of conduct that
is directed at them because they are
female. All of Plaintiffs’ Title IX
claims suffer from this threshold
problem.
Id. (internal citation omitted); see also Doe, 276
F.Supp.3d at 394 (considered the same issue,
agreeing with Students & Parents, and
concluding that the plaintiffs failed to make the
threshold
showing
that
they
suffered
discrimination on the basis of sex).
The Doe court also found that the school
district’s “similar treatment of all students is
fatal to the plaintiffs’ Title IX claim.” 276
F.Supp.3d at 394. The court explained:
The plaintiffs have failed to cite to
any case holding that a plaintiff can
maintain a sexual harassing hostile
environment claim when the
allegedly sexually harassing party
treats all individuals similarly and
there is, as such, no evidence of
gender/sex animus. Simply because
the plaintiffs feel a particular way
which they equate to their sex does
not take away from the fact that the

144a

School District’s practice is not
targeting any group or individual
because of their sex. Even if the
court were to find that the practice
is based on sex, the plaintiffs ignore
that
Tile
IX
deals
with
‘discrimination’ based on sex and
there can be no discrimination when
everyone is treated the same.
Id.
The Court is persuaded that District’s Plan does
not discriminate on the basis of sex within the
meaning of Title IX. Plaintiffs argue that the
Plan does not treat everyone the same because
students are experiencing apprehension about
encountering someone of another sex in an
intimate space. Plaintiffs do not, however, assert
any legal support for the proposition that the
Plan discriminates against on the basis of their
sex. See Pls.’ Resp. to District’s Motion to
Dismiss 10–12. Nor do Plaintiffs attempt to
overcome Students & Parents or Doe previously
discussed. In this case, as in Students & Parents
and Doe, District’s plan does not target any
Student Plaintiff because of their sex. In other
words,
Student
Plaintiffs
have
not
demonstrated that they are being treated any
differently from other students at Dallas High
School.

145a

As outlined above, Defendants also argue that
Plaintiffs have not alleged harassment that was
severe, pervasive, and objectively offensive such
that it deprived Student Plaintiffs of educational
opportunities. Defendants contend that conduct
which rises to this level generally requires
instances of physical sexual contact or
threatened physical sexual contact. The mere
presence of a transgender student is insufficient
to establish a hostile environment. Indeed, it is
telling that Plaintiffs’ complaint does not
contain any allegation of harassment or misuse
of school facilities.
Courts have recognized that the presence of
transgender people in an intimate setting does
not, by itself, create a sexually harassing
environment that is severe and pervasive. For
example, in Students & Parents, the court
considered the same argument proffered by
Plaintiffs in this case and concluded that
“[g]eneralized
statements
of
fear
and
humiliation are not enough to establish severe,
pervasive or objectively offensive conduct.” 2016
WL 6134121, at *32. The trial court found that
“[t]he mere presence of a transgender student in
a restroom or locker room does not rise to the
level of conduct that has been found to be
objectively offensive, and therefore hostile, in
other cases.” Id. The court then explained that

146a

cases which found that the conduct was severe
and pervasive involved egregious and persistent
acts of sexual violence and verbal harassment.
Id. Additionally, the court in Students & Parents
found that any risk of a hostile environment was
sufficiently mitigated by privacy protections put
in place at the school. Id. at *33–34. The court
concluded that the plaintiffs failed to show that
any students were denied equal educational
opportunities or access to benefits. Id.
Likewise, Doe followed Students & Parents,
finding that the plaintiffs failed to show that the
school district’s practice was “so severe,
pervasive, and objectively offensive that it
undermined and
detracted from their
educational experience.” 276 F.Supp.3d at 396.
As with Title VII, the objective prong of this
element requires looking at the totality of the
circumstances which includes “the frequency of
the discriminatory conduct; its severity; whether
it is physically threatening or humiliating, or a
mere offensive utterance; and whether it so
undermines and detracts from the victims’
educational experience, that he or she is
effectively denied equal access to an institution’s
resource and opportunities.” Id. at 396–97
(citation and alterations omitted). In that case,
the district court found that the few instances in
which transgender and cisgender students

147a

encountered each other in different stages of
undress in school facilities was insufficient to
show that “plaintiffs were subjected to pervasive
sexual harassment in regard to their actual
interaction with transgender students in the
privacy facilities[.]” Id. at 397.
The court in Doe also rejected the plaintiffs’
fallback position that the mere presence of
transgender students in school facilities was
severe and pervasive. The Doe court stated that
plaintiffs failed to cite “any case stating that the
mere possibility of future exposure to the alleged
harassment can render a single instance of
harassment pervasive.” Id. It concluded that
plaintiffs failed to establish that the mere
presence of transgender students was severe
and pervasive. Additionally, the plaintiffs there
had not established that the school district’s
conduct was objectively offensive “because a
reasonable person would not find the practice of
allowing transgender students to use the locker
rooms and bathrooms corresponding to their
gender identity to be hostile, threatening or
humiliating.” Id. The court explained:
There is no evidence that these
students have committed any lewd
acts in the locker room or bathrooms
or that they have even interacted
with the plaintiffs in any way

148a

whatsoever. There is no evidence
that the transgender students have
harassed the plaintiffs or any other
student. All the evidence showed
was that the transgender students
were in the facilities for their
intended
purposes
and
they
conducted themselves appropriately
while in those areas.
Id. at 401–02.
Similarly, in the Title VII employment context,
the Eighth Circuit determined on summary
judgment that the presence of a transgender
woman in the women’s faculty bathroom did not
create a sexually harassing environment.
Cruzan v. Special Sch. Dist, No. 1, 294 F.3d 981,
984 (8th Cir. 2002). The Cruzan court found that
the plaintiff “failed to show the school district’s
policy allowing Davis to use the women’s faculty
restroom created a working environment that
rose to this level.” Id. The appellate court was
further persuaded by the fact that the plaintiff
did not assert that the transgender woman
“engaged in any inappropriate conduct other
than merely being present in the women’s
faculty restroom.” Id. Under the totality of the
circumstances, the court concluded that a
reasonable person would not have found that
environment hostile or abusive. Id.

149a

In this case, Plaintiffs’ response to Defendants’
arguments and the line of cases discussed above
lacks merit. Without citing any authority,
Plaintiffs argue the following:
Severity may vary with the students
affected. Its pervasiveness cannot
be doubted when [the Plan] applies
to an entire campus and student
body, and may later be applied to
other schools as well. Objective
offensiveness should also not be
determined as a matter of law in a
society
where
sex-segregated
facilities in public and private
venues are the norm.
Pls.’ Resp. to District’s Motion to Dismiss 12.
The Court is unpersuaded. Whether the alleged
harassment is severe, pervasive, or objectively
offensive requires showing that the victims were
effectively denied equal access to educational
resources and opportunities. Plaintiffs have not
satisfied that burden by simply alleging that
District’s plan may be widely applied and sexsegregated facilities are well-established.
In conclusion, Plaintiffs have not made out the
necessary elements of their hostile environment
Title IX claim. Plaintiffs have failed to cite to
any case law supporting the propositions that

150a

District’s Plan discriminates because of sex, or
that it creates a severe, pervasive, and
objectively offensive environment.
B. Plaintiffs’ Requested Relief
BRO and State further argue that Plaintiffs’
requested relief would violate Title IX.
Specifically, Plaintiffs’ request for a court order
requiring transgender students to use singleuser facilities or facilities that match their
biological sex is a form of sex discrimination
under the statute. The Ninth Circuit has
recognized that discrimination against a
transgender person because of their gender
identity is discrimination because of sex. See
Kastl v. Maricopa Cty. Cmty. Coll. Dist., 325 F.
App’x 492, 493 (9th Cir. 2009).9 In Kastl, a
transgender woman brought Title VII and Title
IX claims against the community college where
she worked as an instructor. Id. Kastl
challenged the defendant’s decision to ban her
from using the women’s restroom in response to
a complaint that a man was using it. Id.
Additionally, Kastl’s contract was not renewed.
Id. The Ninth Circuit stated that “gender
Notably, Justice Gorsuch sat by
designation on this case alongside Judges
Fletcher and McKeown.
9

151a

stereotyping is direct evidence of discrimination
prohibited by Title VII.” Id. (citing Price
Waterhouse v. Hopkins, 490 U.S. 228, 251, 109
S.Ct. 1775, 104 L.Ed.2d 268 (1989)). The court
elaborated that “it is unlawful to discriminate
against a transgender (or any other) person
because he or she does not behave in accordance
with an employer’s expectation for men or
women.” Id. The Ninth Circuit, nevertheless,
upheld the district court’s decision to grant
summary
judgment
on
her
gender
discrimination claim because she was unable to
prove that the defendant’s actions were
motivated by her gender. Id. at 494. Kastl’s
Title IX claim fell with her Title VII claim on the
same ground. Id.
In a recent decision coming out of the Southern
District of California, a court relied on Kastl to
emphasize that “sex” under Title VII and Title
IX encompasses both biological difference and
gender. Prescott v. Rady Children’s Hosp.-San
Diego, 265 F.Supp.3d 1090, 1098–99 (S.D. Cal.
2017). The court in Prescott recognized that
“[o]ther Circuits have similarly interpreted the
sex discrimination provisions under Title IX and
Title VII to protect transgender individuals from
discrimination.” Id. at 1098–99 (collecting
cases). While these two cases may demonstrate
that the Ninth Circuit interprets the term “sex”

152a

as used in Title IX to include gender identity,
neither case expressly supports the proposition
that a policy requiring transgender students to
use facilities that match their biological sex is
sex discrimination. Indeed, in the February
2017 Dear Colleague Letter, Federal Defendants
maintain
that
discrimination
against
transgender students is prohibited by Title IX,
while at the same time they deferred to the
discretion of school administrators on the issue
of segregated facilities. The question remains,
then, whether preventing transgender students
from using facilities consistent with their gender
identity constitutes discrimination because of
sex.
Other circuits have provided more direct
guidance on this issue. The Seventh Circuit in
Whitaker unequivocally found that the relief
which Plaintiffs in this case seek would violate
Title IX. 858 F.3d at 1047–50. The court
explained that “[b]y definition, a transgender
individual does not conform to the sex-based
stereotypes of the sex that he or she was
assigned at birth.” Id. at 1048. Like the court in
Prescott, the Whitaker court also noted that
several circuits and district courts have
recognized that discrimination against someone
because they are transgender is sex-

153a

stereotyping and discrimination for gender
nonconformity. Id. at 1048–49 (collecting cases).
A policy that requires an individual to use a
bathroom that does not conform with his or her
gender identity punishes that individual for his
or her gender non-conformance, which in turn
violates Title IX. The School District’s policy also
subjects Ash, as a transgender student, to
different rules, sanctions, and treatment than
non-transgender students, in violation of Title
IX.
Id. at 1049–50. The Seventh Circuit further
held that providing Ash with gender-neutral
alternatives was insufficient because it
increased the stigmatization he faced. Id. at
1050.
Likewise, the Third Circuit in Doe relied on
Whitaker to write that “barring transgender
students from restrooms that align with their
gender identity would itself pose a potential
Title IX violation.” Doe, 893 F.3d at 195. The
Third Circuit, however, did not provide a
definitive ruling on that issue, instead relying on
Whitaker to hold that the plaintiffs were not
likely to succeed on the merits of their Title IX
claim. Id. at 198. The Third Circuit held that “a
court may not issue an injunction that would
subject the transgender students to different

154a

conditions than their cisgender peers are
subjected to.” Id. at 199; see also Glenn v.
Brumby, 663 F.3d 1312, 1316–17 (11th Cir.
2011) (recognizing that discrimination against a
transgender person because of their gender
identity is discrimination because of sex); Smith
v. City of Salem, 378 F.3d 566, 573 (6th Cir.
2004) (holding that gender stereotyping is a
form of sex discrimination under Title VII).
Other district courts have reached similar
conclusions. On remand from the Fourth
Circuit, the district court in Grimm concluded
that “discrimination on the basis of transgender
status constitutes gender stereotyping because
by definition, transgender persons do not
conform to gender stereotypes.” Grimm v.
Gloucester Cty. Sch. Bd., 302 F.Supp.3d 730, 745
(E.D. Va. 2018) (internal quotation marks and
citation omitted) (quoting M.A.B. v. Bd. Of Educ.
Of Talbot Cty., 286 F.Supp.3d 704, 714 (D. Md.
2018)). When analyzing whether the Title IX
claim based on gender stereotyping was
sufficiently pled, the Grimm court relied on
Whitaker to conclude that a policy requiring
transgender students to use bathrooms that do
not conform with their gender identity is a
violation of Title IX. Id. at 747 (citing Whitaker,
858 F.3d at 1049–50). The availability of genderneutral alternatives is “insufficient to relieve

155a

the school board of liability, ‘as it is the policy
itself which violates [Title IX.]’” Id. (quoting
Whitaker, 858 F.3d at 1040); see also M.A.B.,
286 F.Supp.3d at 716 (finding that a policy
denying a transgender boy from accessing the
boys’ locker rooms because of his gender identity
was sex discrimination under Title IX).
The Court finds that the reasoning in Whitaker
and cases following it is persuasive. A court
order directing District to require students to
use only facilities that match their biological sex
or to use gender-neutral alternative facilities
would violate Title IX. Forcing transgender
students to use facilities inconsistent with their
gender identity would undoubtedly harm those
students and prevent them from equally
accessing
educational
opportunities
and
resources. Such an injunction or District policy
would punish transgender students for their
gender nonconformity and constitute a form of
sex-stereotyping. Whitaker, 858 F.3d at 1048–
50. Accordingly, the Court finds that Plaintiffs’
requested relief itself would violate Title IX.
IV. Oregon State Law Claims
Plaintiffs allege that District’s Plan violates the
Oregon law prohibiting discrimination in
education and public accommodation. See O.R.S.
659.850, 659A.403. District and BRO move to

156a

dismiss these claims. BRO further argues that
the relief Plaintiffs seek violates Oregon antidiscrimination laws.
A. O.R.S. 659.850: Discrimination in
Education
To make out a discrimination in education claim
under Oregon law, Plaintiffs must show that
District’s action either: (1) “unreasonably
differentiates treatment”; or (2) “is fair in form
but discriminatory in operation ... based on sex.”
O.R.S. 659.850(1). The Oregon Court of Appeals
has interpreted “unreasonably differentiates
treatment” to mean “disparate treatment
discrimination—i.e., a policy or practice that
affirmatively treats some persons less favorably
than other persons based on certain protected
criteria, such as ... sex[.]” Nakashima v. Or. Bd.
of Educ., 344 Or. 497, 509, 185 P.3d 429, 437
(2008). In Nakashima, the appellate court
recognized that the second requirement above
was taken directly from the Supreme Court’s
decision in Griggs v. Duke Power Co., 401 U.S.
424, 431, 91 S.Ct. 849, 28 L.Ed.2d 158 (1971),
which embraced the disparate impact theory of
discrimination. Id. at 509–10, 185 P.3d at 437.
In this case, there are no allegations that the
Plan differentiates or is discriminatory in
operation. As discussed above, the Plan does not

157a

single out or treat any Student Plaintiff
differently from any other student on the basis
of sex. See supra Part III. Further, Plaintiffs
have not demonstrated that their privacy right
encompasses the right to use school facilities to
the exclusion of transgender students. See supra
Part II. Simply put, Plaintiffs have not carried
their burden of sufficiently alleging either
disparate treatment or discriminatory impact.
Therefore, the Court dismisses this claim.
B. O.R.S. 659A.403: Public
Accommodation
Under Oregon law all persons “are entitled to
the full and equal accommodations, advantages,
facilities and privileges of any place of public
accommodation, without any distinction,
discrimination or restriction on account of ...
sex” or “sexual orientation.” O.R.S. 659A.403(1).
The scope of this statute was expanded to
include “sexual orientation” which means “an
individual’s actual or perceived heterosexuality,
homosexuality, bisexuality or gender identity,
regardless of whether the individuals gender
identity, appearance, expression or behavior
differs from that traditionally associated with
the individual’s sex at birth.” O.R.S. 174.100(7)
(emphasis added).

158a

There are no allegations in the Complaint that
implementation of District’s Plan denied
students equal or full access to public
accommodations based on sex. The opposite is
true. The Plan ensures that all students have
access to school facilities. See e.g., Doe, 893 F.3d
at 191 (concluding that a similar policy “benefits
all students by promoting acceptance”).
Plaintiffs argue that the presence of transgender
students in school facilities denies equal access
to Student Plaintiffs who are ashamed or
embarrassed to share such spaces with
transgender students. Those feelings, however,
do not equate to unlawful discrimination in
public accommodation because the Plan itself
does not deny students access to school facilities.
Contrary to Plaintiffs’ position, the Oregon
Court of Appeals has held that denying access to
public accommodations because someone is
transgender
violates
Oregon
public
accommodations law. See Blachana, LLC v. Or.
Bureau of Labor & Indus., 273 Or. App. 806,
808, 359 P.3d 574, 575 (2015), opinion adhered
to as modified on reconsideration, 275 Or. App.
46, 362 P.3d 1210 (2015). In Blachana, the court
held that a club owner violated Oregon’s public
accommodations law by banning a group of
people, including transgender people, from
accessing the club on Friday nights because it

159a

was allegedly bad for business. Id. The court
found that the club owner had discriminated
because of the group members’ sexual
orientation and gender identity. Id. at 808–810
n.3, 359 P.3d at 575 (citing ORS 659A.403 and
OAR 839-005-0003(16) ).
Plaintiffs’ argument in response is a non
sequitur. See Pls.’ Resp to District’s Mot. to
Dismiss 15–16; Pls.’ Resp. to BRO’s Mot. to
Dismiss 9–10. Plaintiffs generally argue that
what “would truly be equal treatment would be
to allow any student to use single-use facilities
on an equal basis[.]” Pls. Resp. to District’s Mot.
to Dismiss 15. Plaintiffs argue that “other
students should have the same opportunity” as
Student A and that their requests for
accommodations not to share space with
transgender students should be granted. Pls.’
Resp. to BRO’s Mot. to Dismiss 10. Plaintiffs
provide no legal support for their public
accommodations claim nor do they rebut the
authority cited above. The Court’s analysis of
Plaintiff’s arguments made in defense of their
Title IX claim applies with equal force here. See
supra Part III. Accordingly, this claim has not
been plausibly alleged and is dismissed.
C. Plaintiffs’ Requested Relief

160a

More broadly, BRO and State raise the issue of
whether a policy requiring transgender students
to use facilities consistent with their biological
sex would violate Oregon law. See BRO Mot. to
Dismiss 18–19; Amicus Br. 9–10.
Beyond the Blachana case discussed above,
State—which includes ORDOE responsible for
administering and enforcing Oregon’s public
education law— takes the litigation position
that treating transgender students differently
by preventing them from using their desired
facilities would violate Oregon’s public
accommodation law. ORDOE promulgated
guidance for school districts entitled: “Creating
a Safe and Supportive School Environment for
Transgender Students.” Compl. Ex. M-1, at 1.
That guidance provides:
It is recommended that school
districts accept a student’s assertion
of his/her/their own gender identity.
A student who says she is a girl and
wishes to be regarded that way
throughout the school day should be
respected and treated like any other
girl. So too with a student who says
he is a boy and wishes to be affirmed
that way throughout the school day.
Such a student should be respected
and treated like any other boy.

161a

Id. at 4. ORDOE’s guidance further recommends
that “alternative accommodations, such as
single ‘unisex’ bathroom or private changing
space, should be made available to students who
request them, but should not be forced upon
students, or presented as the only option.” Id. at
10. Additionally, the guidance recommended
that transgender students be allowed to use
facilities consistent with the student’s gender
identity. Id. at 11.
State contends that Oregon anti-discrimination
law requires that transgender students be
allowed to use facilities they desire. Oregon’s
statutory scheme, case law, and administrative
guidance discussed above support State’s
position. Oregon law prohibits discrimination in
public education based on an individual’s gender
identity. Plaintiffs seek a Court order directing
District to treat transgender students
differently based on their gender identity in
violation of Oregon law. O.R.S. 659A.403(1);
O.R.S. 174.100(7). A policy that segregates
school facilities based on biological sex and
prevents transgender students from accessing
facilities that align with their gender identity
violates Oregon law.

162a

V. The Right to Direct the Education and
Upbringing of One’s Children
Next, Defendants move to dismiss Plaintiffs’
claim that District’s Plan violates Parent
Plaintiffs’ fundamental right to direct the
education and upbringing of their children.
Plaintiffs allege that District violated their
parental rights by exposing their children to
members of the opposite biological sex in school
facilities.
Federal courts recognize the so-called MeyerPierce right of parents under the Due Process
Clause of the Fourteenth Amendment. Meyer v.
Nebraska, 262 U.S. 390, 43 S.Ct. 625, 67 L.Ed.
1042 (1923); Pierce v. Soc’y of Sisters, 268 U.S.
510, 45 S.Ct. 571, 69 L.Ed. 1070 (1925). “The
Supreme Court has held that the right of
parents to make decisions concerning the care,
custody, and control of their children is a
fundamental liberty interest protected by the
Due Process Clause.” Fields v. Palmdale Sch.
Dist., 427 F.3d 1197, 1204 (9th Cir. 2005) (citing
Troxel v. Granville, 530 U.S. 57, 66, 120 S.Ct.
2054, 147 L.Ed.2d 49 (2000) ).
In this case, Plaintiffs allege that their parental
right includes “the duty to instill moral
standards and values in their children, and to
direct their education and upbringing” which

163a

“encompasses the right to determine whether
and when their minor children endure the risk
of being exposed to members of the opposite sex
in intimate, vulnerable settings like restrooms,
locker rooms and showers.” Compl. ¶ 210.
Plaintiffs allege that they:
have a fundamental right to
determine whether and when their
children will have to risk being
exposed to opposite sex nudity at
school, as well as a fundamental
right to determine whether their
children, while at school, will have
to risk exposing their own
undressed or partially unclothed
bodies to members of the opposite
sex.
Id. at ¶ 211. In Fields, the Ninth Circuit
recognized that “the right of parents to make
decisions concerning the care, custody, and
control of their children is not without
limitations.” 427 F.3d at 1204. Parents’ liberty
interest does not reside “exclusively” in the
parents “nor is it ‘beyond regulation [by the
state] in the public interest.’” Id. (quoting Prince
v. Massachusetts, 321 U.S. 158, 166, 64 S.Ct.
438, 88 L.Ed. 645 (1944) ). The Ninth Circuit
elaborated that the Meyer- Pierce right does not
allow parents to restrict the flow of information

164a

in public schools. Id. at 1206. “Schools cannot be
expected to accommodate the personal, moral or
religious concerns of every parent. Such an
obligation could not only contravene the
educational mission of the public schools, but
also would be impossible to satisfy.” Id.
More importantly, the Fields court explained
that parents are vested with the right to choose
where their children obtain an education.
However, “once parents make the choice as to
which school their children will attend, their
fundamental right to control the education of
their children is, at the least, substantially
diminished.” Id. Parents are not vested with the
power to determine how a school “will provide
information to its students or what information
it will provide, in its classrooms or otherwise.”
Id. (emphasis added). The Ninth Circuit then
adopted the Sixth Circuit’s position on this right:
Perhaps the Sixth Circuit said it
best when it explained, “While
parents may have a fundamental
right to decide whether to send their
child to a public school, they do not
have a fundamental right generally
to direct how a public school teaches
their child. Whether it is the school
curriculum, the hours of the school
day, school discipline, the timing

165a

and content of examinations, the
individuals hired to teach at the
school, the extracurricular activities
offered at the school or, as here, a
dress code, these issues of public
education are generally ‘committed
to the control of state and local
authorities.’ ”
Id. (quoting Blau, 401 F.3d at 395–96).
In this case, Parent Plaintiffs seek to expand
their right and exercise control over District’s
decisionmaking authority embodied in the Plan.
It is within Parent Plaintiffs’ right to remove
their children from Dallas High School if they
disapprove of transgender student access to
facilities. Once the parents have chosen to send
their children to school, however, their liberty
interest in their children’s education is severely
diminished. Plaintiffs cite no case standing for
the proposition that parents retain the right to
prevent transgender students from sharing
school facilities with their children. As the Ninth
Circuit explained in Fields, Parent Plaintiffs’
Fourteenth Amendment liberty interest in the
education and upbringing of their children “does
not extend beyond the threshold of the school
door.” Id. at 1207. Accordingly, the Court
dismisses this claim.

166a

VI. Plaintiffs’ Religious Claims
Lastly, Plaintiffs allege that District’s Plan
violates their First Amendment right to freely
exercise their religion. Additionally, Plaintiffs
claim that Federal Defendants’ administrative
actions violate the Religious Freedom
Restoration Act (“RFRA”). District and BRO
move to dismiss the free exercise claim. By
contrast, Federal Defendants generally move
that Plaintiffs’ claims be dismissed for lack
standing.
A. First Amendment — Free Exercise
The First Amendment provides that “Congress
shall make no law respecting an establishment
of religion, or prohibiting the free exercise
thereof....” U.S. Const., Amdt. 1 (emphasis
added). The Supreme Court explained:
The First Amendment obviously
excludes
all
governmental
regulation of religious beliefs as
such. The government may not
compel affirmation of religious
belief, punish the expression of
religious doctrines it believes to be
false, impose special disabilities on
the basis of religious views or
religious status, or lend its power to
one or the other side in

167a

controversies
over
authority or dogma.

religious

Emp’t Div. v. Smith, 494 U.S. 872, 877, 110
S.Ct. 1595, 108 L.Ed.2d 876 (1990) (internal
quotation marks and citations omitted). On the
other hand, “neutral, generally applicable laws
that incidentally burden the exercise of religion
usually do not violate the Free Exercise Clause
of the First Amendment.” Holt v. Hobbs, –––
U.S. ––––, 135 S.Ct. 853, 860, 190 L.Ed.2d 747
(2015) (citing Smith, 494 U.S. at 878–82, 110
S.Ct. 1595). Generally applicable neutral laws
“need not be justified by a compelling
governmental interest even if the law has the
incidental effect of burdening a particular
religious practice.”
Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520,
531, 113 S.Ct. 2217, 124 L.Ed.2d 472 (1993).
Such laws are permissible if they are rationally
related to a legitimate government interest. Id.
at 531, 113 S.Ct. 2217. “A law failing to satisfy
these requirements must be justified by a
compelling governmental interest and must be
narrowly tailored to advance that interest.” Id.
at 531–32, 113 S.Ct. 2217.
Plaintiffs’ religious allegations are succinct.
They contend that the Plan is not generally
applicable and that it burdens the free exercise
rights of some Plaintiffs. Compl. ¶¶ 258–264.

168a

The complaint alleges that “[s]ome students and
parent members of Parents for Privacy,
including Jon & Kris Golly and their children,
are devout Christians whose faith requires that
they preserve their modesty and not use the
restroom, shower, or undress, in the presence of
the opposite sex.” Id. at ¶ 120. Likewise, the
Complaint alleges that “[s]ome parent Plaintiffs,
including Jon and Kris Golly, object to the
Student Safety Plan for religious reasons
because of their sincerely-held religious beliefs
about modesty and other religious doctrines.” Id.
at ¶ 216.
Plaintiffs claim that the Plan is not generally
applicable because it pertains specifically to
Student A. Plaintiffs misunderstand the law.
Neutrality and general applicability are
considered with respect to religion. Lukumi, 508
U.S. at 532–33, 113 S.Ct. 2217. A law is neutral
and generally applicable if it does not “infringe
upon or restrict practices because of their
religious motivation,” and if it does not “in a
selective manner impose burdens only on
conduct motivated by religious belief[.]” Id. at
533, 113 S.Ct. 2217. Moreover, the Plan states
in its opening paragraph that it is “aimed to
support all students in this transition.” Compl.
Ex. A.

169a

In this case, the law is neutral and generally
applicable with respect to religion. There are no
allegations that District forced any Plaintiff to
embrace a religious belief, nor does the Plan
punish anyone for expressing their religious
beliefs. In any event, Plaintiffs do not have
standing to bring this claim. The Gollys do not
have a child at Dallas High School and are
therefore unaffected by the Plan. Plaintiffs’
generalized allegation that the unspecified
religious beliefs of unidentified plaintiffs would
be burdened lacks specificity, cannot sustain
Plaintiffs’ First Amendment claim.10
B. RFRA
The Supreme Court recognizes that Congress
enacted RFRA “in order to provide greater
protection for religious exercise than is available
under the First Amendment.” Holt, 135 S.Ct. at
860 (citing Burwell v. Hobby Lobby Stores, Inc.,
Plaintiffs argue that strict scrutiny should
apply because they have asserted a hybridrights claim combining free exercise with their
other asserted rights, i.e. privacy and parental
rights. See Miller v. Reed, 176 F.3d 1202, 1207
(9th Cir. 1999). However, given that the Court
dismisses Plaintiffs’ parental rights claim,
Plaintiffs’ assertion of a hybrid claim also fails.
10

170a

––– U.S. ––––, 134 S.Ct. 2751, 2761, 189 L.Ed.2d
675 (2014) ).
RFRA provides that “[g]overnment
shall not substantially burden a
person’s exercise of religion even if
the burden results from a rule of
general applicability,” unless the
government “demonstrates that
application of the burden to the
person—(1) is in furtherance of a
compelling governmental interest;
and (2) is the least restrictive means
of furthering that compelling
governmental interest.”
Id. at 860 (quoting 42 U.S.C. §§ 2000bb-1(a),
(b)).
Plaintiffs allege:
Many student Plaintiffs have
religious convictions that they
practice modesty. These students
have the sincere religious belief that
they must not undress, or use the
restroom, in the presence of the
opposite biological sex, and also that
they must not be in the presence of
the opposite biological sex while the
opposite biological sex is undressing
or using the restroom.

171a

Compl. ¶ 249. Plaintiffs also reassert Kris and
Jon Golly’s religious beliefs in support of the
RFRA claim. Id. at ¶ 250.
This claim is alleged solely against Federal
Defendants; however, it lacks any allegation
relating to their actions. The only causal
connection Plaintiffs posit is that Federal
Defendants’ administrative actions caused
District to enact the Plan. As discussed above
when analyzing Plaintiffs’ APA claim, Plaintiffs
have failed to allege the requisite causation to
establish Article III standing. See supra Part I.
Plaintiffs’ lack of standing extends to all of its
claims against Federal Defendants, as the sole
and tenuous thread of causation fails to tie
Federal Defendant’s Rule to District’s Plan.
Once more, assuming Federal Defendants
contributed to the promulgation of the Plan,
granting Plaintiffs the relief they seek under
RFRA would not cause District to withdraw its
Plan—which is the sole source of injury alleged
in their RFRA claim. Accordingly, Plaintiffs’
RFRA claim is dismissed.
CONCLUSION
District, Federal Defendants, and BRO’s
motions to dismiss [30] [31] [49] are GRANTED.
The Court finds that Plaintiffs cannot plausibly
re-allege their claims and that any amendment

172a

would be futile. For the reasons discussed above,
the Court dismisses with prejudice all of
Plaintiffs’ claims. Accordingly, Plaintiffs’ motion
for a preliminary injunction is DENIED as moot.

173a

STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
U.S. Constitution Amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Constitution Amend. XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and of
the State wherein they reside. No State shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned
among the several States according to their
respective numbers, counting the whole number
of persons in each State, excluding Indians not
taxed. But when the right to vote at any election
for the choice of electors for President and Vice

174a

President of the United States, Representatives
in Congress, the Executive and Judicial officers
of a State, or the members of the Legislature
thereof, is denied to any of the male inhabitants
of such State, being twenty-one years of age, and
citizens of the United States, or in any way
abridged, except for participation in rebellion, or
other crime, the basis of representation therein
shall be reduced in the proportion which the
number of such male citizens shall bear to the
whole number of male citizens twenty-one years
of age in such State.
Section 3. No person shall be a Senator or
Representative in Congress, or elector of
President and Vice President, or hold any office,
civil or military, under the United States, or
under any State, who, having previously taken
an oath, as a member of Congress, or as an
officer of the United States, or as a member of
any State legislature, or as an executive or
judicial officer of any State, to support the
Constitution of the United States, shall have
engaged in insurrection or rebellion against the
same, or given aid or comfort to the enemies
thereof. But Congress may by a vote of twothirds of each House, remove such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including

175a

debts incurred for payment of pensions and
bounties for services in suppressing insurrection
or rebellion, shall not be questioned. But neither
the United States nor any State shall assume or
pay any debt or obligation incurred in aid of
insurrection or rebellion against the United
States, or any claim for the loss or emancipation
of any slave; but all such debts, obligations and
claims shall be held illegal and void.
Section 5. The Congress shall have power to
enforce, by appropriate legislation, the
provisions of this article.
Title IX of the Education Amendments of
1972, in relevant part:
No person in the United States shall, on
the basis of sex, be excluded from
participation in, be denied the benefits of,
or be subjected to discrimination under
any education program or activity
receiving Federal financial assistance....
20 U.S.C. § 1681(a).

176a

Herbert G. Grey, OSB #810250
4800 SW Griffith Drive, Suite 320
Beaverton, OR 97005-8716
Telephone: 503-641-4908
Email: herb@grevlaw.org
Ryan Adams, OSB # 150778
181 N. Grant Street, Suite 212
Canby, OR 97013
Telephone: 503-266-5590
Email: rvan@ruralbusinessattornevs.com
Of Attorneys for Plaintiffs
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
Portland Division
Case No. 3:17-cv-01813-HZ
PARENTS FOR PRIVACY; KRIS GOLLY
and JON GOLLY, individually [and as
guardians ad litem for A.G.]; LINDSAY
GOLLY; NICOLE LILLIE; MELISSA
GREGORY, individually and as guardian
ad litem for T.F.; and PARENTS RIGHTS
IN EDUCATION, an Oregon nonprofit
corporation, Plaintiffs,
v.
DALLAS SCHOOL DISTRICT NO. 2; OREGON
DEPARTMENT
OF
EDUCATION;
GOVERNOR KATE BROWN, in her official

177a

capacity as the Superintendent of Public
Instruction;
and
UNITED
STATES
DEPARTMENT OF EDUCATION; BETSY
DEVOS, in her official capacity as United States
Secretary of Education as successor to JOHN
B.
KING,
JR.;
UNITED
STATES
DEPARTMENT
OF
JUSTICE;
JEFF
SESSIONS, in his official capacity as United
States Attorney General, as successor to
LORETTA F. LYNCH, Defendants.
____________________________________________
COMPLAINT FOR DAMAGES &
DECLARATORY & INJUNCTIVE RELIEF
Plaintiffs PARENTS FOR PRIVACY and
PARENTS RIGHTS IN EDUCATION, along
with other plaintiffs named and identified by
name or their initials in the caption above (the
"Plaintiffs"), allege:
1. This case is about protecting the privacy of
every student within Dallas School District No.
2 ("Dallas School District" or "DISTRICT' or
"District Defendant")—privacy that Defendants
violate each school day through new rules and
policies that radically changed the meaning of
"sex" in Title IX. Defendants have unilaterally
rejected the Title IX meaning of sex, which for
40 years has meant biologically male and

178a

female, two objectively determined, fixed, binary
sexes rooted in our human reproductive nature.
In lieu of this unambiguous meaning of sex,
Defendants inject a distinct and altogether
different concept of gender identity which is
subjectively discerned, fluid, and nonbinary.
The Department of Education and Department
of Justice (collectively "Federal Defendants")
acted without regard for statutory authority or
required rule-making procedures, and created
and promulgated a new ultra vires rule
("Federal Rule" or "Rule") through the artifice of
issuing "guidelines" ("Federal Guidelines" or
"Guidelines") and then enforcing those
guidelines against several schools. Those
enforcement actions put all school districts
nationwide on notice that they must treat a
student's gender identity as their sex for the
purpose of Title IX if they wish to retain federal
funding. The Federal Rule redefines "sex" in
Title IX and requires school districts to regulate
access to sex specific private facilities such as
locker rooms, restrooms, shower rooms, and
hotel rooms on overnight school-sponsored trips
by gender identity rather than by sex.
DALLAS SCHOOL DISTRICT ("District") fully
adopted and implemented the Federal
Defendant's Rule as their own district policy in
the form of a Student Safety Plan. The
consequence of the Federal Rule and the District

179a

policy is unavoidable: adolescent students, in
the midst of disrobing within private intimate
spaces, will encounter an adolescent student of
the opposite sex in their midst. The risk of such
encounters, and the encounters themselves,
merit prompt judicial intervention to enjoin
Federal Defendants' rules and guidelines as well
as DISTRICTS Student Safety Plan and policies
and protect Plaintiffs' bodily privacy.
JURISDICTION AND VENUE
2. This action arises under 42 U.S.C. §§ 1983 et
seq. (the "Civil Rights Act"), 5 U.S.C. §§ 500 et
seq. (the "Administrative Procedure Act" or the
"APA"), 20 U.S.C. §§ 1681 et seq. ("Title IX"), the
Religious Freedom Restoration Act ("RFRA"), 42
USC §§ 2000bb et seq., and the First and
Fourteenth Amendments to the United States
Constitution.
3. The Court has subject matter jurisdiction
pursuant to 28 U.S.C. §§ 1331, 1343, 1361, and
1367.
4. The Court has jurisdiction to issue the
requested declaratory relief pursuant to 28
U.S.C. §§ 2201 and 2202 and FRCP 57.
5. The Court has jurisdiction to award the
requested injunctive relief under 5 U.S.C. §§ 702
and 703, 20 U.S.C. § 1683, 42 U.S.C. § 20000bb-

180a

l(c), 28 U.S.C. § 1343(a)(3), 775 111. Comp. Stat.
Ann. § 35/20, and FRCP 65.
6. The Court has jurisdiction to award nominal
and compensatory damages under 28 U.S.C. §
1343(a)(4).
7. The Court has jurisdiction to award
reasonable attorneys' fees and costs under the
Equal Access to Justice Act, 28 U.S.C. § 2412,
and 42 U.S.C. § 1988.
8. Venue lies in this district pursuant to 28
U.S.C. § 1391(b) and (e), because a substantial
part of the events or omissions giving rise to all
claims occurred in this district where one or
more defendants are located.
PARTIES: PLAINTIFFS
9. All plaintiffs are citizens of the United States
and residents of Polk County, Oregon; except
that
plaintiff
PARENTS
RIGHTS
IN
EDUCATION has its primary office in
Washington County, Oregon.
10.
Plaintiff
PARENTS
RIGHTS
IN
EDUCATION is a nonprofit organization
comprised of educators, school board members,
parents and grandparents whose mission is to
protect and advocate for parents' rights to guide
the education of their children, including but not
limited to addressing "health services" and
sexually explicit content and materials given or

181a

promoted to students through educational
services under the guise of comprehensive
sexuality education.
11. Plaintiff PARENTS FOR PRIVACY is a
voluntary unincorporated association of current
and former students, as well as their parents
and other concerned members of the District
community who are directly impacted by the
USDOE's adoption and enforcement of the
legislative rule redefining the term "sex" in Title
IX to include
"gender
identity" and
implementation of the Student Safety Plan (Ex.
A) and its underlying policies which are
identified in ¶ 28 below.
12. Student Plaintiffs object to being required to
share restrooms, locker rooms and shower rooms
with students of the opposite biological sex.
13. One or more female students has attended
Dallas High School, and has been subject to both
the Student Safety Plan and underlying polices
(Ex. A).
14. In addition, there are boy plaintiffs who
attend Dallas High School and other District
schools, and so are currently subject to the
Student Safety Plan.
15. Each plaintiff who is individually identified
by his/her initials is also a member of one of the
subgroups listed below. For clarity, when used
below: "Student Plaintiffs" refers to all students
who were, are or will be subject to the Student

182a

Safety Plan; "Parent Plaintiffs" refers to all
parents who are part of PARENTS FOR
PRIVACY (including those who are individually
identified by initials); "Girl Plaintiffs" refers to
all female students who attend or have attended
Dallas High School who are subject to the
Student Safety Plan; and "Boy Plaintiffs" refers
to all male students who attend DALLAS HIGH
SCHOOL or other DISTRICT schools who are
subject to the Student Safety Plan.
16. Plaintiff LINDSAY GOLLY, recently
attended DALLAS HIGH SCHOOL and was
subject to Student Safety Plan during the 20152016 school year. Plaintiffs KRIS GOLLY and
JON GOLLY are her parents, as well as the
parents and petitioning guardians ad litem for
their son A.G., currently an eighth grade
student in the Dallas School District who is or
soon will be subjected to the Student Safety
Plan.
17. Plaintiff MELISSA GREGORY is the parent
and petitioning guardian ad litem for T.F.,
currently an eleventh grade student at Dallas
High School who is subject to the Student Safety
Plan.
18. The factual statements and allegations of
law below apply as alleged to a number of
individual plaintiffs.

183a

PARTIES: DEFENDANTS
Defendant Dallas School District No, 2
19. DALLAS SCHOOL DISTRICT NO. 2
("DISTRICT") is a public school district located
in Dallas, Polk County, Oregon organized under
the laws of the State of Oregon, and it is a
government entity capable of suing and being
sued in all courts, including this court. All of
DISTRICT'S actions complained of herein were
conducted under color and pretense of law,
including the enactment and enforcement of
policies pursuant to Oregon and United States
law.
20. DISTRICT is comprised of public educational
institutions that provide K-12 education to both
male and female students within the meaning of
ORS
659A.850. DISTRICT is an employer within the
meaning of ORS 659A.001 and 659A.106, as well
as a place of public accommodation within the
meaning of ORS 659A.400, et seq.
21. The public schools that comprise DISTRICT
receive federal funds and are thereby subject to
the requirements of Title IX.
22. Defendant DISTRICT is charged with the
formulation, adoption, implementation, and
enforcement of its policies for its schools as
alleged in H 74 through 94, including the
following policies challenged herein:

184a

a. The Student Safety Plan, together with
the underlying policies identified in
subparagraphs b-g below, was enacted
and implemented at DALLAS HIGH
SCHOOL by DISTRICT on or about
November 15, 2015 (Ex. A);
b. Policy AC (entitled Nondiscrimination)
prohibiting
discrimination
and
harassment in educational opportunities
and services offered students on certain
protected grounds, including sex and
religion (Ex. B);
c. Policy AD (entitled Philosophy of
Education) reciting in relevant part that
"The primary purpose of the Dallas School
District is to provide opportunities for the
full intellectual development of each
child", a "shared responsibility with
parents/legal guardians [and others]...for
the social, physical and emotional growth
and development of the individual child"
and "a shared
responsibility
for
developing in all children an awareness of
the societal responsibilities to themselves,
other individuals and to the local
community or to the larger community of
state, nation, or world" (Ex. C);
d. Policy JBA/GBN (entitled Sexual
Harassment) defines "sexual harassment"

185a

to include "conduct or communication
[that] is so severe, persistent, or pervasive
that it has the purpose or effect of
unreasonably interfering with a student's
educational performance...; or creates an
intimidating,
offensive
or
hostile
educational or working environment" (Ex.
D);
e. Policy JBA/GBN-AR (entitled Sexual
Harassment and Sexual Violence) further
provides "sexual harassment" includes
"...9. Other sexually motivated behavior
which may affect working conditions, or
the educational process" (Ex. E);
f. Policy JF/JFA (entitled Student Rights
and Responsibilities) whereby the Board
acknowledges responsibility to afford
students "civil rights - including the rights
to equal educational opportunity... and 5.
The right to privacy..." (Ex. F);
g.
Policy
JFCF
(entitled
Harassment/Intimidation/Cyberbullying/
Teen Dating Violence/Domestic ViolenceStudent),
whereby
the
Board
acknowledges in its "its commitment to
providing a positive and productive
learning environment will consult with
parents/guardians,...students...in
developing this policy", and again defining
"Harassment, intimidation or bullying" to

186a

mean "any act that substantially
interferes with a student's educational
benefits, opportunities or performance...
having the effect of knowingly placing a
student in reasonable fear of physical
harm...[or] creating a hostile educational
environment, including interfering with
the psychological well-being of the
student." (Ex. G).
23. Defendant DISTRICT is responsible for the
enforcement of its policies by its board of
directors,
Superintendent,
administrators,
teachers, and all other district personnel.
Defendant Oregon Department of
Education
24. Defendant OREGON DEPARTMENT OF
EDUCATION ("ODE") is an executive agency of
the state of Oregon and is responsible for the
administration and funding of K-12 public
education in the state of Oregon, as well as the
enforcement of Title IX, 20 U.S.C. §§ 1681-1688,
and its implementing regulation at 34 C.F.R.
Part 106 for schools under its jurisdiction. On or
about May 5, 2016 ODE issued its "Guidance to
School Districts: Creating a Safe and Supportive
School Environment for Transgender Students",
official policy based in part on legal advice given

187a

in documents issued by USDOE and USDOJ.
(Ex. M-l). ODE has not changed its policies in
light of subsequent actions by federal officials
recited in ¶ 39 below.
Defendant Governor Kate Brown
25. Governor KATE BROWN is the
Superintendent of Public Instruction and the
highest ranking executive official at OREGON
DEPARTMENT OF EDUCATION. In this
capacity, she is the final policymaker
responsible for the operation and management
of the ODE, including the issuance of Exhibit Ml. She is sued in her official capacity only.
Defendant United States Department of
Education
26. Defendant United States Department of
Education ("USDOE") is an executive agency of
the United States government and is
responsible
for
the
promulgation,
administration, and enforcement of Title IX, 20
U.S.C. §§ 1681-1688, and its implementing
regulation at 34 C.F.R. Part 106.
27. The USDOE, through its Office for Civil
Rights ("OCR"), has exercised its alleged
authority to promulgate, administer and enforce
its new legislative rule for Title IX, as alleged in

188a

¶¶ 49 to 73, to the detriment of Student
Plaintiffs and their respective parents.
Defendant Secretary Betsy DeVos
28. JOHN B. KING, JR. ("KING"), was the
United States Secretary of Education at all
times material to the enactment of the Rule and
Guidelines. In this capacity, he was the final
policymaker responsible for the operation and
management of the USDOE. Defendant BETSY
DEVOS subsequently became the Secretary of
Education in early 2017 and is currently the
final policymaker for the operation and
management of the USDOE. DEVOS is sued in
her official capacity only.
Defendant United States Department of
Justice
29. Defendant United States Department of
Justice ("USDOJ") is an executive agency of the
United States government and is responsible for
the enforcement of Title IX, 20 U.S.C. §§ 16811688, and its implementing regulation at 34
C.F.R. Part 106. Pursuant to Executive Order
12250, the DOJ has authority to bring
enforcement actions to enforce Title IX.

189a

Defendant Attorney General Jeff Sessions
30. LORETTA E. LYNCH ("LYNCH") was the
United States Attorney General at all times
material to the enactment of the Rule and
Guidelines. In this capacity, she was the final
policymaker responsible for the operation and
management of the USDOJ, including the
enforcement of Title IX, 20 U.S.C. §§ 1681-1688,
and its implementing regulation at 34 C.F.R.
Part 106. Subsequently, Defendant JEFF
SESSIONS became the Attorney General in
early 2017 and is currently the final policymaker
for the operation and management of the
USDOJ. SESSIONS is sued in his official
capacity only.
FACTUAL BACKGROUND
31. Plaintiffs believe no student can or should be
forced to use private facilities at school, like
locker rooms, showers and restrooms, with
students of the opposite sex. Plaintiffs further
believe no government agency can legitimately
hold hostage education funding to advance an
unlawful agenda enacted unlawfully, and no
school district should trade its students'
constitutional and statutory rights for dollars
and cents from the U.S. Government. This is
especially true when it means abandoning a

190a

common-sense practice that has long protected
every student's privacy and access to education.
32. Bypassing congressional intent, judicial
rulings, and more than 40 years of Title IX
history enforcing the unambiguous term "sex"
(meaning males and females), the Federal
Defendants decreed by unlawful agency fiat a
new legislative rule redefining "sex" in Title IX
and its implementing regulations to include
"gender identity", thereby requiring that a
school must treat a student's gender identity as
the student's sex for purposes of Title IX and its
implementing regulations.1
The Federal
The term "sex," as used in both Title IX and
this Complaint, is a binary concept that refers to
one's biological status as either male or female
determined at birth and manifest by biological
indicators such as chromosomes, gonads,
hormones, and genitalia. See, e.g., Am.
Psychological Ass'n, Answers to Your Questions
About Transgender People, Gender Identity and
Gender
Expression
1,
http://www.apa.org/topics/lgbt/transgender.pdf
(Sex is assigned at birth, refers to one's
biological status as either male or female, and is
associated primarily with physical attributes
such as chromosomes, hormone prevalence, and
external and internal anatomy."); Am.
Psychological Ass'n, Diagnostic and Statistical
1

191a

Defendants' new Rule is succinctly stated this
way: a school must "treat a student's gender
identity as the student's sex for purposes of Title
IX and its implementing regulations." May 13,

Manual of Mental Disorders 451 (5th ed. 2013)
("DSM-5") (noting that sex "refer[s] to the
biological indicators of male and female
(understood in the context of reproductive
capacity), such as in sex chromosomes, gonads,
sex hormones, and nonambiguous internal and
external genitalia."). When "male" and "female"
are used in this Complaint, they are used
consistently with this definition. "Gender
identity" as defined by the Department of
Education "refers to an individual's internal
sense of gender. A person's gender identity may
be different from or the same as the person's sex
assigned at birth." U.S. Department of Justice
and U.S. Department of Education, Dear
Colleague Letter: Transgender Students 1 (May
13, 2016). Exhibit K. It is also subjective, fluid,
and not rooted in human reproduction or tied to
birth sex. Lawrence S. Mayer & Paul R.
McHugh, Sexuality and Gender: Findings from
the Biological, Psychological, and Social
Sciences, New Atlantis, at 87-93 (2016). When
"gender identity" is used in this Complaint, it is
used consistently with this definition.

192a

2016 Dear Colleague Letter: Transgender
Students (Ex. K).
33.
Federal
Defendants
created
and
promulgated this new legislative rule ("Rule")
through a series of Federal Guidelines that were
sent to school districts between April 2014 and
May 2016, including:
• U.S. Department of Education, Office for Civil
Rights, Questions andAnswers on Title IX and
Sexual Violence, 5 (Apr. 2014) (Ex. H)
• U.S. Department of Education, Office for Civil
Rights, Questions and Answers on Title IX and
Single-Sex Elementary and Secondary Classes
and Extracurricular Activities, 25 (Dec. 2014)
(Ex. I)
• U.S. Department of Education, Office for Civil
Rights, Title IX Resource Guide, 1, 15, 16, 19,
21-22 (Apr. 2015) (Ex. J) and
• Dear Colleague Letter on Transgender
Students (Ex. K).
34. Contemporaneously, Federal Defendants
enforced the policies announced in these
Guidelines as "a condition of receiving Federal
funds", publicly threatening to remove all
federal funding from school districts that did not
submit to their Guidelines. (Ex. K).
35. The Rule made two radical changes to the
law that are directly at issue in this case: It (1)
redefined the term "sex" in Title IX to include
gender identity, and (2) prohibited school

193a

districts from providing sex-specific facilities
including locker rooms, shower rooms,
restrooms, and hotel rooms on school sponsored
trips.
36. Under the Rule, school districts must provide
any male student who professes a female gender
identity unrestricted use of girls' private
facilities and any female student who professes
a male gender identity unrestricted use of boys'
private facilities.
37. The Rule is ultra vires because it violates
both substantive and procedural requirements
of the Administrative Procedure Act ("APA") in
that it was considered or adopted through notice
and comment rulemaking and was not approved
or promulgated by the President of the United
States.
38. The Rule is unlawful because it mandates a
school policy that creates a sexually harassing
hostile environment and violates privacy.
39. Subsequently, on or about February 22,
2017, USDOE and USDOJ issued a letter
withdrawing the guidance in their May 13, 2016
Dear Colleague Letter (Ex. K) and an April 2015
Letter "in order to further and more completely
consider the legal issues involved." Additionally,
on or about March 3, 2017 the U.S. District
Court for the Northern District of Texas
dismissed without prejudice the multi-state
lawsuit challenging the Rule and dissolving its

194a

preliminary injunction. Finally, on or about
March 6, 2017 the United States Supreme Court
stayed and ultimately remanded Gloucester
County School Board v. G.G., 2016 WL 1567467,
F3d (4th Cir. 2016). for further consideration.
Gloucester County School Board v. G.G, 132
S.Ct. 2442 (2016). More recently, USDOE's
Office of Civil Rights has instructed its field
offices to continue investigation and potential
enforcement of claims from transgender
students on a case-by-case basis. Ex. N.
Notwithstanding the foregoing, the Rule has not
been formally repealed, and it has continuing
legal force and effect binding DISTRICT.
40. In response to the foregoing Federal
Guidelines and enforcement, the DISTRICT
stopped its historic and lawful practice of sexseparating locker rooms and restrooms and
adopted and implemented the DISTRICT
Student Safety Plan. Ex. A. Despite the actions
recited in ¶ 39 above, DISTRICT has not
changed its policies or the Student Safety Plan
complained of herein.
41. The Student Safety Plan regulates all
DISTRICT schools, programs, and students
aged pre-school through 12th grade, including
the Student Plaintiffs.
42. Because of the Student Safety Plan, Student
A currently uses both the boys' locker rooms and
the boys' restrooms at DALLAS HIGH

195a

SCHOOL, which creates an intimidating and
hostile environment for male students attending
there, some of whom are as young as 14, because
Student A—who is biologically a female but
professing a male gender identity—regularly
uses their private facilities at the same times as
Boy Plaintiffs.
43. As a direct result of Defendants' policies and
actions, every day biologically male and female
students go to school, where they have
experienced,
or
may
experience,
embarrassment, humiliation, anxiety, fear,
apprehension, stress, degradation, and loss of
dignity because they will have to use locker
rooms, showers and restrooms with a student of
the opposite biological sex.
44. Because of Defendants' policies and actions,
these students are afraid of being seen by, and
being forced to share intimate spaces with a
student of the opposite biological sex while they
are in various stages of undress.
45. Because of Defendants' policies and actions,
these students are afraid they will have to see
other students of the opposite biological sex in a
state of undress.
46. Because of Defendants' policies and actions,
male and female students are afraid of having to
attend to their most personal needs, especially
during a time when their body is often
undergoing what they and other students may

196a

regard as embarrassing changes as they
transition from childhood to adulthood, in a
locker room, shower or restroom with a student
of the opposite biological sex present.
Additionally, no provision has been made in the
Student Safety Plan or otherwise for
appropriate disposal of Student A's feminine
hygiene products in facilities previously
reserved for male students, thereby creating
sanitation and health concerns.
47. The Student Safety Plan has had and
continue to have a profoundly negative effect on
the
students'
access
to
educational
opportunities, benefits, programs, and activities
at their schools in one or more of the following
particulars:
a. Some students actively avoid using the locker
rooms, restrooms and showers at school;
b. One or more students have dropped physical
education classes to avoid having to encounter
other students of the opposite biological sex in
the locker room, as documented in the minutes
of the December 14, 2015 school board meeting;
c. Other students change as quickly as possible
in the locker room, avoiding all eye contact and
conversation, all the while experiencing great
stress and anxiety over whether a student of
the opposite biological sex will walk in while
they are undressing or changing; and

197a

d. Some students avoid the restroom altogether,
and others wait as long as possible to use the
restroom, so they won't have to share it with a
student of the opposite biological sex, thus
potentially risking a variety of health problems.
48. These negative effects on the students'
access to educational opportunities, benefits,
programs, and activities at their school are a
direct result of USDOE's adoption and
enforcement of the Rule redefining the term
"sex" in Title IX to include "gender identity",
which in turn forms the justification for the
Student Safety Plan.
49. USDOE's action violates the Administrative
Procedure Act, and the Student Safety Plan
violates the student plaintiffs' right to privacy,
discriminates on the basis of sex under Title IX
by creating a hostile environment, and violates
additional constitutional and statutory rights of
Student Plaintiffs, for which they seek relief
from
this
Court.
Additionally,
the
aforementioned violations violate Parent
Plaintiffs' rights as parents to exercise their
constitutional right to direct the upbringing and
education of their children, for which they too
seek relief from this Court.

198a

Federal Defendants' Unlawful Title IX
Policy
50. Congress passed Title IX of the Education
Amendments of the Civil Rights Act in 1972
pursuant to its Spending Clause power to
prohibit invidious sex discrimination. Title IX
states that "[n]o person in the United States
shall, on the basis of sex, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance...." 20 U.S.C. § 1681.
51. Title IX was designed to "expand basic civil
rights and labor laws to prohibit the
discrimination against women which has been
so thoroughly documented." 118 Cong. Rec. 3806
(1972) (Statement of Senator Birch Bayh of
Indiana).
52. Congress delegated authority to federal
agencies to "effectuate the provisions of section
1681 of this title...by issuing rules, regulations,
or orders of general applicability which shall be
consistent with achievement of the objectives of
the statute..." but specified that "no such rule,
regulation, or order shall become effective
unless and until approved by the President." 20
U.S.C. § 1682.
53. Regulations implementing Title IX in
relevant part provide that "no person shall, on

199a

the basis of sex, be excluded from participation
in, be denied the benefits of, or be subjected to
discrimination
under
any
academic,
extracurricular...or other education program or
activity operated by a recipient which receives
Federal financial assistance," and that no
funding recipient shall on the basis of sex "treat
one person differently from another in
determining whether such person satisfies any
requirement or condition for the provision of
such aid, benefit, or service; ... Provide different
aid, benefits, or services or provide aid, benefits,
or services in a different manner; ... Deny any
person any such aid, benefit, or service; ...
Subject any person to separate or different rules
of behavior, sanctions, or other treatment; ...[or]
Otherwise limit any person in the enjoyment of
any right, privilege, advantage, or opportunity."
34 C.F.R. § 106.31.
54. Title IX does not authorize Federal
Defendants to regulate the content of speech or
discriminate on the basis of viewpoint, which is
presumptively unconstitutional under the First
Amendment to the United States Constitution.
55. Title IX and its implementing regulations
use the term "sex" to categorize the persons
protected from invidious discrimination by the
law.
56. The term "sex" in Title IX and its
implementing
regulations
means
the

200a

immutable,
genetic,
reproductively-based
binary male-female taxonomy. See p. 12, fn. 1.
The text of Title IX demonstrates this malefemale taxonomy by using terminology such as
"both sexes," "one sex," and "the other sex."
57. Title IX and its implementing regulations do
not use the term "gender identity," or alternate
terms referring to the same concept (e.g.,
"transgender," or "transsexual"). Nothing in the
text, structure, or legislative history of Title IX
suggests or supports that the term "sex" in Title
IX includes "gender identity." Nothing in the
text, structure, and drafting history of Title IX's
implementing regulations suggests or supports
that the term "sex" in these regulations includes
"gender identity."
58. Although Senator Al Franken of Minnesota
began in 2011 introducing legislation modeled
after Title IX to prohibit gender identity
discrimination in schools, Congress has
repeatedly failed to enact the legislation.
59. Title IX and its implementing regulations
expressly permit sex-specific private facilities,
providing in relevant part: "nothing contained
herein shall be construed to prohibit any
educational
institution...from
maintaining
separate living facilities for the different
sexes...." 20 U.S.C. § 1686.
60. The implementing regulations confirm that
living facilities include restrooms, locker rooms,

201a

and shower rooms - "[school districts] may
provide separate toilet, locker room, and shower
facilities on the basis of sex, [as long as] such
facilities provided for students of one sex [are]
comparable to such facilities provided for
students of the other sex." 34 C.F.R. § 106.33.
61. Federal Defendants have provided no
explanation for the new Rule, including its basis
for the decision to promulgate the Rule, a
description of the factors relied upon to
formulate the Rule, its recognition of the
fundamentally different nature of sex and
gender identity, or any recognition or
explanation for the reversal of long-standing
policy that permitted districts to separate
private facilities by sex without regard to a
student's professed gender identity.
62. Federal Defendants also failed to
substantively assess how the new Rule would
impact privacy rights of all male and female
students on a given campus, including District
schools.
63. Federal Defendants have enforced the Rule
through public investigations, findings, and
threats to revoke millions of dollars in federal
funding from several school districts because
they provided sex-specific private facilities. U.S.
Department of Education, Resources for
Transgender and Gender Nonconforming
Students:
OCR
Resolutions,

202a

http://www2.ed.gov/about/offices/list/ocr/lgbt.ht
ml (last visited August 10, 2016). Federal
Defendants have no statutory authority to
investigate a claim based on gender identity or
gender nonconformity.
64. Township High School District 211 ("District
211") in Palatine, Illinois was one of the districts
investigated.
65. The Office of Civil Rights for the DOE
("OCR") issued a Letter of Findings against
District 211 in November 2015. Township High
School District 211, 05-14-1055 (Office of Civil
Rights November 2, 2015) (letter of findings).
(Ex. L). That letter stated in relevant part that
when OCR investigates Title IX complaints it
looks for evidence of "discrimination based on
sex, gender identity, or gender nonconformity."
Id.
66. The letter also stated that District 211
violated Title IX by discriminating on the basis
of gender identity because District 211 did not
let a male student who professes a female
gender identity use girls' locker rooms. OCR
then threatened to revoke $6 million in federal
funding from District 211 if it continued to sexseparate private facilities.
67. In December 2015, District 211 signed an
Agreement with OCR and granted the male
student access to the girls' locker rooms. (Ex. M).

203a

68. Parents and students who suffered privacy
and constitutional harm filed a federal lawsuit
regarding that Agreement. Students and
Parents for Privacy v. Dep't of Educ, et al., No.
l:16-cv-04945 (N.D. 111. filed May 4, 2016).
69. Similarly, in May 2016, Defendant USDOJ
sent letters to the North Carolina Governor and
the University of North Carolina system
threatening to revoke Title IX funding from
North Carolina schools if the state and
University System enforced a state law that
mandates sex-specific private facilities in
government buildings, including schools.
70. When the Governor resisted, Defendant
USDOJ filed a federal lawsuit against the State
of North Carolina. U.S. v. N.C., No. l:16-cv00425 (M.D. N.C. filed May 9, 2016).
71. These enforcement actions, with the
Guidelines, sent a clear message to school
districts nationwide, including Dallas School
District, that they too could lose millions in
federal funding for maintaining sex-specific
private
facilities,
specifically
authorized
pursuant to Title IX.
72. Despite the subsequent actions taken by
USDOE, USDOJ and federal courts (See H 39),
DISTRICT continues to implement its Student
Safety Plan in derogation of the rights of
Plaintiffs and others.

204a

73. Because the Rule has not been repealed (See
¶39), DISTRICT still faces potential legal
liability from OCR and others on the basis of
"gender identity", allegedly in violation of Title
IX, by refusing a biological female, who
perceives herself to be male, access to the boys'
locker and shower rooms.
74. Per the Dallas School District No. 2 Adopted
Operating Budget 2015-2016, DISTRICT has
faced and potentially continues to face the
threat of losing over $2 million dollars in federal
funds for each school year from 2015-2016 to the
present if it fails to grant a biologically female
student access to the boys' restroom, locker room
and shower rooms.
Dallas School District's Unconstitutional
Policy
75. In response to the threat of OCR
enforcement action, on or about November 15,
2015, DISTRICT developed and implemented
the Student Safety Plan (Ex. A) granting
Student A the right to enter and use all boy's
locker rooms, restrooms and showers at
DISTRICT schools according to her perceived
gender identity. DISTRICT has publicly
defended the Student Safety Plan based on
USDOE's unlawful action described above.

205a

Despite the actions recited in ¶39 above,
DISTRICT has not changed its policies.
76. Student A is currently a 12th grade student
at Dallas High School.
77. Student A was born a girl and is
anatomically female. Throughout most of her
school career, Student A identified to her
classmates, including Student Plaintiffs, as a
girl, consistent with her biological sex, and used
the restrooms, locker rooms and showers
consistent with her biological sex prior to and
including her high school career until
September 2015.
78. In September 2015, Student A decided to
publicly identify herself as male, although prior
to that time she had been using the girls'
facilities in middle school and high school.
Student A requested that she be allowed to use
the boys' locker rooms and shower facilities, but
was unsure which restroom facilities she
preferred.
79. DISTRICT provided Student A with her
choice of private facilities to change her clothes
for physical education from the fall of 2015
through the end of the school year in June, 2016.
DISTRICT told Student A that she could use the
boys' locker rooms and shower facilities while
biologically male students are present, even
though her presence would invade the privacy of
those male students, and even though her

206a

parent and legal guardian objected. DISTRICT
further permitted Student A to "use any of the
bathrooms in the building to which he identifies
sexually." A true copy of the floor plan of
DALLAS HIGH SCHOOL is attached hereto as
Ex. 0. DISTRICT elected not to accommodate
Student A by granting her access to separate
existing unisex restroom, locker room and
shower facilities accessible through the main
office as alleged herein, and Because of the
Student Safety Plan (Ex. A), Student A is
currently using the boys' locker rooms, showers
and restrooms at Dallas High School while male
students are present, including some of the Boy
Plaintiffs and other biologically male students.
80. The Student Safety Plan described above
was shared with other students in Student A's
PE class, but was not otherwise disclosed or
discussed with DISTRICT students or parents of
DISTRICT students.
81. In response to Student A's complaints for
accommodation, DISTRICT is preparing to
make changes to its locker room, shower and
restroom facilities for the use of Student A and
others at a cost variously estimated at $200,000$500,000. Even if such changes are made,
DISTRICT will still allow all persons to utilize
the facilities of their choice without
accommodating
those
who
still
desire
segregated facilities.

207a

82. Under DISTRICT'S previous discrimination
policy biological females were not expressly
authorized to enter male locker rooms or other
facilities. However, Student A has utilized the
boys' locker room and shower facilities on
numerous occasions from November 15, 2015 to
the present and has changed clothes while male
students were present.
83. Similarly, even using toilets in stalls does
not resolve the embarrassment, humiliation,
anxiety, intimidation, fear, apprehension, and
stress produced by using the restroom with
students of the opposite sex, because the stalls
are not fully private; and, besides, the Student
Plaintiffs are still attending to private bodily
needs in the immediate presence of the opposite
sex. In both the boys' and girls' restrooms, there
are large gaps above and below the stall doors,
and gaps along the sides of the door, that
another student could see through even
inadvertently. These gaps mean that the
Student Plaintiffs, both boys and girls, must risk
exposing themselves to the opposite sex every
time they use the restroom. DISTRICT cannot
assure Student Plaintiffs' that their partially
unclothed bodies will not be exposed to members
of the opposite biological sex while using the
restroom.
84. As a consequence, some Plaintiffs and other
students are using the restroom as little as

208a

possible while at school so they will not have to
risk using the restroom with a student of the
opposite biological sex present. This may
increase their risk for various health conditions,
like bladder infections.
85. Some students risk tardiness by hurrying to
distant facilities of the school, during short 5minute passing periods, to try and find a
restroom not likely to be used by a student of the
opposite biological sex.
86. The stress and anxiety some students feel
over having to use the restroom with biologically
opposite-sex students is an ever-present
distraction throughout the school day, including
during class instruction time.
87. The DALLAS HIGH SCHOOL Principal has
told students that all restroom facilities may be
utilized by any student regardless of their
biological sex and may not object to students of
the opposite sex utilizing the same facilities,
which is not acceptable to Parent Plaintiffs for
multiple reasons set forth in the following
paragraphs:
88. Depending on the classes a student has, this
can mean that they travel significant distances
from one class to another in a limited passing
period.
89. Restrooms are often a significant distance
apart, so a student's choice to find another
restroom may mean there is not enough time to

209a

find another restroom, attend to their personal
needs, and still arrive to class on time. Tardiness
may result in detention or other sanctions.
90. The suggested solution is even more
unworkable if there are lines in the restrooms,
or if there is an urgent or immediate need to use
the restroom.
91. DISTRICT'S response to Parent Plaintiffs
makes the restroom environment hostile to
Student Plaintiffs since each time they use the
restroom they must do so knowing that a
student of the opposite biological sex can walk in
on them. In the same way, in response to the
request for a private locker room facility, the
DALLAS HIGH SCHOOL Principal told Parent
Plaintiffs that their students could use the
unisex staff lounge, which has no functioning
shower. None of these is an acceptable
alternative.
92. Students at DALLAS HIGH SCHOOL have
expressed
their
discomfort
with
the
accommodations provided for Student A and
attempted to circulate a petition objecting to
such accommodations. However, Principal Steve
Spencer confiscated the petitions being
circulated and ordered students circulating
them to discontinue doing so or face disciplinary
action.
93. At Board meetings on December 14, 2015,
January 19, 2016 and February 11, 2016,

210a

despite public opposition from Plaintiffs and
many other parents and students, DISTRICT
defended its policies and practices indefinitely
granting Student A right of entry to and use of
any and all boys' locker rooms, shower rooms
and restrooms in DALLAS HIGH SCHOOL.
DISTRICT represents speakers at these
meetings as experts on gender identity issues,
all of whom have exclusively supported the
Student Safety Plan and condemned any
objections to these policies.
94. Based on DISTRICT'S public defense of
these policies, Plaintiffs further believe that
Student A will similarly be allowed access to
other DISTRICT facilities of her choice
throughout the DISTRICT when attending
school or other programs at such other
DISTRICT facilities.
95. In addition to Student A, plaintiffs
understand on information and belief there are
one or more other students attending DISTRICT
schools who self-identify as transgender or
"gender fluid."2
"Gender fluidity" is generally defined to mean
that one's gender identity can change day-today, or even moment-to-moment, and is not
limited to the two binary genders (i.e., to "male"
or "female"). So, for example, one may identify
as female one moment, as male the next, and as
2

211a

96. In February, 2017 the staff at DISTRICT'S
La Creole Middle School administered a "Needs
Assessment" to students at La Creole on their
school-issued Chrome Book computers without
prior notice, knowledge or consent of parents or
guardians. Ex. P. Among the students required
to take the Needs Assessment was A.G. The
Needs Assessment asked students to disclose
confidential information about various problems
or issues they were experiencing the students
might want assistance with, including clothing,
school supplies, family food sufficiency, alcohol
or drug abuse, suicide, self-image, sexual
orientation and gender identity, unhealthy
relationships and other subjects of a personal or
family nature. After some parents learned of the
survey and objected, school officials said
participation in the survey was voluntary,
whereas A.G. and other students understood
their participation was required.

neutrois (a neutral gender that is neither male
nor female) the next. See, e.g., Gender Diversity,
"Gender
Fluidity,"
available
at
http://www.genderdiversity.org/resources/termi
nology/A^Q7i6marv.org',"Genderfluid,"
Available
at
http://nonbinary.org/wiki/Genderfluid
(both
websites last visited May 3, 2016).

212a

Damaging Effects of District's Actions on
Students at Dallas High School
Boy Plaintiffs
97. A number of biologically male students,
including Boy Plaintiffs, had physical education
during the same class period as Student A, and
were forced to use the PE locker room with her
in spite of their objections to doing so.
98. Boy Plaintiffs and other biologically male
students cannot escape forced interactions with
Student A in the locker room because physical
education ("PE") is a mandatory course for two
or more years of school in DISTRICT, and is a
requirement to graduate. Moreover, it is
mandatory that all students in PE class change
into clothing appropriate for PE class, and all
must change their clothes at the beginning and
end of each PE class.
99. The main boys' locker room is a square room
with four banks of lockers and wooden benches,
plus communal showers along one wall, used by
approximately 30 students in physical education
classes to change clothes during a given class
period. Also within that space are segregated
lockers, showers and restroom facilities and
coach's office spaces.

213a

Girl Plaintiffs,
100. Because of the Student Safety Plan (Ex. A),
Girl Plaintiffs and other biologically female
students at DALLAS HIGH SCHOOL face living
in ongoing anxiety, fear, and apprehension that
a biological boy will be permitted to walk in at
any time while they are using the school locker
rooms or showers and see them in a state of
undress or while changing.
101. Because of the Student Safety Plan, Girl
Plaintiffs and other biologically female students
at DALLAS HIGH SCHOOL live in constant
anxiety, fear, and apprehension that a biological
boy will be permitted to walk in at any time
while they are using the restroom engaged in
intimate and private bodily functions.
102. In that event, Girl Plaintiffs cannot escape
forced interactions with biologically male
students in the locker room because physical
education ("PE") is a mandatory course for two
or more years of school in DISTRICT, and is a
requirement to graduate. Moreover, it is
mandatory that all students in PE class change
into clothing appropriate for PE class, and all
must change their clothes at the beginning and
end of each PE class. Some Girl Plaintiffs and
other biologically female students also change
into sports bras, resulting in even greater bodily
exposure while in the locker rooms.

214a

103. The Girls' locker room is constructed
similarly to the boys' locker room.
104. Girl Plaintiffs object to being forced to use
a locker room, shower or restroom with any
biological male student as the Student Safety
Plan mandates when a biological male student
informs the DISTRICT of his new gender as a
female.
105. The dread, anxiety, stress, and fear the Girl
Plaintiffs feel over having to use the same locker
room, shower or restroom as a biologically male
student is a constant distraction during the
school day, including during class instruction
time.
106. The Girl Plaintiffs and other biologically
female students are also anxious, afraid and
embarrassed to see any biologically male
students in a state of undress or naked because
he is a biological male.
107. The Girl Plaintiffs and other female
students feel compelled to change their clothing
as quickly as possible during PE classes, while
trying not to observe other students.
108. Because of the Defendants' actions that
allow a biological male into the girls' locker
room, Girl Plaintiffs and other female students
have come to view the PE locker room as a scary
and intimidating environment.
109. Additionally, DISTRICT has, through
various announcements to the students at

215a

DALLAS HIGH SCHOOL and through board
and community meetings on gender identity
DISTRICT has organized and sponsored,
conveyed to the Student Plaintiffs and parents
the message that any objection to the Student
Safety Plan (Ex. A) or restriction on Student A's
use of opposite sex facilities based on her gender
identity will be viewed by DISTRICT
administration as intolerance and bigotry.
110. Because of DISTRICT'S message that
differing views will not be tolerated, most of the
Student Plaintiffs have been deterred from
asking for a separate, private locker room or
restroom.
111. Because of DISTRICT'S message, at least
some Student Plaintiffs are afraid to be named
publicly in this lawsuit, for fear that other
students and their schools will retaliate against
them.
112. Third, even if Student Plaintiffs could use
the facilities without suffering ridicule and
harassment, they do not remedy the privacy
violation caused by the presence of a person of
the opposite biological sex sharing the same
small, intimate settings where they are naked or
in various states of undress.

216a

Parent Plaintiffs
113. DISTRICTS response to Parent Plaintiffs
does nothing to alleviate the stress and anxiety
of having their student subjected to the presence
of a student of the opposite biological sex already
using the locker room, shower or restroom.
114. All Parent Plaintiffs also adamantly object
to their sons and daughters using locker rooms,
showers and restrooms with students of the
opposite sex while that student is naked or in a
state of undress, nor do they want their children
to attend to their private bodily needs in the
presence of the opposite biological sex.
115. Some Parents have asked DISTRICT for
private options for their students to change their
clothes and use the restroom, but the options
offered are inadequate and inferior to the
facilities provided to Student A. Additionally,
options offered are also unworkable in terms of
the practical locker room and shower needs of
the Student Plaintiffs.
116. The Student Safety Plan (Ex. A) interferes
with some Parent Plaintiffs' preferred moral
and/or religious teaching of their children
concerning modesty and nudity.
117. The Student Safety Plan (Ex. A) further
interferes with Parent Plaintiffs' right to control
whether their children will be exposed to the

217a

opposite sex in intimate, vulnerable settings like
restrooms, locker rooms, and showers.
118. The Student Safety Plan (Ex. A) interferes
with Parent Plaintiffs' right to control whether
their children's partially or fully unclothed body
is exposed to the opposite sex.
119. Because of the Student Safety Plan (Ex. A),
at least one Parent Plaintiff has decided to send
his daughter to private school, instead of a
DISTRICT school, when she starts high school.
120. Some student and parent members of
PARENTS FOR PRIVACY, including JON &
KRIS GOLLY and their children, are devout
Christians whose faith requires that they
preserve their modesty and not use the
restroom, shower, or undress, in the presence of
the opposite sex.
121. These students and parents also believe
that they should not be in the presence of a
member of the opposite sex while that person is
using the restroom, showering, or undressing.
122. The Student Safety Plan (Ex. A) is
particularly likely to cause emotional and
psychological trauma to girls who have been
sexually assaulted, for whom the presence of a
biological male in their private facilities can be
especially unnerving, or even terrifying. The
Centers for Disease Control (the "CDC") has
observed that almost 12% of high school girls
reported that they had already experienced the

218a

horror of rape. Center for Disease Control,
Sexual Violence: Facts at a Glance (2012);
http://www.cdc.gov/violenceprevention/pdf/svdatasheet-a.pdf. This means that nearly 1 out of
every 8 high school girls is likely to have suffered
sexual assault, a statistic that compounds the
problem with the Student Safety Plan.
DISTRICT'S policies thereby cause stress,
fright, embarrassment, humiliation, and
anxiety for the Student Plaintiffs, they are likely
more traumatizing to other students who have
been sexually assaulted.
ALLEGATIONS OF LAW
123. All Student Plaintiffs have suffered and
continue to suffer the loss of their
constitutionally guaranteed right to bodily
privacy, as well as their right under Title IX to
an education that is free from a hostile
environment based on sex, because of the
Defendants' policies and actions, including the
Student Safety Plan.
124. Additionally, all Student Plaintiffs suffer
embarrassment,
humiliation,
anxiety,
intimidation, fear, apprehension, stress,
degradation, and loss of dignity as a result of the
Defendants' actions, including the Student
Safety Plan.

219a

125. Defendants' actions and the Student Safety
Plan negatively impacts Student Plaintiffs'
ability to receive an education, creating a hostile
environment
where
Student
Plaintiffs
experience sexual harassment and loss of
dignity at the hands of their school every day.
126. Federal Defendants have exceeded their
statutory authority, acted arbitrarily and
capriciously,
and
violated
plaintiffs'
constitutional rights by adopting a legislative
rule redefining "sex" under Title IX to include
"gender identity" and enforcing that rule in a
manner that effectively requires DISTRICT to
allow students to use the locker rooms and
restrooms of the opposite sex.
127. Federal Defendants have acted without
observing the proper administrative procedure
for adopting and enforcing such a new legislative
rule, which includes notice and comment under
the APA and presidential approval under Title
IX.
128. It is a violation of the right to bodily privacy
to force students to have their partially or fully
unclothed bodies viewed by students of the
opposite sex.
129. The right to bodily privacy also bars the
government from forcing students into
situations where they risk exposure of their
unclothed body to the opposite sex.

220a

130. Minors have a fundamental right to be free
from compelled intimate exposure of their bodies
to members of the opposite sex, which is violated
when the defendants force them to use the
restrooms and locker rooms with students of the
opposite sex.
131. Defendants are violating the parental right
to control the upbringing and education of one's
child by exposing Parent Plaintiffs' children to
the opposite sex in intimate, vulnerable settings
like restrooms, locker rooms, and showers,
especially where their children, the opposite-sex
children, or both, may be in a state of undress or
even naked. District Defendants are further
violating the rights of Parent Plaintiffs in
administering surveys to students delving into
personal and family matters without advance
notice, knowledge or consent of parents and
guardians.
132. Providing single-sex restrooms, locker
rooms, and shower facilities does not violate
Title IX, so long as the facilities provided for one
sex are comparable to the facilities provided to
the other sex.
133. Defendants' actions and the Student Safety
Plan violate Plaintiffs' free exercise rights under
the United States Constitution and state
statutory law.
134. Plaintiffs are suffering and continue to
suffer irreparable harm.

221a

135. Plaintiffs have no adequate remedy at law.
FIRST CLAIM FOR RELIEF (FEDERAL
DEFENDANTS):
VIOLATION OF THE ADMINISTRATIVE
PROCEDURE ACT
136. Plaintiffs re-allege and incorporate all
matters set forth in ¶¶1 through 135 herein.
137. Federal Defendants promulgated, and are
enforcing, a new legislative rule that redefines
the term "sex" in Title IX and its accompanying
regulations to mean, or at least include, "gender
identity."
138. USDOE has expressed its intention to
enforce this new redefinition of "sex" as a
legislative rule against DISTRICT.
139. USDOE's new legislative rule contradicts
the text, structure, legislative history, and
historical judicial interpretation of Title IX, all
of which confirm that "sex" means male and
female in the binary and biological sense.
140. According to USDOE's new legislative rule,
Title IX requires schools to permit students to
use restrooms, locker rooms, and showers based
on their gender identity rather than their
biological sex.
141. USDOE has communicated this new
legislative rule to school districts nationwide via
a "Dear Colleague" letter dated May 13, 2016

222a

(Exhibit K) and stated that their failure to
comply with it will result in investigation and
enforcement action up to and including
withdrawal of millions of dollars in federal
funding.
142. USDOE's promulgation and enforcement of
this new legislative rule are reviewable actions
under the Administrative Procedure Act ("APA")
pursuant to 20 U.S.C § 1683.
143. USDOE's actions are also final, and there
is no other adequate remedy because the
Student Safety Plan binds DISTRICT such that
Plaintiffs cannot get relief unless the Rule is set
aside, and the Federal Defendants are enjoined
from continuing to communicate and enforce the
new rule redefining the meaning of "sex."
Plaintiffs continue to be denied an effective
remedy, despite the remedial actions alleged in
¶ 39, because the Rule remains in effect.
144. Plaintiffs have suffered a legal wrong as a
direct result of USDOE's actions, because
Plaintiffs' constitutional and statutory rights
were and continue to be violated by the Student
Safety Plan, which is the direct result of
USDOE's enforcement of its new rule.
145. Under the APA, a reviewing Court must
"hold unlawful and set aside agency action" in
one or more of four instances that apply to this
case:

223a

• If the agency action is "in excess of statutory
jurisdiction, authority, or limitations, or short of
statutory right." 5 U.S.C. § 706(2)(C);
• If the agency action is "arbitrary, capricious,
an abuse of discretion, or otherwise not in
accordance with law." 5 U.S.C. § 706(2)(A);
• If the agency action is "contrary to
constitutional right, power, privilege, or
immunity." 5 U.S.C. § 706(2)(B); and
• If the agency action is "without observance of
procedure required by law." 5 U.S.C. § 706(2)(D).
146. USDOE's action here violates all four of
these standards and should be held unlawful
and set aside.
147. Plaintiffs ask this Court (1) to set aside and
remove from its official website all guidance
documents, (See ¶¶ 32, 39; Exs. H-N), to the
extent that they incorporate gender identity
within the meaning of "sex" for purposes of Title
IX, as well as the Student Safety Plan, and (2) to
declare and enjoin USDOE and USDOJ from
further enforcing Title IX in a manner that
requires DISTRICT to give any students the
right of entry to, and use of, the private facilities
(including locker rooms, showers and restrooms)
designated for students of the opposite sex.

224a

USDOE's Action Is Unlawful under the
APA Because It is in Excess of Statutory
Jurisdiction, Authority, or Limitations
148. USDOE's actions in promulgating and
enforcing its new rule are "in excess of statutory
jurisdiction, authority, or limitations, or short of
statutory right," because they redefine the
unambiguous term "sex" and add gender
identity to Title IX without the authorization of
Congress.
149. Congress has not delegated to USDOE the
authority to define or redefine unambiguous
terms in Title IX.
150. Title IX does not require that DISTRICT or
any other school open its girls' restrooms, locker
rooms and shower rooms to biological males who
identify as female, nor does it require that
DISTRICT open their boys' facilities to biological
females who identify as male.
151. USDOE's unilateral decree that "sex" in
Title IX means, or includes, "gender identity,"
which requires schools to allow males who
identify as female to use the girls' facilities, and
vice versa, requires DISTRICT to give students
the right of entry and use of opposite sex locker
and shower rooms, and requires DISTRICT to
give all students right of entry and use of the
restrooms that correspond to their gender
identity, irrespective of their biological sex.

225a

152. This new rule is not supported by Title IX's
text, implementing regulations, or legislative
history.
153. Therefore, USDOE's rule was promulgated
and enforced "in excess of statutory jurisdiction,
authority or limitations, or short of statutory
right[,]" See 5 U.S.C. § 706(2)(C). This Court
should hold USDOE's rule unlawful and set it
aside, including removing it from its official
website.
154. Additionally, even if USDOE's rule was
interpretive, it would still exceed USDOE's
statutory authority and should be declared
unlawful and set aside.
USDOE's Action Is Unlawful under the
APA Because It is Arbitrary,
Capricious, an Abuse of Discretion, or Not
in Accordance with Law
155. USDOE's actions in promulgating and
enforcing its new rule are "arbitrary, capricious,
an abuse of discretion, or otherwise not in
accordance with law." See 5 U.S.C. § 706(2)(A).
156. Congress requires that whenever an agency
takes action it do so after engaging in a process
by which it "examine[s] the relevant data and
articulate[s] a satisfactory explanation for its
action including a rational connection between
the facts found and the choice made." Motor Veh.

226a

Mfrs. Ass'n. v. State Farm Ins., 463 U.S. 29, 43
(1983) (quotation omitted).
157. An agency action is "arbitrary and
capricious if the agency has relied on factors
which Congress has not intended it to consider,
entirely failed to consider an important aspect of
the problem, offered an explanation for its
decision that runs counter to the evidence before
the agency, or is so implausible that it could not
be ascribed to a difference in view or product of
agency expertise." Motor Veh. Mfrs. Ass's v.
State Farm Ins., 463 U.S. at 43.
158. USDOE has given no explanation for its
redefinition of "sex" in Title IX, whereby USDOE
unilaterally decreed that the term "sex" in Title
IX means, or includes, gender identity; requires
DISTRICT to give Student A right of entry and
use of opposite sex locker and shower rooms; and
requires DISTRICT to give all students access to
the facilities that correspond to their gender
identity, if the students desire to use them.
159. USDOE has given no explanation of the
relevant factors that were the basis of its
actions, and USDOE has failed to consider
important
implications
and
adverse
consequences caused by allowing biological boys
and girls to share intimate settings, including:
the language and structure of Title IX and its
regulations; the congressional and judicial
histories of Title IX and its regulations; the

227a

practical and constitutional harms created by its
unlawful application of Title IX; and the
violation of Title IX caused by this unlawful
application.
160. USDOE's action was also made without a
rational explanation, inexplicably departed from
established policies, or rested on other
considerations that Congress could not have
intended to make relevant.
161. USDOE has offered no explanation for its
rule redefining "sex"; the rule departed from the
established Title IX policy that allowed schools
to maintain private facilities separated by
biological sex; and the rule rested on
considerations related to "gender identity"
despite the fact that the legislative history
indicates Congress did not intend "sex" to mean
anything other than biological sex.
162. USDOE's legislative action was also taken
even though it is contrary to law or regulation.
163. USDOE's rule purporting to redefine Title
IX violates Title IX as it applies to the very
group Title IX was created to protect by creating
a hostile environment for Girl Plaintiffs.
164. USDOE's promulgation and enforcement of
its rule is thus arbitrary, capricious, an abuse of
discretion, and not in accordance with law. This
Court should therefore hold that it is unlawful
and set it aside. Additionally, even if USDOE's
rule was interpretive, it would still be arbitrary,

228a

capricious, an abuse of discretion, and not in
accordance with law, and so should be declared
unlawful, set aside and removed from its official
website.
USDOE's Action Is Unlawful under the
APA Because It is Contrary to
Constitutional Right, Power, Privilege, or
Immunity
165. For the reasons set forth herein, USDOE's
actions are "contrary to constitutional right,
power, privilege, or immunity." See 5 U.S.C. §
706(2)(B).
166. USDOE's legislative rule is an unlawful
application of Title IX contrary to the
Constitution because it violates the privacy
rights of Student Plaintiffs, their parents'
fundamental liberty interest in controlling their
children's upbringing and education, and the
rights of some Student Plaintiffs and their
parents to freely live out their religious beliefs.
167. Also, USDOE's legislative rule is in
violation of the Spending Clause of the United
States Constitution, under which Title IX was
enacted, in that Congress uses its Spending
Clause power to generate legislation in the
nature of a contract: in return for federal funds,
the States agree to comply with federally
imposed conditions.

229a

168. Congress must clearly and unambiguously
state the conditions to which the States are
agreeing in exchange for federal funds, so that
the States can knowingly decide whether to
accept the funding. The crucial inquiry is
whether Congress spoke so clearly that it can be
fairly said that the State could make an
informed choice.
169. Requiring schools to allow biological
females access to facilities designated for males
cannot pass this test, no matter how the females
identify. Nor can allowing biological males
access to facilities designated for females pass
this test, no matter how the males identify.
170. As set forth herein, the plain language of
the text, along with the legislative history,
clearly indicates that Congress intended that (1)
"sex" means "biological sex"; (2) Title IX
prevents discrimination based on biological sex;
and (3) Title IX allows sex-separated restrooms,
locker rooms and showers.
171. Further, the implementing regulations
specifically allow schools to maintain restrooms,
locker rooms and showers separated by
biological sex. 34 CFR 106.33.
172. For over 40 years of Title IX's existence, it
has been universally understood by schools that
receive federal education funding that Title IX's
definition of "sex" does not include gender
identity.

230a

173. It has likewise been universally understood
by schools that received federal education
funding that maintaining separate restrooms,
locker rooms, showers and other private
facilities on the basis of biological sex is
consistent with Title IX.
174. No school could have possibly made an
informed choice, because no school could have
known that the funds it agreed to accept were
conditioned on allowing cross-sex private
facilities, or otherwise recognizing gender
identity as within the meaning of the term "sex."
175. For these reasons, this Court should hold
USDOE's actions unlawful, set aside its
Guidance Documents (Exs. H-K) and the
Student Safety Plan (Ex. A), and enjoin it, along
with USDOJ, from further communicating to
DISTRICT the new rule that "sex" in Title IX
includes "gender identity."
176. Additionally, even if USDOE's rule was
interpretive, it would still be contrary to
constitutional right, power, privilege, or
immunity and should be declared unlawful, set
aside and removed from its official website.

231a

USDOE's Action Is Unlawful under the
APA Because It is Without
Observance of Procedure Required by Law
177. For the reasons set forth herein, USDOE's
actions were taken "without observance of
procedure required by law." 5 U.S.C. § 706(2)(D).
178. The rule imposes rights and obligations
which, through administrative enforcement
actions, applies generally to and binds all school
districts, including DISTRICT.
179. Under the Administrative Procedure Act,
any "rules which do not merely interpret
existing law or announce tentative policy
positions but which establish new policy
positions that the agency treats as binding must
comply with the APA's notice-and-comment
requirements, regardless of how they initially
are labeled." 72 Fed. Reg. 3433.
180. The United States Supreme Court has
additionally ruled that all legislative rules,
which are those having the force and effect of
law and are accorded weight in agency
adjudicatory processes, are subject to noticeand-comment requirements. Perez v. Mortgage
Bankers Ass'n, 135 S. Ct. 1199, 1204 (2015).
181. "Notice-and-comment rulemaking" requires
that USDOE (1) issue a general notice to the
public of the proposed rule-making, typically by

232a

publishing notice in the Federal Register; (2)
give interested parties an opportunity to submit
written data, views, or arguments on the
proposed rule, and consider and respond to
significant comments received; and (3) include
in the promulgation of the final rule a concise
general statement of the rule's basis and
purpose.
182. Notice-and-comment rulemaking also
requires that USDOE consider all the relevant
comments offered during the public comment
period before finally deciding whether to adopt
the proposed rule.
183. Additionally, under Title IX all final rules,
regulations, and orders of general applicability
issued by USDOE must be approved by the
President of the United States, who has hitherto
declined to do so.
184. USDOE promulgated and enforced its new
rule redefining "sex" in Title IX to include
"gender identity" without notice and comment
as required by law. 5 U.S.C. § 553. It
promulgated this new legislative rule without
signature by the president as required by Title
IX. 20 U.S.C. § 1682.
185. Simply stated, USDOE did not follow the
required procedure when it adopted its new rule
defining "sex" in Title IX to mean, or include,
gender identity.

233a

This Court should therefore hold that it is
unlawful, set it aside and remove it from
its official website.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set
forth hereinafter in the Prayer for Relief.
SECOND CLAIM FOR RELIEF
(Against DISTRICT and the FEDERAL
DEFENDANTS):
VIOLATION OF THE FUNDAMENTAL
RIGHT TO PRIVACY
186. Plaintiffs re-allege all matters set forth in
¶¶ 1 through 185 and incorporate them herein
by reference.
187. "Fundamental rights" are rights deeply
rooted in this nation's history and tradition and
are implicit in the concept of ordered liberty,
grounded in the Fourteenth Amendment's Due
Process Clause.
188. Numerous courts have recognized a
fundamental right to bodily privacy, which right
includes a right to privacy of one's fully or
partially unclothed body and the right to be free
from State-compelled risk of intimate exposure
of oneself to the opposite sex.
189. Student Plaintiffs, like everyone else, enjoy
the fundamental right to bodily privacy.

234a

190. The right to be free from State-compelled
risk of intimate exposure of oneself to the
opposite sex, while part of the right to bodily
privacy, is a fundamental right grounded in the
Fourteenth Amendment's Due Process Clause.
191. Throughout its history, American law and
society have recognized and upheld a
commitment to protecting citizens, and
especially children, from suffering the risk of
exposing their bodies, or their intimate
activities, to the opposite sex.
192. From colonial times, the law allowed civil
actions against "Peeping Toms", and as
American law developed after the Founding, it
criminalized surreptitiously viewing others
while they reasonably expect privacy.
193. These protections are heightened for
children.
194. While pornography involving only adults is
legal and cannot be constitutionally banned,
federal law makes it a crime to possess,
distribute, or even view images of naked
children. Moreover, nearly every state,
including Oregon, has laws criminalizing
"sexting," which occurs when someone (often a
minor) sends a naked picture of himself or
herself via email, text messaging, or other
electronic means to a minor.
195. In the late 1800s, as women began entering
the workforce, the law developed to protect

235a

privacy by mandating that workplace restrooms
and changing rooms be separated by sex.
Massachusetts adopted the first such law in
1887. By 1920, 43 of the (then) 48 states had
similar laws protecting privacy by mandating
sex separated facilities in the workplace.
196. Because of our national commitment to
protect our citizens, and especially children,
from the risk of being exposed to the anatomy of
the opposite sex, as well as the risk of being seen
by the opposite sex while attending to private,
intimate needs, sex-separated restrooms, locker
rooms and showers are an American social and
modesty norm ubiquitous in public places,
including public schools.
197. Historically, purposefully entering a
restroom or locker room designated for the
opposite biological sex has been considered
wrongful, and even criminal, behavior, and
historically there has been no mixing of the
biological sexes in school restrooms, locker
rooms or showers.
198. Freedom from the risk of compelled
intimate exposure to the opposite sex, especially
for minors, is a fundamental right deeply rooted
in this nation's history and tradition and is also
implicit in the concept of ordered liberty.
199. The ability to be clothed in the presence of
the opposite biological sex, along with the
freedom to use the restroom, locker room and

236a

shower away from the presence of the opposite
biological sex, is fundamental to most people's
sense of self respect and personal dignity,
including plaintiffs', who should be free from
State- compelled risk of exposure of their bodies,
or their intimate activities.
200. If government is granted the far-reaching
and extreme power to compel its citizens to
disrobe or risk being unclothed in the presence
of the opposite sex, little personal liberty
involving our bodies would remain.
201. The government may not infringe
fundamental rights, unless the infringement
satisfies strict scrutiny review, which requires
that the government demonstrate that the law
or regulation furthers a compelling interest
using the least restrictive means available.
202. The Student Safety Plan allows Student A,
a biological female, and other biological females
the right of entry to, and use of, the boys' locker
rooms, showers and restrooms any time she
wants.
203. The Student Safety Plan similarly allows
biological male students who may or may not
identify as female access and use of the girls'
locker rooms, showers and restrooms, and it
similarly allows biological female students who
may or may not identify as male access and use
of the boys' locker rooms, showers and
restrooms.

237a

204. For these reasons, the Student Safety Plan
requires Student Plaintiffs to risk being
intimately exposed to those of the opposite
biological sex, thereby infringing Student
Plaintiffs' fundamental right to privacy in their
unclothed bodies, as well as their fundamental
right to be free from government-compelled risk
of intimate exposure to the opposite sex, without
any compelling justification.
205. Defendants have no compelling interest to
justify forcing school children to share restrooms
and locker rooms with opposite sex classmates,
and Defendants have not used the least
restrictive means of serving any interest they
may have.
206. Accordingly, the Student Safety Plan fails
strict scrutiny review and is unconstitutional as
applied to any minor, including the Student
Plaintiffs.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.

238a

THIRD CLAIM FOR RELIEF
(Against DISTRICT and the FEDERAL
DEFENDANTS):
VIOLATION OF PARENTS'
FUNDAMENTAL RIGHT TO DIRECT THE
EDUCATION AND UPBRINGING OF
THEIR CHILDREN
207. Plaintiffs re-allege all matters set forth in
¶¶1 through 185 and incorporate them herein.
208. The right of parents to make decisions
concerning the care, custody, and control of their
children is a fundamental right protected by the
Fourteenth Amendment's Due Process Clause.
209. Included within that parental fundamental
right is the power to direct the education and
upbringing of one's children, including the right,
as well as the duty, to instill moral standards
and values in their children. Additionally,
parents enjoy the fundamental right to notice
and the opportunity to consent to their
children's participation in surveys seeking
personal and family information for use by
schools and others.
210. Parents' right and duty to instill moral
standards and values in their children, and to
direct their education and upbringing,
encompasses the right to determine whether
and when their minor children endure the risk
of being exposed to members of the opposite sex

239a

in intimate, vulnerable settings like restrooms,
locker rooms and showers.
211. Parents also have a fundamental right to
determine whether and when their children will
have to risk being exposed to opposite sex nudity
at school, as well as a fundamental right to
determine whether their children, while at
school, will have to risk exposing their own
undressed or partially unclothed bodies to
members of the opposite sex.
212. Defendants have no legal authority to
dictate whether and when minor children will
risk being exposed to the opposite sex and/or
opposite-sex nudity in such settings in
derogation of each parents' right to decide for his
or her own child, especially when those
children's parents object. Defendants further
have no legal authority to seek or obtain
personal and family confidential information
from students without the knowledge and
consent of their parents or guardians.
213. All Parent Plaintiffs object to the Student
Safety Plan and agree that they do not want
their minor children to endure the risk of being
exposed to the opposite sex in intimate,
vulnerable settings like locker rooms, showers
and restrooms, nor do they want their minor
children to attend to their personal, private
bodily needs in the presence of members of the
opposite sex.

240a

214. All Parent Plaintiffs desire to raise their
children with a respect for traditional modesty,
which requires that one not undress or use the
restroom in the presence of the opposite sex.
215. All Parent Plaintiffs desire to prevent their
children from enduring the risk of being
observed while undressing by members of the
opposite sex, or enduring the risk of being
exposed to the unclothed bodies of members of
the opposite sex.
216. Some Parent Plaintiffs, including JON
AND KRIS GOLLY, object to the Student Safety
Plan for religious reasons because of their
sincerely-held religious beliefs about modesty
and other religious doctrines.
217. The Student Safety Plan, instituted and
enforced by the Defendants, impermissibly
infringes and undermines the right of Parent
Plaintiffs to direct the upbringing and education
of their children.
218. Defendants may not infringe fundamental
rights, including parents' fundamental right to
direct the education and upbringing of their
children, unless the infringement satisfies strict
scrutiny review, which requires that Defendants
demonstrate that the law or regulation furthers
a compelling interest using the least restrictive
manner available.
219. Defendants have no compelling interest to
justify forcing school children to share

241a

restrooms, locker rooms and showers with
opposite sex students, and Defendants have not
used the least restrictive means of serving any
interest they may have.
220. Accordingly, the Student Safety Plan fails
strict scrutiny review and unconstitutionally
infringes on parents' fundamental right to direct
the education and upbringing of their children.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
FOURTH CLAIM FOR RELIEF
(Against DISTRICT):
VIOLATION OF TITLE IX
221. Plaintiffs re-allege all matters set forth in
¶¶ 1 through 185 and incorporate them herein.
222. Title IX provides that "[n]o person in the
United States shall, on the basis of sex, be
excluded from participation in, be denied the
benefits of, or be subjected to discrimination
under any education program or activity
receiving Federal financial assistance." 20
U.S.C. § 1681(a).
223. Courts have given Title IX broad effect in
order to combat sex discrimination in the
educational setting.

242a

224. Title IX is a broadly-written general
prohibition on discrimination based on sex that
does not explicitly list every discriminatory act
prohibited.
225. There is an implied right of action under
Title IX and no requirement that a claimant
must first exhaust administrative remedies
before bringing a Title IX claim.
226. Allowing people to use restrooms, locker
rooms or showers designated for the opposite
biological sex violates privacy and creates a
sexually harassing hostile environment.
227. Exposure to opposite-sex nudity creates a
sexually harassing hostile environment.
228. The Student Safety Plan allows some
students to use locker rooms, restrooms and
showers designated for students of the opposite
biological sex.
229. The Student Safety Plan needlessly
subjects Student Plaintiffs to the risk that their
partially or fully unclothed bodies will be
exposed to students of the opposite sex and that
they will be exposed to opposite-sex nudity,
causing the Student Plaintiffs to experience
embarrassment,
humiliation,
anxiety,
intimidation, fear, apprehension, stress,
degradation, and loss of dignity.
230. Some Student Plaintiffs are avoiding the
restroom as a result of the embarrassment,
humiliation,
anxiety,
intimidation,
fear,

243a

apprehension, stress, degradation, and loss of
dignity they experience because of the Student
Safety Plan.
231. Some Student Plaintiffs are not able to
concentrate as well in school as they did before
because of these policies.
232. All Student Plaintiffs find that school has
become intimidating and stressful as a result of
the Student Safety Plan.
233. The Student Safety Plan violates Title IX in
that it produces unwelcome sexual harassment
and create a hostile environment on the basis of
sex.
234. As recited below, Student Plaintiffs satisfy
the five elements of a Title IX in that they each:
(1) belong to a protected group in that they are
female and male students at an educational
institution that receives federal funds; (2) were
and are subjected to harassment in that the
Student Safety Plan allows biological males to
use girls' locker rooms, restrooms and showers,
and further allows biological females to use the
boys' locker rooms, restrooms and showers,
thereby creating a sexually harassing hostile
environment; (3) were and are subjected to
harassment based on sex; (4) were subjected to
harassment so pervasive or severe that it altered
the conditions of plaintiffs education; and (5) can
establish knowledge by school officials.

244a

235. There are real and significant differences
between the biological sexes, including but not
limited to differences in anatomy and
physiology, which differences do not disappear
when biological males identify as female, and
vice versa.
236. Biological and anatomical differences
between the sexes is the reason that Title IX and
its implementing regulations allow for separate
living facilities, restrooms, locker rooms and
changing areas for each biological sex to
recognize that each biological sex has unique
needs and vulnerabilities when using these
facilities.
237. Title IX and its implementing regulations
further allow for separate living facilities,
restrooms, locker rooms and changing areas for
each biological sex based on the recognition that
permitting a biological male to enter and use
such facilities designated for females, or
permitting a biological female student to enter
and use such facilities designated for males
would be sexually harassing to the opposite sex.
238. Moreover, both male and female Student
Plaintiffs experience humiliation, anxiety,
intimidation, fear, apprehension, stress,
degradation, and loss of dignity as a result of the
Student Safety Plan permitting the opposite sex
to be in locker rooms and restrooms designated
for their biological sex.

245a

239. It is the significant and real differences
between the biological sexes that creates the
hostile environment, which is harassment.
240. The harassment created by the Student
Safety Plan, because it denies real differences
between the biological sexes, is sufficiently
severe or pervasive (either of which is
actionable) in that it is ongoing and continuous,
occurring every time any of the Student
Plaintiffs use the locker room, showers or
restroom. It is further severe in that it places the
bodily privacy of both sexes at risk.
241. The environment is one that a reasonable
person would find hostile or abusive, and one
that Student Plaintiffs in fact perceive to be so.
242.
The
sexually
harassing
hostile
environment is threatening and humiliating,
and has altered the conditions of Student
Plaintiffs' educational opportunities, benefits,
programs and/or activities.
243. DISTRICT officials are aware of the hostile
environment and the fact DISTRICTS own
official policies (including the Student Safety
Plan) are the direct cause of this hostile
environment because some Student Plaintiffs,
and some Parent Plaintiffs, have contacted
DISTRICT officials, including the principal and
superintendent, about the hostile environment.
Even though these officials have authority to
stop the hostile environment, and despite the

246a

knowledge that their policies are creating a
hostile environment based on sex, Defendants
have not remedied the situation. Instead, these
officials have advised that, if the students
perceive the environment to be hostile, the
students should remove themselves from it by
accepting an "accommodation" or using a
different restroom.
244. Schools cannot escape liability for Title IX
violations by requiring the victim of harassment
to remove themselves from the hostile
environment or otherwise suggesting they are
responsible for the harassment.
245.
Additionally,
the
accommodations
themselves violate Title IX in that some Girl
Plaintiffs have been told that instead of using
the locker room to change for PE class, they may
change their clothing in a nurse's office located
on the other side of the school. This facility for
changing is inferior to the locker room facilities
provided for boy students in violation of 34 CFR
§ 106.33, which provides that schools receiving
federal funding "may provide separate toilet,
locker room, and shower facilities on the basis of
sex, [as long as] such facilities provided for
students of one sex [are] comparable to such
facilities provided for students of the other sex."
246.
Additionally,
the
accommodations
themselves violate Title IX in that some of the
Student Plaintiffs have been told that, if they

247a

are uncomfortable using a restroom because a
member of the opposite sex is present, they may
find another restroom. Because there are only
five minutes between classes, any student
leaving one restroom to find another is almost
certain to be tardy and will also miss
instructional time.
247. The Student Safety Plan violates Title IX
by creating a hostile environment on the basis of
sex.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
FIFTH CLAIM FOR RELIEF
(Against FEDERAL DEFENDANTS):
RELIGIOUS FREEDOM RESTORATION
ACT
42 USC §§ 2000bb et seq
248. Plaintiffs re-allege all matters set forth in
¶¶ 1 through 184 and incorporate them herein.
249. Many Student Plaintiffs have religious
convictions that they practice modesty. These
students have the sincere religious belief that
they must not undress, or use the restroom, in
the presence of the opposite biological sex, and
also that they must not be in the presence of the
opposite biological sex while the opposite

248a

biological sex is undressing or using the
restroom.
250. Some Parent Plaintiffs, including JON
AND KRIS GOLLY, have the sincere religious
belief that they must teach their children to
practice modesty. Their religious faith also
requires them to protect the modesty of their
children. These parents have the sincere
religious belief that their children must not
undress, or use the restroom, in the presence of
a member of the opposite biological sex, and also
that they must not be in the presence of the
opposite biological sex while the opposite
biological sex is undressing or using the
restroom.
251. The Student Safety Plan requires Student
Plaintiffs to use restrooms, locker rooms and
shower rooms, knowing that a student of the
opposite biological sex either is present with
them, or could enter while they are using these
private facilities.
252. The Student Safety Plan prevents Student
Plaintiffs from practicing the modesty that their
faith requires of them, and it further interferes
with Parent Plaintiffs teaching their children
traditional modesty and insisting that their
children practice modesty, as their faith
requires of Parent Plaintiffs.
253. Complying with the requirements of the
Student Safety Plan thus places a substantial

249a

burden on the Plaintiffs' exercise of religion by
requiring Plaintiffs' to choose between the
benefit of a free public education and violating
their religious beliefs.
254. Federal Defendants have no "compelling
interest" that would justify burdening Plaintiffs'
exercise of religion in this manner, nor have they
used the "least restrictive means" to achieve
their purported interest in burdening Plaintiffs'
exercise of religion in this manner.
255. The Student Safety Plan thus violates
Plaintiffs' rights protected by the Religious
Freedom Restoration Act.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
SIXTH CLAIM FOR RELIEF
(Against DISTRICT and the FEDERAL
DEFENDANTS):
VIOLATION OF THE FIRST
AMENDMENT'S GUARANTEE OF
FREE EXERCISE OF RELIGION
256. Plaintiffs re-allege all matters set forth in
¶¶1 through 255 and incorporate them herein.
257. The First Amendment provides that
Congress shall make no law respecting an

250a

establishment of religion, nor prohibiting the
free exercise thereof.
258. The Student Safety Plan burdened the free
exercise rights of some Plaintiffs as previously
alleged.
259. Laws that burden free exercise, but are not
neutral or generally applicable, are subject to
strict scrutiny.
260. The Student Safety Plan is not generally
applicable in that it does not expressly allow all
students to use the opposite-sex restrooms,
locker rooms and showers, but arguably only
students who perceive themselves as a different
gender than their biological sex, and further
may allow accommodations of some, but not all,
students.
261. Similarly, the Student Safety Plan is not
generally applicable in that it applies only to one
student, Student A, but does not apply to all
students, allowing them to access whatever
locker and shower rooms they want.
262. The Student Safety Plan does not even
apply to all students who perceive their gender
identity to be different than their biological sex.
263. Because the Student Safety Plan is not
generally applicable, it is subject to strict
scrutiny, which it fails.
264. Additionally, the Student Safety Plan is
subject to strict scrutiny and fails the strict
scrutiny standard because, in addition to

251a

burdening free exercise rights, it also burdens
other constitutional rights, including the
privacy rights of Student Plaintiffs and the
parental rights of Parent Plaintiffs as alleged
above.
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
SEVENTH CLAIM FOR RELIEF
PUBLIC ACCOMMODATION
DISCRIMINATION
ORS 659A.400 et sea. ORS 659A.885
(Against DISTRICT and STATE
DEFENDANTS)
265. Plaintiffs re-allege all matters set forth in
¶¶ 1 through 255 and incorporate them herein.
266. Oregon public elementary and secondary
schools, including Dallas High School and other
District schools, are places of public
accommodation within the meaning of ORS
659A.400, and discrimination is prohibited in
such places based on religion, sex and sexual
orientation, including gender identity.
267. DISTRICT and STATE DEFENDANTS
have engaged in discrimination against
DISTRICT students, parents and those entering
school premises on grounds of their sex and

252a

sexual orientation in that they have been
deprived of the right to utilize restrooms, locker
rooms and showers without encountering
persons of the opposite biological sex.
268. DISTRICT and STATE DEFENDANTS
have engaged in discrimination against
DISTRICT students, parents and those entering
school premises on grounds of their religion in
that they have been deprived of their right to
utilize restrooms, locker rooms and showers
without encountering persons of the opposite
biological sex contrary to their sincerely-held
religious beliefs.
269. STATE DEFENDANTS have further
participated in, condoned, aided, abetted and/or
incited the unlawful discrimination in the
foregoing paragraphs against Plaintiffs contrary
to ORS 659A.406.
270. Plaintiffs are each entitled to recover actual
damages or $200, whichever is greater,
pursuant to ORS 659A.885(7) against District,
and further to declaratory and injunctive relief
against State Defendants prohibiting the
discrimination alleged above.
271. Plaintiffs are further entitled to recover
reasonable and necessary attorney fees and
costs incurred in the prosecution of this action
pursuant to ORS 21.107 and 659A.885Q) and
(7)(d) against District and State Defendants.

253a

WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
EIGHTH CLAIM FOR RELIEF
(Against DISTRICT)
DISCRIMINATION IN EDUCATION (ORS
659.850)
272. Plaintiffs re-allege all matters set forth in
¶¶ 1 through 271 and incorporate them herein.
273. DISTRICT has subjected plaintiffs to
discrimination on the basis of religion, sex and
sexual orientation as defined in ORS 659.850(1)
in public elementary and secondary education
programs, services and schools where such
programs, services and schools are financed in
whole or in part by moneys appropriated by the
Legislative
Assembly
without
providing
reasonable accommodations based on the health
and safety needs of plaintiffs and others coming
on school premises.
274. Plaintiffs have unsuccessfully presented
their grievances and objections to DISTRICT'S
school board on multiple occasions within 180
days of the policies causing the alleged
discrimination, as required by ORS 659.860(3).
275. Plaintiffs are entitled to recover actual
damages or $200, whichever is greater,
pursuant to ORS 659.860(1).

254a

276. DISTRICT'S violation of ORS 659.850
should subject DISTRICT to appropriate
sanctions, which may include withholding of all
or part of state funding for the period of the
discrimination.
277. Plaintiffs are further entitled to recover
reasonable and necessary attorney fees and
costs incurred in the prosecution of this action
pursuant to ORS 21.107, ORS 659.860(7),
659A.885(1) and (7)(d).
WHEREFORE, Plaintiffs respectfully pray that
the Court grant the relief set forth hereinafter in
the Prayer for Relief.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully pray for
judgment as follows and request
the following relief:
A. That this Court enter preliminary and
permanent
injunctions
restraining
all
Defendants, their officers, agents, employees,
and all other persons acting in concert with
them, from enforcing the Student Safety Plan
and ordering them to permit only biological
females to enter and use DISTRICTS girls'
restrooms, locker rooms and showers, and
permit only biological males to enter and use

255a

DISTRICTS boys' restrooms, locker rooms and
showers;
B. That this Court hold unlawful, set aside and
remove from its official websites the Federal
Defendants' Rule that redefines the word "sex"
in Title IX to mean, or include, gender identity,
which it announced in at least the following
documents—U.S. Department of Education,
Office for Civil Rights, Questions and Answers
on Title IX and Sexual Violence, 5 (Apr. 2014);
U.S. Department of Education, Office for Civil
Rights, Questions and Answers on Title IXand
Single-Sex Elementary and Secondary Classes
and Extracurricular Activities, 25 (Dec. 2014);
U.S. Department of Education, Office for Civil
Rights, Title IX Resource Guide, 1, 15,
16, 19, 21-22 (Apr. 2015);
C. That this Court enter preliminary and
permanent injunctions restraining the Federal
Defendants, their officers, agents, employees,
and all other persons acting in concert with
them, from taking any action based on USDOE's
new rule that redefines the word "sex" in Title
IX, including implementing the revocation of
funding as indicated in the Dear Colleague
Letter
sent
to
DISTRICT
and
from
communicating to DISTRICT through these
documents or in any other manner that the term
"sex" means, or includes, gender identity or that
Title IX bars gender identity discrimination or

256a

mandates that regulated entities allow students
to use restrooms, locker rooms and showers
based on their gender identity;
D. That this Court enter a declaratory judgment
declaring that the Student Safety Plan
impermissibly burdens the Student Plaintiffs'
constitutional right to privacy; impermissibly
burdens the Student Plaintiffs' constitutional
right to be free from State-compelled risk of
intimate exposure of themselves and their
intimate activities to members of the opposite
sex; impermissibly burdens Parent Plaintiffs'
constitutional right to direct the upbringing and
education of their children;
E. Enter declaratory judgment declaring that
Defendants must provide parents advance
notice of School Safety Plan and the opportunity
to consent or object to its implementation with
respect to their child(ren);
F. Enter declaratory judgment that Defendants
must provide parents advance notice of surveys
or assessments seeking personal and family
information of a confidential nature, must
secure consent of parents in advance of
administering such surveys or assessments, and
prohibiting Defendants from compelling student
participation in such surveys or assessments;
G. That this Court award statutory damages,
and compensatory damages for violation of
Plaintiffs' constitutional and statutory rights,

257a

except those claimed under the Administrative
Procedure Act and against the Oregon
Department of Education and Governor Kate
Brown arising under federal law;
H. That this Court retain jurisdiction of this
matter for the purpose of enforcing any Orders;
I. That this Court award Plaintiffs costs and
expenses of this action, including a reasonable
attorneys' fees award, in accordance with 775
ILCS 35/20, 28 U.S.C. § 2412, and 42 U.S.C §
1988;
J. That this Court award Plaintiffs costs and
expenses of this action, including a reasonable
attorneys' fees award, in accordance with ORS
21.107, ORS 659.860(7), 659A.885(1) and (7)(d).
K. That this Court issue the requested
injunctive relief without a condition of bond or
other security being required of Plaintiffs; and
L. That this Court grant such other and further
relief as the Court deems just and equitable in
the circumstances.
DATED this 13th day of November, 2017.
Herbert G. Grey, OSB #810250
4800 SW Griffith Drive, Suite 32
Beaverton, OR 97005-8716
Telephone: 503-641-4908
Email: herb@greylaw.org
Ryan Adams, OSB #150778
181 N. Grant Street, Suite 212

258a

Canby, OR 97013
Telephone: 503-266-5590
Email: rvan@ruralbusinessattornevs.com
Of Attorneys for Plaintiffs

259a

Transgender Student Access to Locker
Room
Student Safety Plan
All students have rights for attendance at public
schools, and we have to follow the laws which
protect those student rights. This safety plan
has been created to support a transgender male
expressing the right to access the boy's locker
room at Dallas High School. Following are
targeted areas of concern and the procedures or
actions aimed to support all students in this
transition.
Staff Communication:
• All staff will receive training during the
November 3rd staff meeting regarding the
transition.
• All staff will receive talking points from legal
counsel.
•
All
staff
will
receive
instruction
communicating who the title IX officer is (Tim
Larson) and who complaints should be directed
to (Steve Spencer, Tim Larson, Dennis Engle)
• Additional practice will be given to help
prepare for "grocery store conversations" so
appropriate responses can be provided.

260a

Classroom Communication:
• All PE Teachers will take time to review locker
room expectations for all students.
• All Teachers will take time to teach about antibullying and harassment (Policy JFCF pg 21-23)
along with disciplinary implications from the
Offenses Against Persons section in the student
handbook (pgl9)
• Teachers and administrators will teach the
talking points provided by legal counsel to 4th
period PE classes
Preferred Locker Assignment:
• Locker will be in the middle of the locker room
in direct line of sight to PE teachers in coaches'
office.
Teacher
Locker
Supervision:

Room/

Classroom

• Identified Student's PE Teacher will
deliberately be the 1st one in and last one to
leave the locker room during 4th period in order
to provide visual observation and safety from
physical and or verbal harassment or bullying.
There will always be an adult in the locker room
and in the gymnasium.

261a

Bathrooming:
• Identified student has not identified which
bathroom he feels comfortable using at the
present time. The boy's locker room is available
for use but is not in direct line of sight for PE
Teachers in the locker room. It is critical that the
identified student communicate any concerns he
may be having when using the facilities.
Identified student does not yet possess a STP
(Stand to Pee) device, so using the stall would be
the only viable option.
• Identified student can use any of the
bathrooms in the building to which he identifies
sexually. Parent (mom) does not give permission
for Identified student to leave campus to go
home to use the bathroom. This is a change from
current practice which was to check in and out
with Kelli McGuire at the attendance office.
• Planning for the monthly menstrual cycle will
be undertaken. There is no available waste
disposal for sanitary napkins in the boy's locker
room. There will not be any product available in
the boy's locker room. Identified student will
need to ensure that disposal of waste is taken
care of properly.
Reporting Concerns:
• The Identified student has named the
following staff as "Safe Adults" who he feels

262a

comfortable talking to about anything related to
the transgender transition into the locker room
or any other related concerns:
o Dana Goodale, Polk County Mental HealthSchool Based Counselor
o Toni Hannan, DHS School Counselor
o Anna Jackson, Choir Teacher
o Steve Spencer, Principal
o Tim Larson. Athletic Director and Title IX
Coordinator
• Additionally, DHS has communicated that Bill
Masei and Shane Grimm (PE Teachers), along
with all administrators and their secretaries are
"Safe Adults" whom Student can share concerns
about bullying, harassment, etc.
• It has also been communicated that Dallas
School District expects all employees to comply
with all presently adopted policies and
corresponding reporting obligations.

